<html>
<title> - THE CLEAN WATER STATE REVOLVING FUND: HOW FEDERAL INFRASTRUCTURE INVESTMENT CAN HELP COMMUNITIES MODERNIZE WATER INFRASTRUCTURE AND ADDRESS AFFORDABILITY CHALLENGES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   THE CLEAN WATER STATE REVOLVING FUND: HOW FEDERAL INFRASTRUCTURE 
  INVESTMENT CAN HELP COMMUNITIES MODERNIZE WATER INFRASTRUCTURE AND 
                    ADDRESS AFFORDABILITY CHALLENGES

=======================================================================

                                (116-5)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
 


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-383 PDF              WASHINGTON : 2019                                  
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                 GRACE F. NAPOLITANO, California, Chair

DEBBIE MUCARSEL-POWELL, Florida      BRUCE WESTERMAN, Arkansas
EDDIE BERNICE JOHNSON, Texas         DANIEL WEBSTER, Florida
JOHN GARAMENDI, California           THOMAS MASSIE, Kentucky
JARED HUFFMAN, California            ROB WOODALL, Georgia
ALAN S. LOWENTHAL, California        BRIAN BABIN, Texas
SALUD O. CARBAJAL, California        GARRET GRAVES, Louisiana
ADRIANO ESPAILLAT, New York          DAVID ROUZER, North Carolina
LIZZIE FLETCHER, Texas               MIKE BOST, Illinois
ABBY FINKENAUER, Iowa                RANDY K. WEBER, Sr., Texas
ANTONIO DELGADO, New York            DOUG LaMALFA, California
CHRIS PAPPAS, New Hampshire          BRIAN J. MAST, Florida
ANGIE CRAIG, Minnesota               GARY J. PALMER, Alabama
HARLEY ROUDA, California             JENNIFFER GONZALEZ-COLON,
FREDERICA S. WILSON, Florida           Puerto Rico
STEPHEN F. LYNCH, Massachusetts      SAM GRAVES, Missouri (Ex Officio)
TOM MALINOWSKI, New Jersey
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Water Resources 
  and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, prepared statement, submitted for the record by 
  Mrs. Napolitano................................................     7
Hon. Terri A. Sewell, a Representative in Congress from the State 
  of Alabama, prepared statement, submitted for the record by 
  Mrs. Napolitano................................................     9
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   101

                               WITNESSES

Hon. David Condon, Mayor, city of Spokane, Washington, on behalf 
  of the United States Conference of Mayors:

    Oral statement...............................................    14
    Prepared statement...........................................    16
John Mokszycki, Water Superintendent, town of Greenport, New 
  York, on behalf of the National Rural Water Association and New 
  York Rural Water Association:

    Oral statement...............................................    20
    Prepared statement...........................................    22
Catherine Coleman Flowers, Rural Development Manager, Equal 
  Justice Initiative, Montgomery, Alabama:

    Oral statement...............................................    25
    Prepared statement...........................................    26
Maureen Taylor, State Chairperson, Michigan Welfare Rights 
  Organization, Detroit, Michigan:

    Oral statement...............................................    30
    Prepared statement...........................................    31
Andrew Kricun, P.E., BCEE, Executive Director/Chief Engineer, 
  Camden County Municipal Utilities Authority, Camden, New 
  Jersey:

    Oral statement...............................................    33
    Prepared statement...........................................    35
Jill Witkowski Heaps, Visiting Scholar, University at Buffalo 
  School of Law, and Assistant Professor, Vermont Law School:

    Oral statement...............................................    39
    Prepared statement...........................................    41

                       SUBMISSIONS FOR THE RECORD

H.R. 1497, Water Quality Protection and Job Creation Act of 2019, 
  submitted for the record by Mrs. Napolitano....................     3
Letter of March 5, 2019, from the Western Governors' Association, 
  submitted for the record by Mrs. Napolitano....................    10
Statement of the American Society of Civil Engineers, submitted 
  for the record by Mrs. Napolitano..............................    11
Article, ``Miami Will Be Underwater Soon. Its Drinking Water 
  Could Go First,'' Bloomberg Businessweek, submitted for the 
  record by Ms. Mucarsel-Powell..................................    67

                                APPENDIX

Questions from Hon. Grace F. Napolitano for Hon. David Condon....   103
Questions from Hon. Grace F. Napolitano for John Mokszycki.......   106
Questions from Hon. Grace F. Napolitano for Andrew Kricun, P.E., 
  BCEE...........................................................   108
Questions from Hon. Grace F. Napolitano for Jill Witkowski Heaps 
  and supplementary information to testimony.....................   111
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 1, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Water Resources and 
Environment
    FROM:   Staff, Subcommittee on Water Resources and 
Environment
    RE:       Subcommittee Hearing on ``The Clean Water State 
Revolving Fund: How Federal Infrastructure Investment Can Help 
Communities Modernize Water Infrastructure and Address 
Affordability Challenges''

                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Thursday, March 7, 2019, at 10 a.m. in HVC 210, Capitol 
Visitor Center, to receive testimony related to ``The Clean 
Water State Revolving Fund: How Federal Infrastructure 
Investment Can Help Communities Modernize Water Infrastructure 
and Address Affordability Challenges.'' The purpose of this 
hearing is to examine the current state of our clean water 
systems and receive testimony on the backlog of clean water 
infrastructure needs and the infrastructure affordability 
challenges facing communities and American households. The 
Subcommittee will hear from representatives of urban and rural 
utilities, individuals impacted by inadequate clean water 
infrastructure and affordability challenges, and a law 
professor who can speak to recommendations for the EPA to 
address water infrastructure needs in environmental justice 
communities.

                               BACKGROUND

CLEAN WATER INFRASTRUCTURE NEEDS

    America's water infrastructure is in need of further 
financial investment. According to the American Society of 
Civil Engineers 2017 Infrastructure Report Card, America's 
wastewater treatment infrastructure receives a grade of D+, 
which is only a slight improvement from its previous grade of D 
in the 2013 Report Card.
    According to the Environmental Protection Agency, 
communities need at least $271 billion of investment over the 
next 20 years \1\ to bring their systems to a state of good 
repair. Given the current level of Federal investment to 
address these needs, States and local governments are covering 
more than 95 percent of the cost of clean water projects.\2\
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/cwns/clean-watersheds-needs-survey-cwns-
2012-report-and-data.
    \2\ Congressional Budget Office. Public Spending on Transportation 
and Water Infrastructure, 1956 to 2017. October 2018. https://
www.cbo.gov/publication/54539.
---------------------------------------------------------------------------
    These statistics indicate a need for increased investment 
in our Nation's water infrastructure, and the benefits are 
numerous. Investing in clean water creates thousands of 
domestic jobs in the construction industry and reduces the 
overall costs of operating and maintaining that infrastructure. 
According to the National Utility Contractors Association, 
every $1 billion invested in our Nation's water infrastructure 
creates or sustains nearly 27,000 jobs in communities across 
America, while improving public health and the environment at 
the same time.\3\ In addition, clean water infrastructure helps 
prevent contamination of our nation's waters that are relied 
upon by the recreational industry. People spend approximately 
$70 billion per year on recreational boating and fishing; that 
industry employs more than 150,000 people.\4\
---------------------------------------------------------------------------
    \3\ Clean Water Council: Sudden Impact: An Assessment of Short-Term 
Economic Impacts of Water and Wastewater Construction Projects in the 
United States (June, 2009).
    \4\ EPA 2012. The importance of Water to the US Economy, Part 1: 
Background Report. Office of Water, US Environmental Protection Agency. 
September 2012.
---------------------------------------------------------------------------

CLEAN WATER ACT AFFORDABILITY

    Communities and governments at all levels face growing 
challenges in effectively managing the water resources 
necessary to support growing and shifting populations, thriving 
residential, commercial, industrial, and agricultural sectors, 
and healthy and productive natural environments. Many local 
governments also face complex affordability challenges--with 
some communities addressing shrinking rate bases, while others 
with growing populations facing increasing segments of their 
rate base that are unable to afford the rising costs of clean 
water. In short, local infrastructure needs can 
disproportionately impact the poorest segments of communities 
across the country. Nationwide, water utilities and 
communities, of all sizes, seek to ensure clean, safe, 
accessible, and affordable water, all the while dealing with 
the challenges of extreme weather events and mounting concerns 
regarding water quality and quantity.
    In 2017, the National Academy of Public Administration, 
issued a report that examined the challenges local communities 
face in providing clean, safe, and affordable water and 
wastewater services.\5\ This report concluded that the 
governmental responsibility to assure clean water that is also 
affordable to both communities and individuals has become an 
increasing challenge.
---------------------------------------------------------------------------
    \5\ National Academy of Public Administration. Developing a New 
Framework for Community Affordability of Clean Water Services. October 
2017. https://www.napawash.org/studies/academy-studies/developing-a-
new-framework-for-community-affordability-of-clean-water-servi.
---------------------------------------------------------------------------
    First, the report recognized that water infrastructure in 
the United States is aging, imposing additional costs on 
communities to both upgrade and maintain deteriorating 
infrastructure from deferred maintenance. Second, the report 
recognized the costs to communities to come into compliance 
with the Clean Water Act as an additional factor, and 
highlighted the importance of more cost-effective and 
innovative solutions, such as increased use of green-
infrastructure approaches, stormwater recapture and reuse, and 
integrated planning, to address these challenges. Finally, the 
report highlighted how affordability is an especially critical 
issue for low-income customers throughout the United States, 
noting that, while average annual expenditures for water are 
generally low relative to other utilities, they represent a 
higher share of income for those with the lowest 20 percent of 
income.
    In the 115th Congress, Congress approved two bills to 
address some of the challenges highlighted in the NAPA report. 
First, Congress approved the America's Water Infrastructure Act 
of 2018 (Pub. L. 115-270), which, among other things, expanded 
the eligibility for Clean Water Act grants to address sewer 
overflows and to capture, treat, and reuse wastewater and 
stormwater runoff. In addition, Congress passed the Water 
Infrastructure Improvement Act (Pub. L. 115-436), which 
codified the ``integrated planning'' concept that helps 
communities by providing them greater flexibility in meeting 
their requirements under the Clean Water Act while maintaining 
their obligation to achieve improvements in local water 
quality, as well as incorporated the use of green-
infrastructure approaches into the permitting and enforcement 
provisions of the Clean Water Act.
    In addition, legislation was introduced in both in the 
House \6\ and the Senate \7\ to amend the Clean Water Act to 
address the issue of water affordability at the household 
level; however, no additional action was taken on these bills.
---------------------------------------------------------------------------
    \6\ H.R. 2328, the Low-Income Sewer and Water Assistance Program 
Act of 2017 (115th Congress).
    \7\ S. 3564, the Low-Income Water Customer Assistance Programs Act 
of 2018 (115th Congress).
---------------------------------------------------------------------------

FEDERAL CLEAN WATER INVESTMENT: CLEAN WATER STATE REVOLVING FUND

    For close to 80 years, Congress has provided Federal funds 
to municipalities to address local water quality challenges, 
including sewage treatment needs. Initially, this assistance 
was provided as direct grants to municipalities (covering 55 to 
75 percent of the total costs of the projects). However, in 
1987, Congress converted the direct grant program to a Clean 
Water State Revolving Fund (``Clean Water SRF'') authority that 
provides funding directly to States which, in-turn, provide 
below-market rate loans to communities to finance local 
wastewater infrastructure needs (required to be fully repaid 
over a 30-year term).
    The authorization of appropriations for the Clean Water SRF 
expired after 1994. Yet, Congress continues to fund this 
critical investment in our Nation's wastewater infrastructure 
through annual appropriations bills--providing more than $43 
billion in Federal capitalization assistance to States since 
1987--including an appropriation of $1.694 billion for the 
Clean Water SRF in the fiscal year 2019 appropriations bill 
(Pub. L. 116-6). In turn, this infusion of Federal capital to 
State revolving funds has leveraged over $120 billion in direct 
assistance to communities over this period.
    In 2014, Congress enacted amendments to the Clean Water Act 
which authorized States that provide assistance to communities 
under the Clean Water SRF program, to provide additional 
subsidization, including forgiveness of principal and negative 
interest loans to benefit a municipality that meets the 
affordability criteria of the State; or that seeks additional 
subsidization to benefit individual ratepayers in the 
municipality's residential user rate class that will experience 
a significant hardship from the increase in rates necessary to 
finance the project or activity for which assistance is 
sought.\8\ In addition, in recent years, the annual 
appropriations bill for the U.S. Environmental Protection 
Agency has enacted additional provisions to require States to 
use a portion of Clean Water SRF funding to provide communities 
with ``additional subsidy to eligible recipients in the form of 
forgiveness of principal, negative interest loans, or grants'' 
as well as to reserve an additional portion of Clean Water SRF 
funding for ``projects to address green infrastructure, water 
or energy efficiency improvements, or other environmentally 
innovative activities.'' \9\
---------------------------------------------------------------------------
    \8\ Section 5003 of Pub. L. 113-121.
    \9\ The fiscal year 2019 appropriations bill requires States to 
utilize 10 percent of their Clean Water SRF capitalization grant for 
this subsidy/grant component, and 10 percent of their capitalization 
grant for green infrastructure and water and energy efficiency 
projects.
---------------------------------------------------------------------------
    Over the past few Congresses, legislation has been 
introduced to reauthorize and increase the authorized level of 
Federal appropriations for the Clean Water SRF program, as well 
as address the cost of wastewater service to low-income 
customers and households. Reauthorization of the Clean Water 
SRF program would provide Congress with the ability to 
establish Federal appropriations targets commensurate with 
local water infrastructure needs.
    The Committee could examine whether additional changes to 
the Clean Water SRF program are warranted, including whether to 
permanently incorporate into the Clean Water Act green 
infrastructure and additional subsidization provisions like 
those included in the recent appropriations bills for the U.S. 
Environmental Protection Agency.
    In January 2019, a coalition of 91 utility, engineering, 
contractors, and conservation groups cosigned a letter \10\ to 
Congress urging that water infrastructure be included as part 
of any infrastructure package approved in the 116th Congress.
---------------------------------------------------------------------------
    \10\ https://www.wef.org/globalassets/assets-wef/5--advocacy/
legislation-and-regulation/legislative-and-regulatory-affairs/water-
sector-letter-to-congress-on-infastructrure-package-jan2019.pdf.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet>  Mayor David A. Condon, city of Spokane, 
Washington, on behalf of the United States Conference of Mayors
    <bullet>  Mr. John Mokszycki, Water and Sewer 
Superintendent, Town of Greenport, New York, on behalf of the 
National Rural Water Association
    <bullet>  Ms. Catherine Flowers, Rural Development Manager, 
The Equal Justice Initiative, Montgomery, Alabama
    <bullet>  Ms. Maureen Taylor, State Chairperson, Michigan 
Welfare Rights Organization, Detroit, Michigan
    <bullet>  Mr. Andrew Kricun, P.E., BCEE, Executive 
Director/Chief Engineer, Camden County Municipal Utilities 
Authority, Camden, New Jersey, on behalf of the National 
Association of Clean Water Agencies
    <bullet>  Professor Jill Heaps, Assistant Professor of Law, 
Vermont Law School, Burlington, Vermont


   THE CLEAN WATER STATE REVOLVING FUND: HOW FEDERAL INFRASTRUCTURE 
  INVESTMENT CAN HELP COMMUNITIES MODERNIZE WATER INFRASTRUCTURE AND 
                    ADDRESS AFFORDABILITY CHALLENGES

                              ----------                              


                        THURSDAY, MARCH 7, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room JVC-210, the Capitol, Hon. Grace F. Napolitano (Chair of 
the subcommittee) presiding.
    Mrs. Napolitano. Good morning, everybody. Welcome to the 
first meeting of the Subcommittee on Water Resources and 
Environment for the 116th Congress. I call this hearing to 
order.
    Today's hearing focuses on the tremendous clean water 
infrastructure needs facing our country, and on the challenges 
facing both our communities, large and small, urban, rural and 
Tribal, as well as our American families, in addressing these 
needs.
    It is a privilege to serve as the chairwoman of this 
subcommittee, and I am pleased to be joined by my colleague and 
the ranking member, Mr. Westerman of Hot Springs, Arkansas. We 
had a nice meeting, a very comfortable meeting a couple of 
weeks ago, and I look forward to his input and working with him 
this Congress.
    Mr. Westerman. Thank you.
    Mrs. Napolitano. I also welcome new Members to the 
subcommittee: Representative Debbie Mucarsel-Powell of Florida; 
Representative Salud Carbajal of California; Representative 
Adriano Espaillat of New York; Representative Lizzie Fletcher 
of Texas; Representative Abby Finkenauer of Iowa; 
Representative Antonio Delgado of New York; Representative 
Chris Pappas of New Hampshire; Representative Angie Craig of 
Minnesota; Representative Harley Rouda of California; 
Representative Stephen Lynch of Massachusetts; Representative 
Tom Malinowski of New Jersey; Representative Gary J. Palmer of 
Alabama; and Representative Jenniffer Gonzalez-Colon of Puerto 
Rico.
    Welcome, everybody.
    This subcommittee will have a very busy agenda in the 
coming Congress, and I pledge to do my very best to run the 
committee with fairness, with mutual respect for every Member 
consistent with the longstanding, bipartisan successes of this 
committee.
    We have an ambitious agenda, but achievable, for this 
Congress.
    We will seek to find a legislative mechanism to ensure that 
all collections for harbor maintenance fund are spent annually.
    We will hold hearings on WRDA 2018 implementation and lay 
the groundwork for enactment of a new WRDA bill in 2020. As 
part of these discussions, we will look at ways to make our 
communities more resilient by learning about how we can use 
natural infrastructure, water recycling, and other tools.
    And I ask everybody to please provide comments and input so 
that we can work on a new WRDA and have it be more effective.
    We will strive to enact a bipartisan water infrastructure 
financing bill that not only reauthorizes the Clean Water State 
Revolving Fund (SRF), but also seeks to assure and address the 
affordability challenges facing all of our communities.
    Finally, we will renew our constitutional obligation to 
exercise congressional oversight over implementation of laws 
within our subcommittee's jurisdiction.
    We will start with now the opening of the hearing,
    To the topic of this hearing, the Clean Water State 
Revolving Fund, how Federal infrastructure investment can help 
communities modernize water infrastructure and address 
affordability challenges.
    Today, our Nation's network of sewers, stormwater 
conveyances, treatment facilities are all aging, often 
outdated, and, in many places, not meeting the standards and 
the needs of our communities or water quality needs.
    The American Society of Civil Engineers recently gave 
America's wastewater infrastructure a grade of a D-plus, up 
from a D, in its 2017 Infrastructure Report Card. According to 
the Environmental Protection Agency, communities report a need 
of almost $300 billion of investment over the next 20 years to 
bring their wastewater treatment systems to a state of good 
repair.
    Yet these statistics only tell half of the story. As noted 
by our witnesses here today, many communities also face the 
challenge of ensuring that water and sewer utilities remain 
affordable to those living in those communities.
    As communities of all sizes seek to continually improve the 
quality, safety, and reliability of their water utilities, they 
often struggle to also address challenges of declining rate 
bases, lower income households, and other competing local 
needs.
    All of these factors and many more compel us to find ways 
to make sure that water quality improvements are made more 
affordable to our communities.
    Congress has already taken significant steps to meet this 
challenge. Through enactment of integrated planning 
legislation, thank you, and the promotion of nature-based or 
green infrastructure alternatives to address planning local 
water quality challenges, we have provided tools to communities 
to develop more cost-effective, long-term plans to meeting 
local water quality challenges.
    We also need to make sure that we look at low-income 
communities and how they can be part of this, too.
    More needs to be done. We have to find ways to make sure 
the cost of Federal financing is affordable for all 
communities.
    One significant step that is long overdue is to reauthorize 
the Clean Water State Revolving Fund, a goal that has eluded 
Congress for almost 30 years.
    As witnesses note, this program is universal and very 
important to provide affordable financing to urban and rural 
communities alike, and its successes are typically limited only 
by a lack of available resources.
    On Tuesday, I was pleased to join Chairman DeFazio, 
Congressman Don Young, and Congressman John Katko in 
introducing H.R. 1497, the Water Quality Protection and Job 
Creation Act of 2019, to reauthorize the Clean Water State 
Revolving Fund, and I urge all of our Members to support this 
legislation, and our efforts to address local water quality 
challenges.
    I ask unanimous consent to include this in the record.
    Does anybody have any objections?
    [No response.]
    Mrs. Napolitano. So ordered.
    [The information follows:]

                                 
         H.R. 1497, Submitted for the Record by Mrs. Napolitano
    h.r. 1497, water quality protection and job creation act of 2019
    Available at: https://www.congress.gov/bill/116th-congress/house-
bill/1497/text

    Mrs. Napolitano. However, for those communities where a 
State Revolving Fund loan is still not enough to address local 
affordability needs, we need to ensure other tools are 
available. We need to fund targeted clean water grants, such as 
those authorized for combined and sanitary sewer overflows and 
stormwater capture and reuse in the 2018 Water Resources 
Development Act.
    We also need to explore whether the Federal Government can 
play a role in helping subsidize the cost of clean water at a 
household level, as we do today for household heating and 
cooling costs through the Low Income Home Energy Assistance 
Program. That is a mouthful, LIHEAP.
    Many States and communities run similar rate assistance 
programs today, but I believe the Federal Government can take a 
greater role to reduce the cost of water to our American 
families, and I hope to discuss this issue further.
    Before us, we have a distinguished panel of witnesses that 
can talk about real-world examples of where our network of 
clean water infrastructure works, where it does not, and what 
we can do better.
    I urge all of our Members to pay attention, listen to their 
stories, and to reflect on the real challenges American 
families face, every day, in obtaining clean, safe, and 
affordable water and wastewater services.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chair, Subcommittee on Water 
                       Resources and Environment
    Good Morning. Welcome the first meeting of the Subcommittee on 
Water Resources and Environment for the 116th Congress. I call this 
hearing to order.
    Today's hearing focuses on the tremendous clean water 
infrastructure needs facing our country, and on the challenges facing 
both our communities--large and small, urban, rural and tribal--as well 
as our American families, in addressing these needs.
    It is a privilege to serve as the chairwoman of this subcommittee, 
and I am pleased to be joined by my colleague and the ranking member, 
Congressman Bruce Westerman of Hot Springs, Arkansas. We had a good 
meeting a few weeks ago, and I look forward to working with you this 
Congress.
    I also welcome the new Members to the subcommittee: Rep. Debbie 
Mucarsel-Powell of Florida, Rep. Salud Carbajal of California, Rep. 
Adriano Espaillat of New York, Rep. Lizzie Fletcher of Texas, Rep. Abby 
Finkenauer of Iowa, Rep. Antonio Delgado of New York, Rep. Chris Pappas 
of New Hampshire, Rep. Angie Craig of Minnesota, Rep. Harley Rouda of 
California, Rep. Stephen Lynch of Massachusetts, Rep. Tom Malinowski of 
New Jersey, Rep. Gary J. Palmer of Alabama, and Rep. Jenniffer 
Gonzalez-Colon of Puerto Rico.
    This subcommittee will have a busy agenda in the 116th Congress. I 
pledge to do my best to run the subcommittee with fairness and with 
mutual respect for every Member--consistent with the longstanding, 
bipartisan successes of this committee.
    We have an ambitious but achievable agenda this Congress.
    We will seek to find a legislative mechanism to ensure that 
collections for harbor maintenance are spent annually.
    We will hold hearings on WRDA 2018 implementation, and lay the 
groundwork for enactment of a new WRDA bill in 2020. As part of these 
discussions, we will look at ways to make our communities more 
resilient, by learning about how we can use natural infrastructure, 
water recycling, and other tools.
    We will strive to enact a bipartisan water infrastructure financing 
bill that not only reauthorizes the Clean Water State Revolving Fund 
(SRF), but also seeks to address the affordability challenges facing 
all of our communities.
    Finally, we will renew our constitutional obligation to exercise 
congressional oversight over implementation of the laws within our 
subcommittee's jurisdiction.
    Now, to the topic of this hearing--today, our nation's network of 
sewers, stormwater conveyances, and treatment facilities is aging, 
often outdated, and, in many places, not meeting the needs of our 
communities or water quality standards.
    The American Society of Civil Engineers recently gave America's 
wastewater infrastructure a grade of a D+ in its 2017 Infrastructure 
Report Card. According to the Environmental Protection Agency, 
communities report a need of almost $300 billion of investment over the 
next 20 years to bring their wastewater treatment systems to a state of 
good repair.
    Yet, these statistics only tell half the story.
    As noted by our witnesses here today, many communities also face 
the challenge of ensuring that water and sewer utilities remain 
affordable to those living in the community.
    As communities of all sizes seek to continuously improve the 
quality, safety, and reliability of their water utilities, they often 
struggle to also address challenges of declining rate bases, lower 
income households, and other competing local needs.
    All of these factors compel us to find ways to make water quality 
improvements more affordable to our communities.
    Congress has already taken significant steps to help meet this 
challenge. Through enactment of integrated planning legislation and the 
promotion of nature-based or green infrastructure alternatives to 
addressing local water quality challenges, we have provided tools to 
communities to develop more cost-effective, long-term plans to meeting 
local water quality challenges.
    However, more needs to be done.
    We have to find ways to make sure the cost of Federal financing is 
affordable to all of our communities.
    One significant step that is long overdue is to reauthorize the 
Clean Water State Revolving Fund--a goal that has eluded this Congress 
for almost 30 years.
    As witnesses note, this program is universally important to 
providing affordable financing to urban and rural communities alike, 
and its successes are typically limited only by a lack of available 
resources.
    On Tuesday, I was pleased to join Chairman DeFazio, Congressman Don 
Young, and Congressman John Katko in introducing H.R. 1497, the Water 
Quality Protection and Job Creation Act to reauthorize the Clean Water 
SRF, and I urge all of our Members to support this bipartisan effort to 
address local water quality challenges.
    However, for those communities where a State Revolving Fund loan is 
still not enough to address local affordability needs, we need to 
ensure other tools are available. We need to fund targeted clean water 
grants, such as those authorized for combined and sanitary sewer 
overflows and stormwater capture and reuse in the 2018 Water Resources 
Development Act.
    We also need to explore whether the Federal government can play a 
role in helping subsidize the cost of clean water at a household level, 
as we do today for household heating and cooling costs through the Low 
Income Home Energy Assistance Program, or LIHEAP.
    Many States and communities run similar rate assistance programs 
today, but I believe the Federal government can take a greater role to 
reduce the cost of water to our American families, and I hope to 
discuss this issue further today.
    Before us, we have a distinguished panel of witnesses that can talk 
about real-world examples of where our network of clean water 
infrastructure works, where it does not, and what we can do better.
    I urge all of our Members to pay attention, listen to their stories 
and to reflect on the real challenges American families face, every 
day, in obtaining clean, safe, and affordable water and wastewater 
services.

    Mrs. Napolitano. At this time, I am pleased to yield to my 
colleague, the ranking member of our subcommittee, Mr. 
Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano.
    It is an honor to get to serve with you, to be on the 
leadership side of the Republican side of the dais, but I look 
forward to working with you for good solutions that are good 
for America.
    You know, a lot of times there is a lot to be said in a 
name, and I think Chairwoman Napolitano could not have a better 
first name than Grace. I have always said that the definition 
of Grace is getting something good that you do not deserve, and 
she exemplifies that. She is very kind, very nice to work with.
    It does not mean she is not tough and principled, but I 
appreciate the kindness and the openness to work together, and 
I look forward to carrying that relationship forward as we 
address these important issues.
    I am happy that we have such a diverse panel here so that 
we can gain your perspective on the issues facing local 
communities and addressing the Nation's water and wastewater 
infrastructure needs.
    These needs are substantial, and they continue to grow. In 
many communities, including communities in my State, in my 
district, water and wastewater infrastructure is long past its 
design life and in need of urgent repair, replacement and 
upgrading.
    As a result, we see leaks and blockages that are all too 
common across the Nation and represent a massive waste of a 
vital and sometimes scarce resource.
    Additionally, the needs are especially urgent for hundreds 
of communities trying to remedy the problem of combined sewer 
overflows, or CSOs, and sanitary sewer overflows, or SSOs. 
Shrinking municipal budgets, insufficient independent financing 
capabilities, and increasingly burdensome regulations without 
the necessary Federal support has strained communities' efforts 
to address these critical needs.
    This is especially the case for many of our small and rural 
communities. According to EPA, the total documented need for 
sustainable wastewater infrastructure, CSO and SSO correction, 
and stormwater management are over $270 billion over the next 
20 years.
    The needs for drinking water infrastructure drive this 
figure to over $600 billion, and these are considered 
conservative estimates. In Arkansas alone, the total documented 
needs are approaching $1 billion.
    So with talk of a major infrastructure package, today we 
need to ask the not so simple question: what can we do?
    How can we--and I do not necessarily mean the Federal 
Government--collectively, how can we pay for it?
    I believe it is going to take an ``all hands on deck'' 
approach to reverse the decline of our Nation's water 
infrastructure. Federal, State and local investment will be 
necessary, but cannot be relied upon to solve all of our 
problems.
    Instead we need to move away from business as usual and 
utilize every tool that is available. This means searching for 
new sources of funding, increasing collaboration between the 
public and private sectors, and improving Federal regulations.
    We need smarter asset management and increased efficiencies 
in our water systems, and to achieve that, we need to 
incentivize the adoption of new and innovative technologies 
that will cut cost and improve water quality.
    In addition, communities, particularly those that are 
struggling to address their needs and reduce the financial 
burdens on households, need to be given greater flexibility, 
including through the implementation of a vibrant integrated 
planning and permitting approach in addressing the compliance 
mandates that have been imposed upon them.
    Last year, the legislation that codified the EPA's 
integrated planning initiative was enacted. EPA now needs to 
effectively implement the initiative to help communities meet 
their needs in a more cost-effective manner.
    We need to carefully prioritize our investments in water 
infrastructure to ensure that we are adequately protecting the 
public health, promoting the economic growth of our 
communities, and preventing the degradation of the environment.
    I look forward to hearing the thoughts of our witnesses 
today, and again, Chairwoman, it is an honor to be here in our 
first hearing. Having an engineering background and reading the 
testimony, it is kind of exciting to us nerds in the world.
    [Laughter]
    Mr. Westerman. So I look forward to getting the hearing 
started, and I yield back.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    Thank you, Chairwoman Napolitano, and thank you to our witnesses 
for being here.
    I'm happy we have such a diverse panel here so that we can gain 
their perspectives on the issues facing local communities in addressing 
the Nation's water and wastewater infrastructure needs. These needs are 
substantial, and they continue to grow.
    In many communities, water and wastewater infrastructure is long 
past its design life and in need of urgent repair, replacement, and 
upgrading. As a result, leaks and blockages are all too common across 
the Nation and represent a massive waste of a vital, and sometimes 
scarce, resource.
    Additionally, the needs are especially urgent for hundreds of 
communities trying to remedy the problem of combined sewer overflows 
(or CSOs) and sanitary sewer overflows (or SSOs).
    Shrinking municipal budgets, insufficient independent financing 
capabilities, and increasingly burdensome regulations without the 
necessary federal support have strained communities' efforts to address 
these critical needs. This is especially the case for many of our small 
and rural communities.
    According to EPA, the total documented needs for sustainable 
wastewater infrastructure, CSO and SSO correction, and stormwater 
management are over $270 billion over the next 20 years. The needs for 
drinking water infrastructure drive this figure to over $600 billion. 
And these are considered conservative estimates.
    In Arkansas alone, the total documented needs are approaching $1 
billion.
    So with talk of a major infrastructure package, today we need to 
ask the not-so-simple questions: What can we do? How are we 
collectively going to pay for it?
    I believe it is going to take an all-hands-on-deck approach to 
reverse the decline of our Nation's water infrastructure. Federal, 
State, and local investment will be necessary, but cannot be relied 
upon to solve all our problems. Instead, we need to move away from 
``business as usual'' and utilize every tool available.
    This means searching for new sources of funding, increasing 
collaboration between the public and private sectors, and improving 
federal regulations.
    We need smarter asset management and increased efficiencies in our 
water systems, and to achieve that, we need to incentivize the adoption 
of new and innovative technologies that will cut costs and improve 
water quality.
    In addition, communities--particularly those that are struggling to 
address their needs and reduce the financial burdens on households--
need to be given greater flexibility, including through the 
implementation of a vibrant integrated planning and permitting 
approach, in addressing the compliance mandates that have been imposed 
on them.
    Late last year, legislation that codified the EPA's Integrated 
Planning Initiative was enacted. EPA now needs to effectively implement 
the Initiative to help communities meet their needs in a more cost-
effective manner.
    We need to carefully prioritize our investments in water 
infrastructure to ensure that we are adequately protecting the public 
health, promoting the economic growth of our communities, and 
preventing the degradation of the environment.
    I look forward to hearing thoughts from our witnesses today.

    Mrs. Napolitano. Thank you, sir, and thank you for your 
kind words.
    It is a pleasure to have him working with us. It truly is, 
in a bipartisan manner.
    I ask unanimous consent that the following submissions be 
made part of today's hearing record:
    A statement from the chairman of the committee, Peter A. 
DeFazio;
    A statement from the Honorable Terri Sewell from Alabama;
    A letter, dated March 5th, 2019, from the Western 
Governors' Association;
    A statement from the American Society of Civil Engineers.
    Are there any objections?
    [No response.]
    Mrs. Napolitano. If not, so ordered.
    [The information follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
  Transportation and Infrastructure, Submitted for the Record by Mrs. 
                               Napolitano
    Thank you, Madam Chairwoman, and congratulations on holding the 
first hearing of the Subcommittee on Water Resources and Environment.
    Today's hearing continues to tell the story on both the tremendous 
infrastructure needs facing this nation, as well as on the consequences 
to everyday Americans from our failure to invest in our water-related 
infrastructure systems.
    It is important to remember that in the days before enactment of 
the Clean Water Act, our nation's waters were so polluted that they 
typically were unsafe for swimming, were unable to support life, or 
they literally caught fire.
    Recognizing that we needed to do things differently and that 
pollution does not respect political or State boundaries, Congress 
enacted a comprehensive, national water pollution control program and 
provided States and communities with substantial funding to help 
address local water quality challenges.
    In the years immediately following the Clean Water Act, significant 
progress was made in cleaning up our waters. Yet, in recent years, the 
importance of safe, reliable, and affordable water systems has, again, 
become front page news, all across the country.
    In Flint, Michigan, a series of bad decisions, aging 
infrastructure, and poor local water quality resulted in the 
contamination of household drinking water supply for almost an entire 
city.
    In Toledo, Ohio, nutrient water quality contamination in Lake Erie 
forced the third largest city in the State to warn its citizens not to 
drink or even brush their teeth with their own water for days.
    In Charleston, West Virginia, a release of a toxic chemical 
immediately upstream of its drinking water intake shut down the State 
capital's drinking water supply for close to a week.
    Closer to home, just this past month, in Coos Bay, Oregon, an 
intense rainstorm that dropped over 5 inches of rain over two days 
overwhelmed our sewer system and caused the release of over 36,000 
gallons of sewer overflows into Coos Bay through the storm drain 
system.
    What all of these stories remind us is what we already should 
know--that our nation's network of water infrastructure is aging, 
outdated, and in desperate need of repair. We also now recognize that 
our water-related infrastructure is woefully inadequate to adapt to a 
changing climate, and to the extreme weather events and coastal storms 
that have become the norm.
    Numerous studies and reports have documented the poor national 
condition of our water infrastructure and the growing financial gap 
between infrastructure needs and available resources.
    These stories also demonstrate how our communities, both large and 
small, remain vulnerable to losing their basic water and sanitation 
services at a moment's notice, and how we need to invest in the 
protection and resilience of our water utilities. That is why I was 
pleased to join with the chairwoman and Congressmen Don Young and John 
Katko in a bill to reauthorize increased appropriations for the Clean 
Water State Revolving Fund program.
    Finally, these examples highlight how essential comprehensive Clean 
Water Act authorities are to protect the health of our citizens, our 
local economies, and our environment. Clean, safe, and reliable water 
should be a basic human right--and we should all, vigilantly, fight 
against efforts to weaken those protections, including those pursued by 
the current administration.
    Lastly, Madam Chairwoman, I am pleased that today's hearing 
highlights the growing affordability gap for basic water and sewer 
services.
    As the Federal government has pulled back on the share of Federal 
funds it contributes to local water and sewer projects, rate payers are 
typically asked to fill in the gap.
    While recent reports noted how the costs of water services are 
generally low when compared to other utilities, these costs also 
represent a higher share of income for those households in the lowest 
20 percent of income--those with the least ability to pay.
    Today, several of our witnesses will provide the committee real-
life examples on the consequences of unaffordable water services--from 
the threat of thousands of water and sewer shutoff notices issued in 
the city of Detroit to the re-emergence of hookworm--a parasite that 
thrives in areas without basic sanitation--here in the United States.
    We need to do better.
    Communities throughout the country are generally trying to do the 
right thing--to ensure clean, safe, and reliable water services to 
their citizens.
    However, we, in Congress must do our part as well--to ensure that 
we meet the Clean Water Act's ``fishable and swimmable'' goals we 
established for ourselves almost 50 years ago, and to do so in a manner 
that is affordable for all hard-working American families.
    Thank you, Madam Chairwoman.

                                 <F-dash>
    Prepared Statement of Hon. Terri A. Sewell, a Representative in 
 Congress from the State of Alabama, Submitted for the Record by Mrs. 
                               Napolitano
    Chairwoman Napolitano and Ranking Member Bruce Westerman,
    Thank you for hosting today's hearing on the need for federal 
infrastructure investment to help communities modernize water 
infrastructure and address affordability challenges. This issue is so 
critical, especially in rural communities like so many of the ones I 
represent, where millions of Americans are living with failing 
wastewater systems and contaminated drinking water.
    I am proud that Catherine Flowers, who is from my congressional 
district, is a witness today. I want to thank Chairman DeFazio and 
Chairwoman Napolitano for making sure that we have witnesses like 
Catherine who can talk about the real-life impact of our failure to 
invest in wastewater infrastructure. And I appreciate all of you for 
allowing me to submit these remarks for the record today as an off-
committee member.
    Catherine has been working for decades in Lowndes County and 
Alabama's Black Belt to improve the quality of life for so many 
families. She has been a tireless advocate on behalf of some of our 
Nation's most vulnerable people. And today, she is bringing their story 
to Washington. She has been effective in shining a light on this 
wastewater crisis and bringing much needed attention to the issue in 
the national and international press.
    A serious problem facing my constituents is the state of rural 
wastewater infrastructure. For too long, many rural Americans have not 
had access to properly-functioning and affordable wastewater treatment 
systems.
    The vast majority of Americans are served by municipal water-
treatment plants, where waste is carried directly from homes to 
wastewater treatment plants. An approximate 20 percent of Americans, 
mostly in rural communities, are responsible for the installation and 
maintenance of their own sewage disposal systems because they are not 
connected to a municipal line. Some of these Americans have properly 
designed and maintained septic tanks that keep bacteria, viruses, and 
nutrients out of groundwater, drinking water, and bodies of water where 
humans recreate. These systems can cost between $4,000 and more than 
$12,000 depending on size, complexity, location, and soil conditions. 
Due in part to the unaffordability of such a basic domestic utility, 
there are potentially millions of Americans living in areas where water 
has been contaminated by raw sewage from failing, improperly installed, 
or homemade septic systems.
    Because of affordability and environmental barriers, many of my 
constituents rely on homemade systems such as ``straight-pipe septic 
systems,'' in which a pipe deposits untreated, raw sewage directly into 
yards, ditches, drain pipes, bodies of water, and other areas where 
humans and animals have direct and indirect access. Others are living 
with failing septic systems that discharge raw sewage into homes, land, 
and water, and do not have the income necessary to fix them.
    And this issue isn't unique to my district or Alabama. Rural 
communities across the country--from West Virginia to California--are 
struggling with failing septic tanks or makeshift septic systems. 
According to the U.S. Census Bureau's American Housing Survey, as of 
2013, 1.25 million housing units across all 50 States lack adequate 
plumbing. More specifically, as of 2015, there are nearly 200,000 
housing units in the United States without a sewage system altogether--
meaning these homes do not have an adequate method for disposing of 
human waste.
    And as Catherine discussed in her testimony, many residents in 
Lowndes County have tested positive for parasitic infections. In 2019, 
it is unacceptable that American families are at risk of parasitic 
infections because this country hasn't provided proper wastewater 
infrastructure to rural Americans.
    We've made a lot of progress over the past couple of years in 
Congress. I'm proud that we secured an additional $1.8 billion in rural 
wastewater funding in FY2018 with the help of Alabama Congressman 
Robert Aderholt. That funding has been awarded in communities across 
the country, including Lowndes County and other parts of the 7th 
district.
    We also secured new language in the Farm Bill creating a rural 
septic tank access program. Alabama Congressman Mike Rogers introduced 
that bill with us on the House side and Senators Doug Jones, Cory 
Booker, and Shelley Moore Capito introduced on the Senate side. We will 
fight for more funding for that program during this Appropriations 
cycle and for years to come. We will also work to streamline the Clean 
Water State Revolving Fund to ensure States are using that funding 
where it is needed the most.
    We've been fortunate to coalesce a wonderful and eager group of 
engineering experts and stakeholders from the University of Alabama, 
Auburn University, University of South Alabama, and Columbia University 
to identify and develop an affordable decentralized system that can 
work in rural places like Lowndes County. Researchers at the University 
of Alabama at Birmingham have been awarded CDC funding to conduct 
parasite studies in the Black Belt. We will be successful in our 
efforts because we have gathered a coalition of stakeholders who are 
committed to doing everything in their power to bring proper wastewater 
infrastructure to rural places across the country.
    The families I represent do not need our pity. They need our 
commitment to addressing this issue once and for all. I look forward to 
working with Chairman DeFazio, Chairwoman Napolitano and all the 
members of this committee on this issue in the months and years to 
come. I would like to reiterate how appreciative I am that Catherine 
Flowers is a witness on today's panel. I yield back.

                                 <F-dash>
   Letter from the Western Governors' Association, Submitted for the 
                       Record by Mrs. Napolitano
                                                     March 5, 2019.
Hon. Grace Napolitano
Chair
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
Washington, DC 20515
    Dear Chair Napolitano and Ranking Member Westerman:
    Western Governors support federal policies that promote states' 
abilities to implement the federal Clean Water Act (CWA) and to protect 
their water resources. Thank you for examining the important topic of 
clean water needs and affordability at the Subcommittee's March 8 
hearing to examine the Water Quality Protection and Job Creation Act of 
2019. To inform the Subcommittee's consideration of this subject and 
proposed legislation, I request that you include the following 
attachments in the permanent record of the hearing:
    <bullet>  WGA Policy Resolution 2018-08, Water Resource Management 
in the West;
    <bullet>  WGA Policy Resolution 2018-12, Water Quality in the West; 
and
    <bullet>  A February 20, 2019 letter from the Western Governors' 
Association, National Conference of State Legislatures, Association of 
Clean Water Administrators, Association of State Wetland Managers, 
Council of State Governments-West, and the Western States Water Council 
to the U.S. Environmental Protection Agency and the U.S. Army Corps of 
Engineers which presents recommendations that would improve permitting 
processes under the CWA while preserving states' authority to manage 
and protect water resources.
    Western states are eager to serve as a resource to the Subcommittee 
as it examines these critical issues and seeks improvements to the CWA. 
Thank you for your consideration of this request.
        Sincerely,
                                   James D. Ogsbury
                                           Executive Director
  wga policy resolution 2018-08 water resource management in the west
    Retained in the committee files and available at http://
westgov.org/resolutions/policy-resolution-2018-08-water-resource-
management-in-the-west
          policy resolution 2018-12: water quality in the west
    Retained in the committee files and available at http://
westgov.org/resolutions/policy-resolution-2018-12-water-quality-in-the-
west
                     letter dated february 20, 2019
    Retained in the committee files and available at http://
westgov.org/letters/letter-wga-led-coalition-shares-recommendations-
for-clean-water-act-section-401-process-reforms-with-epa-army-corps

                                 <F-dash>
Statement of the American Society of Civil Engineers, Submitted for the 
                       Record by Mrs. Napolitano
                              introduction
    The American Society of Civil Engineers (ASCE) appreciates the 
opportunity to submit our position on the importance of long-term, 
strategic investment in our nation's water infrastructure systems. ASCE 
also thanks the U.S. House of Representatives Transportation and 
Infrastructure Subcommittee on Water Resources and Environment for 
holding a hearing on this critical issue. ASCE is eager to work with 
the Subcommittee in the 116th Congress to reauthorize the Clean Water 
State Revolving Fund.
ASCE's 2017 Infrastructure Report Card
    Infrastructure is the foundation that connects the nation's 
businesses, communities, and people, serves as the backbone to the U.S. 
economy, and is vital to the nation's public health and welfare. Every 
four years, ASCE publishes the Infrastructure Report Card, which grades 
the nation's 16 major infrastructure categories using a simple A to F 
school report card format. The Report Card examines the current 
infrastructure needs and conditions, assigning grades and making 
recommendations to raise them.
    ASCE's 2017 Infrastructure Report Card rated the overall condition 
of the nation's infrastructure a cumulative grade of ``D+'' across 
sixteen categories, with an investment gap of $2 trillion. The Report 
Card gave our nation's wastewater infrastructure category a grade of 
``D+,'' while our nation's drinking water infrastructure category 
received a grade of ``D.''
    Millions of new users are expected to be connected to centralized 
wastewater treatment centers in the coming years. America's wastewater 
and drinking infrastructure provide a critical service; therefore, it 
is crucial that all levels of government and the private sector make 
sustained, significant, and strategic investments these infrastructure 
systems.
            investment shortfalls total billions of dollars
    A well-maintained public drinking water and wastewater 
infrastructure is critical for public health, strong businesses, and 
clean waters and aquifers. However, funding both capital projects and 
operations and maintenance (O&M) is difficult because the public often 
does not appreciate the modern convenience of wastewater and drinking 
water treatment, making it difficult to convey the need for water rate 
increases. Furthermore, capital spending has not kept pace with needs. 
If these trends continue, the funding gap will only widen, resulting in 
leaking pipes, source water pollution, and increases in the cost of 
O&M.
    Overall, the nation's infrastructure funding gap comes to $2 
trillion over 10 years. Despite increased efficiency methods and 
sustainable practices, there is a growing gap between the capital 
needed to maintain drinking water and wastewater infrastructure and the 
actual investments made. By 2025, the disparity between needed and 
anticipated funding for drinking water and wastewater systems will be 
$105 billion.
    The nation's drinking water systems face staggering public 
investment needs over the next several decades. According to the 
American Water Works Association \1\, $1 trillion will be needed to 
maintain and expand drinking water service demands during the next 25 
years. Many of the pipes that deliver drinking water in the nation were 
laid in the early to mid-20th century with a lifespan of 75-100 years. 
Failures in drinking water infrastructure can result in water 
disruptions, impediments to emergency response, and damage to other 
types of essential infrastructure. Every day, nearly six billion 
gallons of treated water is lost due to leaking pipes, with an 
estimated 240,000 water main breaks occurring each year. It is 
estimated that leaky, aging pipes waste about 14 to 18 percent of each 
day's treated drinking water--enough to support 15 million households.
---------------------------------------------------------------------------
    \1\ American Water Works Association, Buried No Longer: Confronting 
Americas Water Infrastructure Challenge, February 2012
---------------------------------------------------------------------------
    Nearly 240 million Americans--76 percent of the population--rely on 
the nation's 14,748 treatment plants for wastewater sanitation. There 
are over 800,000 miles of public sewers and 500,000 miles of private 
lateral sewers connecting private property to public sewer lines. Each 
of these conveyance systems is susceptible to failure, blockages, and 
overflows.
    As cities continue to experience population growth and rural 
households switch from septic systems to public sewers, pressure on 
existing centralized systems will require billions of dollars in 
investment to meet federal regulatory requirements. Over the next two 
decades, it is estimated that more than 56 million new users will be 
connected to centralized wastewater systems, which will require the 
construction of 532 new systems by 2032 to meet future demand. The U.S. 
Environmental Protection Agency (EPA) \2\ estimates that over the 
course of the next 20 years, $271 billion will be needed for wastewater 
infrastructure.
---------------------------------------------------------------------------
    \2\ Environmental Protection Agency, Clean Water Needs Survey, 2012 
Report to Congress, December 2016.
---------------------------------------------------------------------------
                               solutions
    Fortunately, Congress has provided some federal funding options 
that could help close the funding gap needed for drinking water and 
wastewater infrastructure if appropriated. Certainly, federal funding 
is not the only answer; since the mid-1970s, money from local and state 
governments has represented an increasing percentage--nearly 95 
percent--of public drinking water and wastewater investment. Cities and 
towns across the country report that complying with federal wastewater 
and stormwater regulations represent some of their costliest capital 
infrastructure projects.
    As some water systems have become privatized, private capital has 
become another financing mechanism. Regardless of whether a water 
system is publicly or privately owned or managed, households and 
businesses still ultimately foot the bill. Therefore, care much be 
taken to ensure that rates are set at levels sufficient to maintain and 
upgrade infrastructure while not increased so much that low-income 
residents would face financial hardship.
    The federal government funds many infrastructure categories, and of 
all of these, water services receive less than 5 percent. However, the 
Clean Water State Revolving Fund (CWSRF) and the Drinking Water State 
Revolving Fund (DWSRF)--both authorized by Congress several decades 
ago--play a vital role in providing much-needed support for investments 
in state and local drinking and wastewater infrastructure.
    In the past 30 years, the federal government has loaned $42 billion 
to all 50 states, the District of Columbia, and Puerto Rico through the 
CWSRF, which has given states the ability to fund over $126 billion in 
wastewater infrastructure system improvements--all through low-interest 
financing. Every dollar provided by the federal government is matched 
at 20 percent by the state.
    Likewise, the DWSRF program provides low-interest loans to state 
and local infrastructure projects. The EPA provides an allotment of 
funding for each state, and like the CWSRF, each state provides a 20 
percent match. Since the program's inception, $35.4 billion of low-
interest loans have been allocated. ASCE was pleased that the DWSRF was 
reauthorized at increasing funding levels in the America's Water 
Infrastructure Act of 2018 (P.L. 115-270, Sec. 2023) and urges Congress 
to reauthorize the CWSRF at increasing funding levels, as well.
    ASCE believes that our nation's elected leaders need to act quickly 
to address the growing gap in drinking water and wastewater 
infrastructure investment. We urge Congress to:
    1.  Renew the federal commitment to water infrastructure by 
reinvigorating the CWSRF program through permanent reauthorization and 
tripling the amount of annual authorization and appropriations.
    2.  Fully fund the WIFIA program at no less than the FY19 enacted 
level of $68 million.
    3.  Eliminate the state cap on private activity bonds for water 
infrastructure projects to bring an estimated $6 billion to $7 billion 
annually in new private financing to bear on the problem.
    4.  Create legislation to allow Public Private Partnerships (P3) as 
one of many methods of financing water infrastructure improvements. 
ASCE supports the use of P3 project delivery methods to enhance 
federal, state and local resources when the public interest is 
protected.
    6.  Preserve tax exempt municipal bond financing, which provides 
communities with low-cost access to capital for drinking water and 
wastewater infrastructure upgrades.
    7.  Support green infrastructure solutions, which provide co-
benefits such as water and quality improvement, aesthetic value to 
communities, and cost competitiveness.
    5.  Create legislation to establish a dedicated source of revenue 
for drinking water and wastewater infrastructure projects that would 
provide a stable, long-term basis for financing for these critical 
systems.
    Finally, ASCE believes our nation must prioritize the investment 
needs of our wastewater and drinking water infrastructure to ensure 
public health, a strong economy, and clean and safe water sources. 
Strategic, robust, and sustained investments in these water 
infrastructure systems from a variety of mechanisms must be made 
quickly if we hope to close the growing funding gap. ASCE thanks the 
Subcommittee for holding this hearing and bringing attention to this 
critical matter. We look forward to working with you to find solutions 
to our nation's wastewater and drinking water infrastructure investment 
needs.

    Mrs. Napolitano. Thank you.
    We will now proceed to hear from our witnesses who will 
testify. Thank you for being here, and welcome to our House and 
your House.
    We have the Honorable David Condon, mayor, city of Spokane, 
Washington; and Mr. John Mokszycki, the water and sewer 
superintendent from the town of Greenport, New York. He will be 
introduced by Mr. Delgado.
    Ms. Catherine Flowers with Equal Justice Initiative, 
Montgomery, Alabama; Ms. Maureen Taylor with Michigan Welfare 
Rights Organization, Detroit, Michigan; Mr. Andrew Kricun from 
the Camden County, New Jersey, Municipal Utilities Authority; 
and Professor Jill Heaps, from the Vermont Law School.
    Your prepared statements will be entered into the record. 
All witnesses are asked to limit their remarks to 5 minutes.
    Mr. Delgado, would you like to introduce Mr. Mokszycki?
    Mr. Delgado. I surely would. Thank you, Chairwoman. I 
appreciate the opportunity.
    It is my great honor to introduce one of the witnesses on 
today's panel, Mr. John Mokszycki. John grew up in Athens, New 
York, and attended St. Pat's High School. He now lives in 
Stottville, New York, with his wife of 37 years, Dawn, and 
their three sons.
    John earned a degree in biology from SUNY, Oswego, and 
after beginning his career in California, returned to New York 
to run a small water treatment plant in Valatie. John then 
began to work as a senior operator for the town of Greenport in 
1998.
    In 2000, he became a superintendent of the water and 
wastewater department for the town of Greenport. His role as 
superintendent has made him a leader on rural water 
infrastructure needs.
    John has worked to diligently repair and replace broken 
water lines, as well as to oversee the construction of a new 
sewage treatment plant in the town.
    John has played an important role in dealing with the 
wastewater collection after flooding events caused by severe 
storms. After a hurricane in 2014, the town of Greenport 
experienced sewage water backing up and overflowing in the 
homes. John was responsible for overseeing the inspection, 
drainage, and repair of the overloaded pipes.
    The town of Greenport has seen no overflow issues since the 
project was completed in 2015.
    John is also responsible for the creation of a 
reimbursement program the town employed to get backflow 
preventers installed in individual residences. Through this 
program, residents were reimbursed up to $3,000.
    The town of Greenport will be looking to replace 14,000 
feet of pipe starting in June, and John will be leading that 
project.
    I look forward to hearing his testimony today, and I am 
excited to get to work with the committee on ways to help 
address the rural water infrastructure needs of the communities 
like that of Greenport.
    Thank you, Chairwoman.
    Mrs. Napolitano. Thank you, Mr. Delgado.
    Mr. Condon, you may proceed.

    TESTIMONY OF HON. DAVID CONDON, MAYOR, CITY OF SPOKANE, 
   WASHINGTON, ON BEHALF OF THE UNITED STATES CONFERENCE OF 
     MAYORS; JOHN MOKSZYCKI, WATER SUPERINTENDENT, TOWN OF 
  GREENPORT, NEW YORK, ON BEHALF OF THE NATIONAL RURAL WATER 
  ASSOCIATION AND NEW YORK RURAL WATER ASSOCIATION; CATHERINE 
   COLEMAN FLOWERS, RURAL DEVELOPMENT MANAGER, EQUAL JUSTICE 
    INITIATIVE, MONTGOMERY, ALABAMA; MAUREEN TAYLOR, STATE 
  CHAIRPERSON, MICHIGAN WELFARE RIGHTS ORGANIZATION, DETROIT, 
 MICHIGAN; ANDREW KRICUN, P.E., BCEE, EXECUTIVE DIRECTOR/CHIEF 
ENGINEER, CAMDEN COUNTY MUNICIPAL UTILITIES AUTHORITY, CAMDEN, 
    NEW JERSEY; AND JILL WITKOWSKI HEAPS, VISITING SCHOLAR, 
 UNIVERSITY AT BUFFALO SCHOOL OF LAW, AND ASSISTANT PROFESSOR, 
                       VERMONT LAW SCHOOL

    Mr. Condon. Well, good morning, and I would like to thank 
Chairwoman Napolitano and Ranking Member Westerman and the 
members of the committee for inviting me to speak today.
    My name is David Condon, and I am the mayor of the city of 
Spokane, and I am also representing the U.S. Conference of 
Mayors.
    I have served on the Mayors Water Council for the last 7 
years as part of the Conference and have served with many of 
our other local leaders, many from California and across the 
country, in really explaining why this infrastructure is so 
critical.
    Thank you for the opportunity to speak, especially to 
address H.R. 1497 and really look to the future of 
infrastructure in wastewater.
    Cities need the Federal infrastructure investment in 
stormwater and wastewater projects. We need flexibility in 
meeting the regulatory requirements, and we need support for 
the innovation for affordable challenges or for addressing the 
affordable challenges when delivering clean water projects.
    Last year, you said it and we want to thank you for passing 
the integrated planning legislation, H.R. 7279. You know, it 
really took that leadership of this committee to make sure that 
integrated planning is a key component to the futures of the 
water infrastructure. It is so critical to Spokane's story.
    You know, I want to tell you a little bit about Spokane. I 
was elected in part because of water rates that went up 16 
percent in a single year in my city. What happens in the fall? 
People get their bills from August and July.
    Because of those double digit increases from the primary to 
the general, there was a double-digit swing in the vote count 
which led to my election.
    So when I took office, I took that lesson with me. I came 
here to Washington, DC, and met with EPA officials in about 
this month of my first year, March. EPA officials told me you 
should ask for a consent decree and blame it on the Federal 
Government.
    They also said at the time they were thinking about a new 
approach, integrated planning, and that I should look to our 
region to look at it. So we took that approach. We saved our 
citizens some $150 million and at the same time got better 
pollution reduction results for our river.
    You can see if you have our handout that our city is around 
a beautiful Spokane River. Still, Spokane's citizens are 
investing some $350 million to improve the health of that 
river. We are investing in some two dozen tanks which hold 
about 16 million gallons.
    We also are putting in some of the top tier technology in 
our treatment plant, some of which treats about 34 million 
gallons a year. We are using a membrane technology that is 
commonly used in drinking water solutions.
    We also have a commitment to remove stormwater flows from 
our system as we build our streets and have complete streets 
looking at all sorts of integrated solutions you can see on the 
back side of your handout on slide 2.
    You know, it really comes down to this, and I will spend 
some time on this. It really talks about aligning our work with 
our citizens and our country's environmental goals. It is 
talking about making sure that we are accountable and, finally, 
affordable.
    So, yes, we are aligned with our citizens' environmental 
goals and integration across our city. You can see on pictures 
3, 4, and 5 that our integrated solutions have resulted in play 
fields, a new plaza overlooking our river, and improved 
gateways to our city on top of those CSO tanks. Never thought 
of before.
    We also must be accountable, yes, accountable to 
regulations, but also accountable to make sure that we deliver 
on the permit.
    Finally, affordability. This investment, the largest ever 
for our city, is some $4,000 per household on this alone. But 
we are committed to our rate increases not being any more than 
inflation, about 2.9 percent.
    And so as you can see in figure 1, like across this 
country, our community went through the ALICE assessment, asset 
limited, income constrained employed. For our community, that 
is some $59,000 for a family of four, but our median household 
income, $46,500.
    You can see on the line for housing some $789 is allocated 
to rent or housing costs. Take out of that a couple hundred 
dollars for utilities. That leaves $500 for a family of four to 
find an apartment. Even in Spokane that does not buy you much.
    So we needed reasonable approaches and flexibility to meet 
the Clean Water Act.
    I finish with this. One, I want to thank you for the 
additional authorization in this bill, but we clearly need to 
work with the appropriations to make that come true.
    Number 2, I want to reiterate, and it is wonderful to hear 
it, that all parties, Federal, State, and local, must work 
together to look at our priorities and make sure that the 
financial burden does not fall onto our citizens.
    Number 3, we really need to think outside the box and into 
innovation. We need to define the funding source to support 
integrated projects. Right now we are forced to piecemeal 
together from many different funding sources, and if time 
permits in questioning, I would love to talk about one that we 
are facing right now.
    And finally, number 4, Federal funding programs like your 
reauthorizing SRF are an amazing opportunity, and we need to 
continue to look at the opportunity for forgivable or lower 
percentage payback on those.
    I want to finish. Speaker Foley would have turned 90 years 
old yesterday. I sat and spoke to his wife last night for a 
couple hours at her home here. At that time, he had secured for 
our community some $100 million for a grant to remove septic 
systems from our community.
    We'd had an innovative local plan that did that to make the 
quality of our water that much better. But that was a grant 
from the Federal Government.
    So we believe the opportunity comes today to look back at 
that time and to make an investment in our environment like 
Speaker Foley did and this Congress has through the years, and 
we believe that this opportunity is a partnership with the 
Federal, State, and local governments.
    Thank you, Chairwoman.
    [Mr. Condon's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. David Condon, Mayor, Spokane, Washington, on 
            behalf of the United States Conference of Mayors
                              introduction
    Good morning Chairman Napolitano, Ranking Member Westerman, and 
members of the Committee. My name is David Condon and I am the Mayor of 
Spokane, Washington.
    I thank you for this invitation to give the Conference of Mayors' 
and my perspective regarding Federal infrastructure investment and 
affordability challenges in the area of storm and wastewater 
infrastructure and compliance in the United States.
    Let me start by thanking this committee for your work last year in 
passing Integrated Planning legislation (HR 7279). Integrated planning 
can, if implemented properly, provide the flexibility to begin to 
realign standards and requirements with local priorities and local 
financial capability. We encourage Congress to be vigilant as the U.S. 
Environmental Protection Agency (EPA) and the States implement this law 
so that it is done in the manner that was intended.
    Integrated planning is an important tool to allow local governments 
to balance the costs of infrastructure financing and compliance with 
Clean Water Act mandates, and one that my community has relied on. I 
would also like to thank this subcommittee for introducing the Water 
Quality Protection and Job Creation Act and for holding this hearing 
today. By focusing on additional funding and affordability, you are 
building on your successful work from last year. As a Nation, we need 
additional funding as well as new approaches in wastewater and 
stormwater infrastructure investment and compliance and to do so in a 
more sustainable and affordable manner.
                           the spokane story
    Let me take a moment to tell you the story of the Spokane River and 
the $350 million investment that the city of Spokane citizens, 
businesses and utility customers are making to improve the river's 
health.
    While the City manages the work, we need to recognize that the 
investment is made by the citizens. The work is being paid for with 
money from their monthly utility bills for water and sewer. And not 
just right now: They will continue to pay for the improvements we have 
made over the last several years for at least another 15 years.
    We sold $200 million in designated ``green'' revenue bonds to pay 
for more than half the work, and those bond payments continue until 
2034. Additionally, we have taken out another $85 million in loans 
through Washington's Clean Water SRF program. These loans charge 
interest and don't have forgivable principal, by the way.
    Our current river work is the largest infrastructure investment 
ever made by the city of Spokane--more than the $110 million we spent 
to build a Waste to Energy Facility, more than the cost of our original 
wastewater treatment plant, more than separating storm sewers on the 
north side of Spokane or eliminating septic tanks.
    And in those earlier projects, we received significant grant 
support from Federal or State partners. Then-U.S. Rep. Tom Foley helped 
secure a $100 million grant for the Spokane area to eliminate septic 
tanks, and the State of Washington provided a $60 million grant for the 
Waste-to-Energy plant out of $450 million in general obligation bonds 
that it sold for solid waste disposal facilities, for example.
    Today, our river work amounts to about a $4,000 cost per household.
    This is a GENERATIONAL investment--one that we can't easily repeat, 
at least not for a long time. There are many priorities for the 
precious dollars our citizens provide beyond clean water--from public 
safety to parks to streets. We need to make choices and balance those 
priorities, ensuring that we give our citizens value for their dollar.
    What does our generational investment look like? It looks like 
major construction projects throughout our City:
    <bullet>  We are completing work on a total of about 16 million 
gallons in underground storage to manage overflows from combined 
wastewater and stormwater sewers. We are finishing the last four of two 
dozen underground tanks, some of which can hold more than 2 million 
gallons of combined wastewater.
    <bullet>  We are adding a third level of treatment at the City's 
water reclamation facility, which processes about 34 million gallons of 
wastewater a day. We are installing membrane technology traditionally 
used in drinking water treatment to dramatically improve the quality of 
our effluent. We will see a huge impact on phosphorus and other 
nutrients, hydrocarbons, metals, and persistent chemicals like PCBs. 
Our region is leading the way on this advanced technology; Spokane is 
one of the first places in the Nation required to install this level of 
technology at its wastewater plant.
    <bullet>  And we are working to reduce stormwater going to the 
river. We are voluntarily removing stormwater flows from our systems as 
we rebuild roads and complete other infrastructure projects to reduce 
the amount reaching our river.
    Integration like this is important to this story. I want to thank 
you for passing legislation to allow for integration. Our Integrated 
Clean Water Plan, developed primarily in 2012 and 2013, relied on a 
memo from EPA that discussed integrated planning. I am telling you that 
we built a $350 million program based on voluntary compliance and a 
memo.
    EPA leaders at the time told us to seek a consent decree to buy 
more time to complete our Clean Water Act work and to blame the Federal 
Government for the cost. But we worked on a more holistic and practical 
solution that could be accepted by our citizens instead.
    Our citizens have been willing to make this investment for two 
reasons--their love for our wild, spectacular river, to be sure, but 
also our commitment to complete the work for an affordable price.
    We have refused to accept the notion that good government must be 
expensive government; we committed to making government affordable and 
still provide the services our citizens expect. We have committed to 
limit annual utility rate increases to about inflation-2.9 percent 
annually. And we've held to that commitment. We have held our utility 
rates increases to that inflationary increase for the last 6 years 
already.
    When I took office in 2012, the City had completed a major utility 
rate study that indicated that we would need to implement multiple 
years of double-digit rate increases to meet our river requirements to 
manage CSOs and comply with the TMDL for dissolved oxygen. That would 
have sent monthly bills soaring.
    Our rate story is a huge success story.
    How were we able to do that? We are meeting our regulatory 
requirements, so it wasn't that we cut corners. Our solution was 
INTEGRATION.
    We followed that suggested guideline from the EPA called Integrated 
Planning. We looked at all pollutants, at all the pipes to the river, 
and considered how we could gain value for our citizens. We removed 
compounded factors of conservatism and designed to actual regulations. 
We built in mitigation for climate change and for downsizing of some 
infrastructure by committing to remove stormwater when we rebuilt 
streets.
    Some 78 percent of citizens supported that integrated approach 
which was detailed as part of a major Street Levy passed in 2014.
    In the end, we cut about $150 million of cost out of our previously 
identified Clean Water capital plans through this effort. And, we not 
only saved money but we also have documented a greater positive impact 
on pollutants going to the river.
    We've since expanded our use of integrated thinking throughout our 
City in an effort to continue to find value for citizens. Multiple 
benefits for the same dollar.
    This kind of thinking is absolutely imperative when you want to 
deliver better results but maintain affordability. Affordability is 
particularly important when you consider that our citizens make less. 
Our median household income (MHI) in the city of Spokane is about 
$46,500, considerably less than the national or Statewide MHI.
    And less than what's known as the ALICE standard for our community. 
ALICE stands for Asset Limited, Income Constrained Employed. The ALICE 
number looks at how much money a family needs just to meet their 
expenses paycheck to paycheck. In Spokane, that number for a family of 
4 is nearly $59,000--more than $12,000 more than the median household 
income.
    An ALICE budget for that Spokane family of 4 allocates about $800 a 
month for housing, including bills for energy and water, sewer and 
garbage. After paying those utility bills, that family would have in 
the neighborhood of $500 to $600 a month for rent, which is more 
typically the cost of a one-bedroom unit in our market.
    So, we are compelled to come up with environmentally responsible 
solutions that are also financially sustainable for our citizens.
    Support for clean water from our State and Federal Governments is 
absolutely critical to maintain that affordability. Because our 
investments in our river won't stop with our current generational 
investment. We can't even really quantify what's next for our 
community.
    Water Quality Standards in our State now include a standard for 
PCBs at 7 parts per quadrillion. There is no test that is accurate down 
to that level, and there is no technology known to reliably achieve 
this standard. We face unknown costs to meet this standard, which is 
magnitudes more stringent than most other places in the Nation.
    Bear with me for a moment while I put that number in perspective. A 
million seconds is 12 days, so it was still February a million seconds 
ago. A billion seconds ago, it was 1987. A trillion seconds ago, we had 
no written human history. A quadrillion seconds takes 31 million years. 
Effectively, with our standard, we are looking for 7 seconds in 31 
million years.
    We need reasonable approaches and flexibility to achieve clean 
water for our communities. In preparation for this meeting, I was asked 
to recommend creative new approaches to help local communities. We 
would suggest defined funding to support integrated projects. Right 
now, we are forced to piecemeal together funding from various sources 
for projects that would have true Clean Water outcomes.
    In Spokane, separation of storm sewers in the 1980's created what's 
called the Cochran Stormwater Basin. Through one 54-inch pipe flows 
about half the stormwater that goes to the Spokane River annually 
between 300 million and 600 million gallons a year. Because we don't 
have specific stormwater requirements, we haven't been able to fund the 
integrated, green infrastructure project that would manage this known, 
point source of pollution. We've gotten a few million to complete 
design and small pieces of the project. But this is an opportunity to 
achieve the results the Clean Water Act is seeking.
    Remember, local governments are not making a profit; they are 
taking care of a community's waste. And, we need strong financial 
partners who will walk alongside with us.
           uscm infrastructure policy/congressional proposal
    On behalf of the Conference of Mayors, I want to thank you for 
introducing The Water Quality Protection and Job Creation Act, which 
authorizes a continuation of the State Revolving Fund (SRF) loan 
program. This proposal sends two clear messages to cities across the 
Nation:
    <bullet>  This House Subcommittee has demonstrated that they have 
heard and understand the financial burden that clean water mandates 
have on distressed communities and households. Thus, this proposal 
provides a much more generous Federal financial assistance amount than 
in the last several decades (with the exception of ARRA), and it does 
not contain directions to the USEPA to establish additional mandates.
    <bullet>  Second, the Committee has convened this hearing to learn 
the perspectives of those at the local level who provide all of the 
services and nearly 98 percent of the funding to provide the service 
and comply with mandates. Asking local government their opinion on this 
matter is critical if we are going to continue to make progress.
    And while we are grateful for the sums of money in this 
consideration, I think all will agree, these amounts are not enough to 
address every wastewater infrastructure investment need, so reliance on 
a more flexible model to improve water quality can be achieved through 
the Integrated Planning and other potential tools.
    One of these tools that unfortunately was not included in H.R. 7279 
last year was direction to EPA to reconsider how they assess a 
community's financial capability and a determination of what individual 
citizens or households could afford. As I talked about earlier, our 
communities and more importantly, our residents, do not have unlimited 
resources to bear the burden of implementing every rule and regulation 
without support or without regard to context. Today, we are faced with 
a myriad of pressing and complex public health and environmental 
challenges that require the careful evaluation of each public dollar 
spent against competing causes.
    As my Mayoral colleagues have mentioned before, it is crucial that 
we renew the Federal-State-city partnership to identify and invest in 
environmental and public health infrastructure. Attached to my 
testimony is a letter signed by the Conference of Mayors, National 
League of Cities, and National Association of Counties that supports 
the authorization proposal and encourages Congress to appropriate these 
levels of assistance for wastewater and stormwater programs including 
the SRF program. We also would ask for you to encourage the States to 
provide at least some portion of the SRF program to be in the form of 
negative interest or no interest loans and principal forgiveness for 
disadvantaged communities. This has proved to be a valuable tool for 
many of our communities and could provide a much-needed financial 
stimulus to address the most pressing needs that challenge cities.
    I wanted to provide some thoughts regarding the legislative 
proposal and if the authorizing of additional SRF grants to States will 
be helpful. Additional Federal financial assistance is always welcome, 
although these amounts are never sufficient to help cities with 
compliance obligations, and some States do not provide adequate SRF 
assistance to larger cities. So, while additional capitalization grant 
amounts are a step in the right direction it is important to keep in 
mind that this assistance can help us close some of the needs gap, but 
it has not realized its original goal that it will provide enough 
Federal aid to cities to comply with the current stringent regulatory 
regime.
    The $20 billion plus authorization in this proposal--while generous 
compared to recent history--doesn't come close to filling what EPA 
described as a need to invest from $300-$400 billion in addition to the 
current $123 billion a year of local spending to comply with existing 
law.
     <bullet>  The math suggests that $20 billion is, unfortunately, 
perhaps a Federal down-payment on helping cities comply with mandates 
while providing this public service.
     <bullet>  The math also suggests that if Congress appropriates $80 
billion a year for 5 years the EPA's need gap could be closed.
     <bullet>  So the question is--If Congress doesn't have that kind 
of money to spend on wastewater systems how does anyone expect local 
governments to have that level of resources?
     <bullet>  USCM research on a ``cost per household'' basis reveals 
that EPA's expectation that utility customers should be able to pay at 
least 2 percent of Median Household Income to comply with the CWA turns 
out to range between 2 and 10 percent of income for most households.
     <bullet>  Additionally, the Census reports local government long-
term debt is above $1.8 trillion, and SRF loans simply add to this high 
level of debt.
     <bullet>  We have serious concerns when our Federal leaders say 
more local investments are needed to maintain and improve the nation's 
water quality for our children and grandchildren, but the urging of 
local government to commit to greater levels of debt will impose that 
financial burden on those same children and grandchildren. Generational 
debt is a serious problem because cities have sizable long-term debt, 
and those children are now suffering from the responsibility to repay 
student loans.
    The lack of resources at all levels of government suggests that our 
Federal partners should implement the Clean Water Act with flexibility. 
H.R. 7279 can provide some of that flexibility and recognize the 
importance of investment in local water priorities. The gaps in funding 
that continue to be unmet can be addressed if EPA and the States give 
municipalities greater flexibility, including through the 
implementation of a vibrant integrated planning and permitting 
approach.
    We urge the Committee to keep a close eye on the reconsideration of 
affordability assessment. An updated and broader consideration of 
affordability and the factors that should be included in the analysis 
and the sorts of criteria to be considered should be transparent and 
defensible.
                               conclusion
    I would like to thank this subcommittee for holding this hearing 
today and for your focus to find meaningful ways to reestablish our 
Federal-State-city partnership and to develop solutions to address our 
Clean Water Act infrastructure needs. The Conference of Mayors would 
like to work with you as you move forward on this important endeavor.

[The following materials were provided to the committee and retained in 
the committee files:
<bullet>  Mayors' Infrastructure Priorities for the 116th Congress 
available at: https://www.usmayors.org/issues/infrastructure/
<bullet>  Public Water Cost Per Household: Assessing Financial Impacts 
of EPA Affordability Criteria in California Cities (November 2014), 
available at: https://cacities.org/getattachment/Member-Engagement/
Regional-Divisions/Los-Angeles-County/Water-Cost-Per-Household-Report-
California-Cities.pdf.aspx]

    Mrs. Napolitano. Thank you, Mr. Condon.
    Next is Mr. John Mokszycki. You are on, sir.
    Mr. Mokszycki. Good morning, Chairwoman Napolitano and 
members of the committee.
    All small rural communities in all of the States are very 
appreciative for the invitation to testify today about small 
community wastewater issues, the Clean Water Act, and water 
infrastructure financing.
    I am John Mokszycki. I am the water superintendent for the 
town of Greenport. It is a small municipality in rural New York 
on the Hudson River, located in the 19th Congressional 
District.
    We have a population of just over 4,000 people, and an 
annual budget of $5.3 million, which includes the operating 
budgets for both the town's water and sewer utilities.
    I want to thank our Representative, Congressman Delgado, 
for his continued attention and help to all of the 
municipalities in New York's 19th District, with environmental 
protection and economic development.
    I would also like to thank you, Chairwoman Napolitano and 
Representatives Young and Katko, for introducing the Water 
Quality Protection and Job Creation Act of 2019 today. Your 
legislation is very welcome, especially the provisions to 
increase funding for the Clean Water State Revolving Fund.
    My community and many just like it would not be operating 
today without the water infrastructure assistance from the 
State Revolving Funds.
    I am testifying today on behalf of all the approximately 
12,000 small and rural communities in all States that operate 
public wastewater utilities through my affiliation with the 
National Rural Water Association and the New York Rural Water 
Association.
    About 85 percent of the approximately 15,000 public 
wastewater utilities in the U.S. are in small or rural 
communities. We have a much more challenging time complying 
with our Federal Clean Water Act permits and operating complex 
wastewater treatment systems due to the lack of technical 
resources in small communities.
    While the cost of a small community's water infrastructure 
may only be a fraction of a larger metropolitan community, the 
cost per household is often much higher because we have so few 
ratepayers to spread out the cost.
    Currently our town is under a Clean Water Act enforcement 
order and struggling to pay for the needed sewer improvements. 
Our initial sewer system was installed in the 1930s with clay 
sewer pipe. This pipe cracks easily, which allows rainwater to 
flow into the collection system.
    Back in 2007, we were under a Clean Water Act consent order 
for violating our sewer permit. Every time we experienced a 
heavy rain, all of the extra water overwhelmed the treatment 
plant and resulted in rainwater and sewage discharging to the 
Claverack Creek, which drains to the Hudson River.
    Fixing this situation was estimated to cost the town 
upwards of $10 million to build a new and larger treatment 
plant. This occurred around the same time that Congress passed 
the American Recovery and Reinvestment Act of 2009. We received 
a $9.5 million funding package, which was half for loan 
forgiveness and half zero-interest loan, which we are still 
repaying.
    The newer sewer plant allowed us to comply with our consent 
order. However, we still had all of the clay pipes in the 
ground draining all the excess water during heavy rain events.
    For our drinking water utility, we needed to replace the 
antiquated cast iron waterlines that were installed in the 
1930s. These lines are frequently breaking, causing civic and 
economic disruption.
    Before we started to replace the cast iron pipes in 2006, 
we were experiencing up to 50 line breaks a year, which was 
affecting just about everyone in our community. Over the past 
15 years, we have replaced about 40 percent of our old cast 
iron lines with $5.8 million in financing.
    In 2014, we were pressured to sign another Clean Water Act 
enforcement order for sanitary sewer overflows. The failing 
clay sewer pipes were not overwhelming the sewer plant anymore, 
but it was causing the sewage water to back up into people's 
homes.
    We have taken a number of steps to comply with our current 
consent order, and so far we have prevented any reoccurrence of 
the sewage backups into anyone's home. However, we are still 
operating under the consent order which may require the lining 
of additional sections of our faulty clay sewer pipes.
    It is likely to cost another $4.5 million, and most of the 
community currently thinks they are maxed out on their ability 
to pay. Raising rates at this time could actually threaten the 
political stability of the community.
    As the committee considers modifications to the SRFs, we 
urge you to target the Federal funding within the SRFs to the 
communities and citizens most in need of the Federal subsidies. 
This evaluation should be made on a per capita analysis that is 
sensitive to local economic conditions.
    In closing, I would like to thank this committee, which is 
very important to rural and smalltown America. Every Federal 
dollar that has been granted to the many thousands of small 
towns to build, expand, and maintain their wastewater 
infrastructure through the State Revolving Funds was authorized 
by this committee.
    We are grateful to be able to testify today and grateful 
for the numerous opportunities this committee has provided 
rural America to testify and be included in the crafting of 
Federal water environmental legislation.
    Thank you.
    [Mr. Mokszycki's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of John Mokszycki, Water Superintendent, Town of 
Greenport, New York, on behalf of the National Rural Water Association 
                and the New York Rural Water Association
    Good morning, Chairwoman Napolitano and members of the committee. 
All small and rural communities in all of the States are very 
appreciative for the invitation to testify today about small community 
wastewater issues, the Clean Water Act, and water infrastructure 
financing.
    I am John Mokszycki and I am the Water Superintendent for the Town 
of Greenport, a small municipality in rural New York on the Hudson 
River, located in the 19th congressional District. We have a population 
of just over 4,000 people and an annual budget of $5.3 million which 
includes the operating budgets for both the town's water and sewer 
utilities. I want to thank our representative, Congressman Delgado, for 
getting on this very important committee for small communities and for 
his continued attention and help to all the municipalities in New 
York's 19th District with environmental protection and economic 
development.
    I would also like to thank you, Chairwoman Napolitano, and 
Representatives Young and Katko for introducing the ''Water Quality 
Protection and Job Creation Act of 2019'' today. Your legislation is 
very welcome, especially the provisions to increase funding for the 
Clean Water State Revolving Fund. My community and many just like it 
would not be operating today witho ut the water infrastructure 
assistance from the State revolving funds.
    I am testifying today on behalf of all the approximately 12,000 
small and rural communities in all States that operate public 
wastewater utilities through my affiliation with the National Rural 
Water Association and the New York Rural Water Association. About 80 
percent of the approximately 15,000 public wastewater utilities in the 
U.S. are in small or rural communities. Small and rural communities 
have a much more challenging time complying with our Federal Clean 
Water Act permits and operating complex wastewater treatment systems 
due to the lack of technical resources in small communities. While we 
have fewer resources, we are regulated in the exact same manner as a 
large community. While the cost of a small community's water 
infrastructure may only be a fraction of a large metropolitan 
community, the cost per household is often much higher because we have 
so few ratepayers to spread out the cost. Similarly, the compliance 
burden of Clean Water Act is more severe because we don't have the same 
technical resources as large communities. Many small communities may 
only have one operator with multiple duties, not just wastewater 
treatment--and we don't have staff engineers, compliance officers and 
attorneys to help with compliance. But we still have to stay current 
with all the new rules, maintain our treatment and collection systems, 
and manage our very complex Federal sewer permits (i.e. the National 
Pollution Discharge Elimination System permit).
    My main objective here today is to show you, through the experience 
in the Town of Greenport, that small communities are struggling with 
the burden of maintaining our wastewater infrastructure, that 
compliance is very expensive, that it is very complex, and that nobody 
wants to comply with the Federal environmental standards, protect our 
community and protect the environment more than local governments.
    Currently, our town is under a Clean Water Act enforcement order or 
consent order and struggling to pay for the needed sewer improvements 
which I will explain after providing a brief history of our situation.
    Our initial sewer system was installed in the 1930's in large part 
by the depression era Works Progress Administration and Civilian 
Conservation Corps initiatives which trenched and laid 64,000 feet of 
clay sewer pipe or tile. This type of pipe, although now antiquated, 
cracks easily which allows rain water to flow into the collection 
system in the cracks and also in the joints between the 6 foot 
sections.
    In order to modernize our collection system and keep all the 
rainwater from entering (i.e. infiltration), we need to insert a modern 
material into the old pipe which expands and seals the existing lines. 
This is called slip-lining and it is very expensive. However, it less 
expensive and disruptive than the alternative of excavating and 
replacing all the old pipes which would include digging up the entire 
town, all the roads, and people's yards. In 1996, we started slip-
lining our sewer lines and to date we have slip-lined about 1/3 of our 
clay tile collection system for approximately $1,000,000 which we are 
still repaying. It is estimated that slip-lining the remaining clay 
pipes will cost approximately $4.5 million.
    Back in 2007, we were under a Clean Water Act consent order for 
violating our sewer permit--largely as a result of all the rainwater 
infiltration from our clay pipes. A town typically does not feel 
pressured to sign a consent order unless they are in very severe 
violation of their Clean Water Act permit and, at that time, we were in 
severe violation. Our clay pipe-based sewer collection system was 
collecting and sending tremendous amounts of ``extra'' water to our 
central sewer plant every time it rained. The clay pipes themselves 
allowed much of the rain to infiltrate the system through cracks and 
failed joints. In addition, many of the homes in the town had their 
sump pumps, roof gutters, household drains, and every one of their 
yards' drainage systems to be connected to the sanitary sewer pipes. 
Every time we experienced a heavy rain, all the extra water overwhelmed 
the treatment plant and resulted in rainwater and sewage bypassing our 
treatment works and discharging to the Claverack Creek which drains to 
the Hudson River. In addition to the problem of the treatment bypass, 
the excess flow would also wash out all the biological processes that 
are needed to treat our sewage during normal flows and this would take 
a number of days to re-establish after any heavy rain event.
    Fixing this situation was estimated to cost the town upwards of $10 
million to build a new and larger treatment plant. That was financially 
impossible for us. However, lucky for us, this occurred around the same 
time that Congress passed the American Recovery and Reinvestment Act of 
2009. The funding provided to the Clean Water State Revolving Funds 
from the Act was used to fund our new sewer system. We received a $9.5 
million funding package which was about half for loan forgiveness (i.e. 
a grant) and the other half was a zero interest loan which we are still 
repaying. This funding package did result in water rate increases but 
the amount was feasible for the community to absorb. In addition to 
expanding the capacity of our treatment plant, we were also able to 
modernize our treatment process with a sequential batch reactor system 
and the use of ultraviolet light disinfection.
    The new sewer plant allowed us to comply with our consent order; 
however, we still had all the clay pipes in the ground draining all the 
excess water during every heavy rain event. Additionally, at that time, 
we had up 50 line breaks each year in our antiquated and deteriorating 
cast iron drinking water lines which needed replacement. Also, keep in 
mind that the town supervisors were facing all the financial challenges 
of the water system in addition to other community needs like roads, 
bridges, parks, schools, etc.
    In 2014, not long after financing and building our new $9.5 million 
sewer plant, when the community supervisor believed that water rates 
were high, when we were still struggling to fund replacement of our 
drinking water cast iron lines and when we needed a new drinking water 
filtration plant--we were pressured to sign another Clean Water Act 
enforcement order for sanitary sewer overflows or SSOs. All the rain 
water infiltration into the failing clay sewer pipes was not 
overwhelming the sewer plant anymore, but it was causing the sewage 
water to back up into people's homes, 26 homes to be exact--and as you 
can imagine, this results in a crisis in town for the individuals whose 
homes are impacted, for the town to respond and for our local political 
leaders. By the way, our town board of supervisors holds a monthly town 
public meeting which includes an opportunity for the public to speak 
out about their expenses and their ability to pay their water bills. 
Around this time, our State environmental agency presented the town 
with a second consent order to fix the sanitary sewer overflows which 
we signed to avoid the threat of very costly fines. We have taken a 
number of incremental steps to comply with our current consent order 
including installing backflow preventers in every home vulnerable to a 
backup, and separating the rainwater drainage from all the vulnerable 
houses to the sewer system (sump pumps, household drains, gutters, 
etc.). We did line about one-third of the clay sewer pipes and are 
still paying off that debt. So far, we have prevented any re-occurrence 
of the sewage backup into anyone's home. However, we are still 
operating under the consent order which may require the lining of 
additional sections of our faulty clay sewer pipes. This is something 
we want to do and needs to happen, but it is likely to cost another 
$4.5 million and most of the community currently thinks they are maxed-
out on their ability to pay. Raising rates at this time could actually 
threaten the political stability of the community.
    Compounding our problems is the fact that the needs or our 
wastewater utility also competes with our drinking water needs. For our 
drinking water utility, we need to replace the antiquated cast iron 
water lines that were installed in the 1930's. These lines are 
frequently breaking, causing people to be without drinking water as 
well as civic and economic disruption. Before we started to replace the 
cast iron pipes in 2006, we were experiencing up to 50 line breaks a 
year which was affecting just about everyone in the community. Over the 
past 15 years we have replaced about 40 percent of our old cast iron 
lines with $5.8 million in financing. This dramatically reduced the 
frequency of emergency line breaks to approximately 10 line breaks a 
year. Our annual debt payment is approximately $400,000 per year for 
water alone. In June, we will be starting a drinking water line 
replacement project to replace approximately 14,000 feet of old water 
lines at a price of $4.6 million. This will add about $245,000 to our 
annual debt service. The replacement cost for the rest of the lines 
needing replacement (30,000 feet) is estimated to cost an additional 
$11 million. In addition to modernizing all the old lines, we also need 
a new pump, new pump house and a iron and manganese filtration system 
that will cost another $1.5 million.
    Our water and sewer rates have been climbing over the past few 
years to the point where many people in the community, especially our 
low and fixed income citizens, are struggling to pay their bills. 
Financing our water infrastructure has also resulted in increasing the 
property tax rates. The average family water bill is over $100 a month 
and we are not a wealthy community.
    In the 2010 census, the median income for a household in the town 
was $37,394, and the median income for a family was $47,452. Much of 
the town's historic industry moved away in the 1980's including three 
cement plants, a match factory, a Canada Dry bottling facility, and 
other businesses.
    The current debt service for our drinking water utility is $6.8 
million with annual payments of approximately $400,000. This does not 
include the new project beginning in June as financing has not been 
finalized. The debt service for the sewer utility is $4.6 million with 
an annual payment of approximately $250,000.
    Most of the financing for water infrastructure repairs and 
replacements including the partial replacement of our water lines and 
sewer lines, the construction of a new wastewater treatment plant, and 
the abatement of our sanitary sewer overflows has only been made 
possible with funding from the Clean Water State Revolving Fund (SRF) 
and we are very grateful to this committee for that funding. And only 
because of the loan forgiveness and zero interest loan provisions with 
the program were we able to make the financing work for the citizens of 
Greenport. Again, thank you for including those critical assistance 
provisions that make the SRFs work for small and rural communities.
    As the committee considers modifications to the SRFs, we urge you 
to retain these provisions and continue to target the Federal funding 
within the SRFs to the communities and citizens most in need of the 
Federal subsidies through the following provisions:
    First, local communities have an obligation to pay for their water 
infrastructure and the Federal Government should only subsidize water 
infrastructure when the local community can't afford it and there is a 
compelling Federal interest such as public health or compliance. To the 
maximum extent possible, the State revolving loans should prioritize 
funding to the communities most in need based on their economic 
challenges combined with the public health necessity of the project. 
This evaluation should be made on a per capita or impact per citizens 
(ratepayer) analysis that is sensitive to local economic conditions 
(i.e. affordability analysis).
    Second, communities out of compliance with the Clean Water Act 
should receive prioritization for SRF funding where the most severely 
in non-compliance (environmental and economic) are moved to the top of 
the list for funding.
    Third, a small percentage of water funding programs should be set-
aside for technical assistance and assistance to complete the 
applications for water infrastructure funding. Small communities often 
lack the technical and administrative resources to achieve compliance 
and complete the necessary applications to access the Federal funding 
programs. Providing these small communities with shared technical 
resources allows small communities access to technical resources that 
large common communities have and are needed to operate and maintain 
water infrastructure, comply with standards in the most economical way, 
and obtain assistance in applying for State revolving loan funds. 
Often, this assistance saves thousands of dollars for the community and 
keeps the systems in long-term compliance with EPA rules.
    Fourth, allow infrastructure funds some ability to provide grants 
(i.e. loan forgiveness and zero interest financing)--not just loans. 
Commonly, low-income communities do not have the ability to pay back a 
loan, even with very low interest rates, and require some portion of 
grant or principal forgiveness funding to make a project affordable to 
the ratepayers.
    Fifth, a minimum portion of the funds should be set-aside for small 
and rural communities. This ensures that any infrastructure program 
must set-up a process for dealing with small and rural communities. 
Once established, local pressures and priorities will determine the 
actual portion directed to small systems which we expect will often be 
greater than the minimum prescribed.
    In closing, I would to thank this committee which is very important 
to rural and small town America; every Federal dollar that has been 
granted to the many thousands of small towns to build, expand, and 
maintain their wastewater infrastructure through the State revolving 
funds was authorized by this committee. Also, every Federal regulation 
under the Clean Water Act was likewise authorized by this committee. We 
are grateful to be able to testify today and grateful for the numerous 
opportunities this committee has provided rural America to testify and 
be included in the crafting of Federal water and environmental 
legislation.

    Mrs. Napolitano. Thank you very much for your testimony.
    Ms. Flowers.
    Ms. Flowers. Thank you, Chairwoman Napolitano, Chairman 
DeFazio, Ranking Member Graves, Ranking Member Westerman, and 
members of the committee for the opportunity to testify.
    My name is Catherine Coleman Flowers. I am the rural 
development manager for the Equal Justice Initiative in 
Montgomery, Alabama. I am also a practitioner in residence at 
the Franklin Humanities Institute at Duke University and a 
senior fellow at the Center for Earth Ethics and the founder of 
The Alabama Center for Rural Enterprise.
    I grew up in Lowndes County, Alabama, which is located 
along the route from Selma to Montgomery. As a child in the 
1960s and 1970s, I used an outhouse and a slop jar before my 
family eventually installed indoor plumbing.
    I left the area to achieve an education, and upon returning 
to Alabama in 2000, I was surprised at the disparities that 
still existed in rural wastewater treatment.
    Since 2002, I have visited homes with wastewater failures 
at all levels. I first began meeting with people about this 
problem in the early 2000s as a pastor. A pregnant woman and 
other members of the community were being threatened with or 
actually arrested for not being able to afford on-site 
wastewater treatment.
    Yes, it is a crime in this country if you cannot afford 
wastewater treatment. Many of the community members have 
resorted to unpermitted alternate methods like straight-piping 
to discharge raw sewage from their homes or disconnecting 
failing septic systems to keep the sewage from coming back into 
their homes.
    And while the arrests have decreased, the threat remains. I 
have visited homes with on-site systems that fail each time it 
rains, and the sewage comes back into the homes either through 
the toilet, bathtub, or both.
    In one town, citizens pay a wastewater treatment fee. Yet 
they still have sewage backing up into their homes and yards.
    A neighborhood is bordered by a sewage lagoon, a cheap 
solution generally used in poor rural communities. In addition 
to the stench from the lagoon, their tanks must be pumped as 
often as three times a week to remove sewage from their yards 
or their homes.
    Children are unable to play in their yards due to raw 
sewage on the ground. This is not what people expect to see in 
the United States.
    In 2009, I was bitten by mosquitoes swarming a pool of raw 
sewage. My body broke out in a rash that doctors could not 
identify.
    I later reached out to Dr. Peter Hotez of the National 
School of Tropical Medicine in Texas, which culminated in a 
peer reviewed study that was published in 2017. This study 
found that over 30 percent of Lowndes County residents that 
tested were found to have hookworm and other tropical parasites 
long thought to have been eradicated in the United States.
    Inadequate wastewater treatment is not just a Lowndes 
County or an Alabama problem. It is estimated that more than 20 
percent of the country uses on-site wastewater treatment, 
reaching 40 percent or more in areas with large rural 
populations.
    Up to half of the septic systems in the U.S. do not work 
properly or fail at some point. By some estimates, 60 percent 
of the land in the U.S. cannot support septic systems. It is 
time for Congress to act to address this widespread problem, 
beginning with acknowledging the problem more broadly, 
gathering more information, especially through the census, and 
eliminating policies that criminalize residents for being 
unable to afford wastewater treatment.
    In addition, I invite all of you to visit Lowndes County so 
you can witness the problem firsthand, but also talk to your 
own rural constituents because some of these same problems are 
in all rural areas.
    Congress should further use its oversight powers to ensure 
that investments in addressing this problem are meaningful. 
Specifically, it is critical that funding should take into 
account the realities of climate change, community input, and 
the unique geography of an area.
    Funding must also go to those who need it most and cannot 
afford wastewater treatment or upgrades without assistance.
    And finally, if Federal funding is used to continue to 
design and permit failing systems, the State entities that 
approve these systems should be held accountable instead of the 
individual homeowners.
    The Clean Water State Revolving Fund is an excellent tool 
to help communities with much needed wastewater upgrades, but 
to truly be effective, it needs the flexibility to reach the 
people who need it the most. Rural communities should no longer 
be left behind. Congress must begin addressing this problem 
now, while also looking at technological solutions for the new 
future of wastewater.
    If we can treat wastewater in outer space, it is not 
unrealistic to see a time when one can go to a hardware store 
and purchase an on-site wastewater treatment system. This is an 
opportunity to remove the shame associated with discussing 
wastewater treatment failure and instead focus on sustainable 
solutions that provide meaningful investment.
    Thank you for the opportunity to be here today, and I look 
forward to answering any questions.
    [Ms. Flowers' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Catherine Coleman Flowers, Rural Development 
         Manager, Equal Justice Initiative, Montgomery, Alabama
    Thank you, Chairwoman Napolitano, Ranking Member Westerman, and all 
of the members of the committee for the opportunity to testify. My name 
is Catherine Coleman Flowers. I am the rural development manager for 
the Equal Justice Initiative in Montgomery, Alabama. I also serve as 
practitioner in residence at the Franklin Humanities Institute at Duke 
University, a senior fellow at the Center for Earth Ethics, and I am 
the founder of the Alabama Center for Rural Enterprise, which has a 
mission of targeting the root causes of poverty.
    I am a country girl, having grown up in Lowndes County, Alabama. 
Lowndes County is located along the road from Selma to Montgomery. As a 
child in the 1960's and 70's, I used an outhouse and slop jars. My 
family eventually installed a cesspool which facilitated us having 
functioning indoor plumbing. I left the county after graduating high 
school and when I returned in 2000, I was surprised at the disparities 
that still existed in wastewater treatment. In 2002, I invited Robert 
Woodson of the National Center for Neighborhood Enterprise to Lowndes 
County to see firsthand the problems residents were experiencing. 
During that trip, we visited the home of a family that had been 
threatened with arrest for having a failing septic system. As we 
approached the home, we could see the raw sewage running down the road 
from the septic tank. A man approached us as we were walking up the 
road, crying. He had been threatened with arrest and was told he could 
no longer hold worship services at his church because he did not have a 
septic tank. Mr. Woodson called William Raspberry, a Pulitzer Prize 
winning columnist with the Washington Post, who wrote a syndicated 
column about the arrests, which was the first time that I can recall 
there being any media attention regarding this problem. This was 2002, 
just 17 years ago.
    These arrests have since decreased, but the threat remains.
    The Black Belt region of Alabama, where Lowndes County is located, 
is particularly affected by the lack of adequate sanitation services 
because the clay-like soil, which worked well for growing cotton during 
the slavery and sharecropping eras, makes it extremely difficult to 
install septic systems. Over half of the region is unsuitable for 
conventional septic systems, meaning that failing septic tanks are 
common.
    Most of the soil in Lowndes County requires a more complex type of 
septic system, which can cost up to $30,000 depending on the site 
conditions.\1\ Yet the median household income in Lowndes County, for 
example, was only $27,000 in 2016, making more costly systems out of 
reach and leading to more people relying on unpermitted systems, after 
their septic tanks repeatedly fail. Families that cannot afford to 
install septic systems must use some alternative method to dispose of 
waste without treatment, such as a straight pipe. Straight pipes are 
generally metal, or PVC pipes connected to the home's plumbing that 
discharge raw, untreated sewage directly into their yards, ditches, 
woods, or various surface waters. In 2011, the Alabama Department of 
Public Health estimated that in Lowndes County, 40-90 percent of homes 
have no septic system or an inadequate one, and 50 percent of homes 
with septic systems are failing.\2\
---------------------------------------------------------------------------
    \1\ Patricia Jones & Amber Moulton, The Invisible Crisis: Water 
Unaffordability in the United States (May 2016), at http://
www.uusc.org/sites/default/files/the_invisible_crisis_web.pdf.
    \2\ 2011 U.N. Report, supra n. 5, at 7; Apple Loveless & Leslie 
Corcelli, Pipe Dreams: Advancing Sustainable Development in the United 
States, EPA Blog (Mar. 5, 2015), https://blog.epa.gov/blog/2015/03/
pipe-dreams-advancing-sustainable-development-in-the-united-states/.
---------------------------------------------------------------------------
    Affordability is a primary reason poor families in Lowndes County 
do not have expensive engineered systems needed to treat wastewater 
onsite in Black Belt soils. However, over the course of my career and 
my work in the community, I began to discover that cost was only part 
of the issue: failing systems remains a larger burden, one that comes 
along with impacts like disease and illness. For example, when a member 
of the community approached me around 2014 and said he could afford any 
system, yet he could not find one that actually worked. I quickly 
learned that the problem is much larger than just failing septic tanks 
and straight piping. Since 2002, I have visited homes with systems that 
fail each time it rains and the sewage comes back into the house 
through either the toilet, bathtub, or both. Some families have had 
numerous insurance claims because of failed systems. In one town, 
citizens pay a wastewater treatment fee to a management entity, yet 
they still have sewage backing up into their homes and yards. Another 
neighborhood is bordered by a sewage lagoon which is full of raw 
sewage. Septic tanks are connected to pipes that take their affluent to 
the lagoon. However in addition to the stench from the lagoon, their 
tanks must be pumped as often as three times a week to remove sewage 
from their yards or their homes. Charlie Mae Holcombe, a resident of 
Lowndes County, recently walked from her home to the street to tell 
former Vice President Al Gore and Bishop William Barber about the 
problem she has experienced for more than 20 years.\3\ Holcombe can't 
let her grandchildren play outside due to the sewage outside their home 
and has had to replace her carpet countless times due to the sewage 
that has run into the house. The families I speak to, including Mrs. 
Holcombe's, also regularly complain about illnesses. Living with 
repeated exposure to raw sewage causes acute and chronic health impacts 
and reduces families' standard of living. Short-term exposure to 
parasites, bacteria, and viruses in raw sewage can cause infections or 
diarrhea and have also been linked with long-term health impacts such 
as cancer, dementia, and diabetes.\4\
---------------------------------------------------------------------------
    \3\ Shah, Khushbu, ``Al Gore admits US poverty 'shocking'--but 
warns climate crisis will make things worse, The Guardian (February 22, 
2019), https://www.theguardian.com/us-news/2019/feb/22/al-gore-alabama-
environmental-justice-climate-worse.
    \4\ West Virginia Public Broadcasting, Inside Appalachia: Water in 
the Coalfields, http://wvpublic.org/post/inside-appalachia-water-
coalfields#stream/0.
---------------------------------------------------------------------------
    With longer periods of warm weather, mosquitoes are more common in 
the fall and winter months. In October 2009, I was asked by State of 
Alabama Health Department officials to meet them at a home of a 
pregnant woman who had been threatened with arrest for not having a 
septic system. She lived in a singlewide mobile home. Behind her home 
was a pool of raw sewage that ran into a pit. It was teeming with 
mosquitoes. I was bitten by mosquitoes and had bites all over my legs. 
Shortly thereafter, my body broke out in a rash. Seeking medical care, 
my blood tests came back negative, providing no clue for the raised 
rash that covered most of the trunk of my body and was sporadically on 
my legs and arms. That was when I asked if it was possible that I had 
something American doctors were not trained to look for.
    The conditions in Lowndes County are not what people expect to see 
in the United States. Problems occurring in rural communities are far 
from the major media centers and often go unnoticed. In August 2012, I 
read an op-ed in The New York Times written by Dr. Peter Hotez, the 
founding dean of the National School of Tropical Medicine at Baylor's 
School of Medicine, entitled, ``Tropical Diseases: The New Plague of 
Poverty.'' \5\ I googled him and found an email. We met a brief time 
later and from these meetings, came up with the idea for a study to 
look for hookworm and other tropical parasites (which had long been 
thought to have been eradicated from the U.S.) in stool samples, soil 
samples, water samples and blood samples in Lowndes County. In 
September 2017, our peer-reviewed study was published. The study found 
that 34.5 percent of participants tested positive for hookworm and 
other tropical parasites in Lowndes County.\6\ Hookworms are not 
deadly, but can cause delays in physical and cognitive development in 
children. I want to repeat an earlier statement: we once believed 
hookworm had been eradicated from the U.S. Our peer-reviewed study 
found that over 30 percent of samples from Lowndes County tested 
positive for hookworm.
---------------------------------------------------------------------------
    \5\ Hotez, Peter, ``Tropical Diseases: The New Plague of Poverty,'' 
The New York Times (August 18, 2012), https://www.nytimes.com/2012/08/
19/opinion/sunday/tropical-diseases-the-new-plague-of-poverty.html.
    \6\ McKenna et al., Human Intestinal Parasite Burden and Poor 
Sanitation in Rural Alabama, Am. J. of Tropical Medicine and Hygiene 
(Sept. 2017) (``McKenna et al.''), https://www.ncbi.nlm.nih.gov/pmc/
articles/PMC5817782/pdf/tpmd170396.pdf.
---------------------------------------------------------------------------
    What we have concluded is that in many instances current onsite 
septic systems and some small package systems are not working 
correctly, even after large expenditures by homeowners. Cheap lagoon 
systems are used generally in poor or rural communities. This is not 
just a Lowndes County or an Alabama problem. I have heard of examples 
of these type of failures across the United States. For example, in 
South Florida, more and more septic systems are vulnerable to failure 
due to climate change. A recent study has found that by 2040, due to 
sea level rise, 64 percent of Miami-Dade County's septic systems could 
harm people's health and water supply.\7\ In California, problems have 
also been reported. For example, according to documentation by Self-
Help Enterprises, 42 percent of respondents in one community in 
Bakersfield have experienced septic system issues. More broadly, it is 
estimated that more than 20 percent of the country uses onsite 
wastewater treatment, and this percentage reaches 40 percent or more in 
some States with large rural populations like North Carolina, Kentucky, 
South Carolina, Maine, Vermont, and New Hampshire.\8\ Up to half of 
conventional septic systems in the U.S. function improperly or fail 
completely at some point in their expected lifetime. By some estimates, 
65 percent of the land in the U.S. cannot support conventional septic 
systems.\9\
---------------------------------------------------------------------------
    \7\ Miami-Dade County Department of Regulatory & Economic 
Resources, Miami-Dade County Water and Sewer Department, & Florida 
Department of Health in Miami-Dade County (Dr. Samir Elmir), Septic 
Systems Vulnerable to Sea Level Rise (November 2018), https://
www.miamidade.gov/green/library/vulnerability-septic-systems-sea-level-
rise.pdf.
    \8\ U.S. EPA, Septic Systems Overview, https://www.epa.gov/septic/
septic-systems-overview.
    \9\ Richard Siddoway, Alternative Onsite Sewage Disposal 
Technology: A Review (Jan. 1988), Washington State Institute for Public 
Policy, http://www.wsipp.wa.gov/ReportFile/1131.
---------------------------------------------------------------------------
    In December 2017, the U.N. Special Rapporteur on Extreme Poverty 
and Human Rights visited Lowndes County at my invitation, as part of a 
tour of the U.S. In a statement, the Special Rapporteur, Philip Alston, 
noted: ``In Alabama, I saw various houses in rural areas that were 
surrounded by cesspools of sewage that flowed out of broken or non-
existent septic systems. The State Health Department had no idea of how 
many households exist in these conditions, despite the grave health 
consequences. Nor did they have any plan to find out, or devise a plan 
to do something about it.'' \10\ The nonprofit organization I founded, 
Alabama Center for Rural Enterprise, has since filed a Title VI 
complaint with the Department of Health and Human Services, alleging 
that the Alabama Department of Public Health and Lowndes County Health 
Department have for decades been placing an adverse impact on the 
health and well-being of the black community of Lowndes County for 
failing to address this problem. The Department of Health and Human 
Services is currently deciding whether to investigate this complaint.
---------------------------------------------------------------------------
    \10\ United Nations Human Rights, Office of the High Commissioner, 
Statement on Visit to the USA, by Professor Philip Alston, United 
Nations Special Rapporteur on extreme poverty and human rights 
(December 15, 2017), https://www.ohchr.org/EN/NewsEvents/Pages/
DisplayNews.aspx?NewsID=22533&LangID=E.
---------------------------------------------------------------------------
    It is time for Congress to act to address this widespread problem 
that rural communities across the country face. In order to 
meaningfully address the issue of inadequate onsite wastewater, a 
comprehensive approach must be taken.
    As a baseline, there needs to be an acknowledgement of this problem 
more broadly. It has only been recently that we have begun to garner 
attention in the media about the lack of adequate wastewater options 
for some communities, but for years Lowndes County residents largely 
suffered in silence, and many across the country continue to do so. 
Members of Congress should talk to their rural constituents to find out 
where there may be lack of adequate wastewater services in their 
districts.
    Local and State authorities, and to the extent they can, Federal 
authorities, also need to eliminate laws, policies, and practices that 
criminalize residents for their failure to comply with wastewater 
regulations, even when the cost to do so is substantially higher than 
their means.
    We need more information on where people are living without access 
to sanitation and wastewater services, as well as on individuals who 
pay a wastewater treatment fee to a management entity and yet still 
have sewage backing up into their homes. The Rural Community Assistance 
Partnership estimated that more than 1.7 million people in the United 
States lack access to basic plumbing facilities \11\ and EPA estimates 
that more than one in five families in the U.S. are served by 
decentralized wastewater.\12\ This is only an estimate, however, as 
most States do not have an inventory of where septic systems are 
located. The U.S. Census once captured information regarding whether 
homeowners were served by municipal treatment or a septic system, but 
the question regarding household sewage treatment was taken off after 
the 1990 census. As a first step, that question should be added back to 
the Census to begin compiling data once again to illustrate the scope 
of this problem.
---------------------------------------------------------------------------
    \11\ Rural Community Assistance Partnership, Still Living Without 
the Basics in the 21st Century: Analyzing the Availability of Water and 
Sanitation Services in the United States, at https://rcap.org/wp-
content/uploads/2017/05/Still-Living-Without-the-Basics-Water.pdf.
    \12\ U.S. EPA, Septic Systems Overview, https://www.epa.gov/septic/
septic-systems-overview.
---------------------------------------------------------------------------
    Congress should use its oversight powers to ensure that investments 
are meaningful, distributed equitably, and the agencies and engineers 
approving the use of the funds are ultimately accountable if a system 
fails.
    <bullet>  Funding should take into account the realities of climate 
change, as more rainfall and extreme weather due to climate change is 
likely to only stress these systems more. Funding must also take into 
account community input and the unique geography of an area. For 
example, the soil in Lowndes County and across the Black Belt creates 
unique challenges that other communities may not face.
    <bullet>  Funding also must go to those who need it most and cannot 
afford wastewater services or upgrades without assistance.
    <bullet>  And finally, Congress should ensure that individual 
homeowners are not responsible if the system that was approved for 
installment on their property, especially one that is installed using 
Federal funds, fails due to geographic, soil, or other conditions 
outside of their control.
    The Clean Water State Revolving Fund is an excellent tool to help 
communities with much-needed wastewater upgrades, but to be the most 
effective it needs the flexibility to reach the people who need it 
most.
    Although addressing the problem of inadequate wastewater and its 
roots in poverty and oppressive policies is complex, it must be done. 
Congress must begin addressing this problem now, while also looking at 
technological solutions for the new future of wastewater. This is an 
opportunity to remove the shame associated with discussing wastewater 
treatment failures and instead focus on sustainable solutions that 
consider community input, offers assistance to those who need it most, 
and provides meaningful investment in wastewater that actually helps 
people, rather than causing further harm.
  attachment: human intestinal parasite burden and poor sanitation in 
                             rural alabama
The report is retained in the committee files and available at: https:/
/www.ncbi.nlm.nih.gov/pmc/articles/PMC5817782/pdf/tpmd170396.pdf

    Mrs. Napolitano. Thank you very much for your testimony.
    Next we have Ms. Maureen Taylor. You are on.
    Ms. Taylor. Good morning, Chairwoman Napolitano and members 
of the committee.
    My name is Maureen Taylor, and I bring you greetings from 
Michigan Welfare Rights where I am honored to serve as the 
State chairperson of that organization.
    And I want to say at the outset we are so pleased that we 
were included in an opportunity to address these issues 
relative to how to manage water and water problems.
    Epic changes in the relationship between working people and 
the world over and traditional means of survival have altered 
the progress of humanity permanently. Since the age of 
industrialization, blue collar America has only known one 
process of existence. You work. You earn a paycheck. You spend 
it on those things you need to continue to live. You run out of 
money. So you go back to work. This is the cycle that repeats 
itself.
    Cities like Cincinnati, Chicago, Gary, Flint, Highland 
Park, Pontiac, Detroit and others have all similar histories 
which have been tied to these locations and industries that 
require mass numbers of laborers.
    Detroit's nearby communities built cars for the world, and 
that world was connected to automobile manufacturing and all of 
the ancillary items required to keep that industry thriving. In 
1914, when Henry Ford advertised the first $5 a day opportunity 
for those willing to work on his assembly line, blue collar 
workers, especially those in unions, established a pattern for 
the Nation to follow: 8-hour days, extra pay on weekends, 
holiday pay, time off for vacation, health care benefits, 
academic benefits, et cetera.
    Municipals, schools, and most other employers duplicated 
contracts that mirrored employee-employer relationships and 
negotiations set in factories. The quality of life for millions 
of us has been tied to those relationships from 1914 to 1984, 
just over 70 years.
    Standard of living for working people started to change in 
small, imperceptible ways in the mid-1980s that was coupled 
with population declines forced by massive losses of high-
paying jobs. With the onset of high-tech manufacturing methods, 
the die was cast and Detroit went from 1.9 million residents to 
just over 700,000 today.
    With the population on the move, why keep so many schools 
open? Why keep hospitals open? Why keep opportunities available 
for people that will never find a job again?
    In 2014, the Detroit Water Department started the most 
recent and egregious campaign of mass water shutoffs that 
targeted only low-income residential customers who were 2 
months behind in payments or $150 in arrears.
    In June of that year, we started to hear rumors about 
something happening in a place called Flint, Michigan. 
Poisonings were going on, and the word started to come out. In 
the end of the program, both of these issues marked the genesis 
of long nights of terror for blue collar workers, a night that 
has not yet ended.
    Despite multiple levels and battles to stop these draconian 
practices, residents have not been able to stop the moral 
bankruptcy of water shutoffs or even water poisoning. We are 
left to create methods of survival as the only option for 
Detroit, for Highland Park, for Flint, and for other cities and 
communities across the country who are facing shutoffs.
    In early 2014, the initial numbers shared with us that were 
being targeted for mass water shutoffs were 59,990 addresses. 
Since those days, Detroit has seen upwards of 100,000 
disconnections.
    Possible solutions include these suggestions:
    A federally mandated opportunity to establish uniform 
policies on water and sewage affordability based on each 
residential customer's ability to pay;
    A Federal dedicated source of funding to the Drinking Water 
State Revolving Fund and a renewal of the Build American Bonds 
Program to address aging water and sewage infrastructure 
issues.
    In the end, in Detroit especially, the only thing I can say 
is that I do not live in a bankrupt city. I live in a city that 
has been bankrupted. We need you to help us to stop water 
shutoffs. We need you to help us restore all water services and 
then determine individual eligibility. And then we need you to 
help create a private and a public water policy and procedure.
    In the end, I want to thank you so very much for the 
opportunity to share a little bit about the misery that we have 
been going through, and I am going to go further.
    I would like it if some of you that are here today might 
consider assigning someone from your offices to work directly 
with us.
    Thank you so much.
    [Ms. Taylor's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Maureen Taylor, State Chairperson, Michigan 
             Welfare Rights Organization, Detroit, Michigan
                   michigan/ground zero water crisis
    Good Morning Chairman Defazio, Ranking Member Graves and members of 
the committee. My name is Maureen Taylor and I am the State Chairperson 
for the Michigan Welfare Rights Organization a State chapter of the 
National Welfare Rights Union which advocates for public assistance 
recipients and low-income people. The Michigan Welfare Rights 
Organization works to build a social movement by bringing together 
people directly affected by water problems, grassroots leaders, 
community attorneys, researchers, educators, artists, and policymakers 
to strategize on solutions provide clean, healthful water regardless of 
income. Thank you for the opportunity to testify today to share a bit 
about the water affordability challenges facing citizens in the State 
of Michigan, particularly the city of Detroit and offer a few suggested 
solutions.
    The epic changes in the relationship between working people the 
world over and the traditional means of survival have altered the 
progression of humanity permanently. Since the age of 
industrialization, blue-collar America has only known one process of 
existence--you work, you earn a paycheck, you spend it on those things 
you need to live, you run out of money, so you return to work--the 
cycle repeats. Cities like Cincinnati, Chicago, Gary, Flint, Highland 
Park, Pontiac, Detroit and others all have similar histories which have 
tied these locations to industries that required massive numbers of 
laborers.
    Detroit, and near-by communities, built cars for the world and that 
world was connected to automobile manufacturing and all the ancillary 
items required to keep that industry thriving. From 1914 when Henry 
Ford advertised the first $5/day opportunity for those willing to work 
on the assembly line, blue-collar workers especially those in unions 
established a pattern for the Nation to follow . . . 8-hour days, extra 
pay on weekends, holiday pay, time off for vacations, healthcare 
benefits, academic benefits, etc. Municipal, school, and most other 
employees duplicated contracts that mirrored employee/employer 
negotiations set in factories. The quality of life for millions have 
been tied to these relationships from 1914 to 1984 . . . just over 70 
years.
    The standard of living for working people started to change in 
small, imperceptible ways in the mid-1980's that were coupled with 
population declines forced by massive losses of high-paying jobs. With 
the onset of hi-tech manufacturing methods, the die was cast. Detroit 
went from 1.9 million residents to just over 700,000 today. With the 
population on the move, why keep so many schools open or teachers 
working since millions will never need basic educational skills ever 
again? With the population on the move, why maintain the notion that 
people are entitled to affordable housing since most will not be needed 
at work? With the population on the move, why not tie healthcare, or 
public transportation, or simple community safety, or access to clean 
water and sanitation to the notion that these items must be paid for? 
The concept of access to clean water and sanitation even for the 
poorest among us, has always been a ``common'' viewed as something 
owned by humanity as a rule. It appears that the new rule allows for 
the ``torture'' of working people who live on fixed incomes that 
normalizes mass water shutoffs as part of the ``new normal''.
    In 2014, the Detroit Water and Sewerage Dept. started the most 
recent and egregious campaign of mass water shutoffs that targeted only 
low-income, residential customers who were 2 months behind in payments 
or $150 in arrearages. In June of that year, rumors started to surface 
about poisoned public water in Flint, MI. Both issues marked the 
genesis of long nights of terror for blue-collar workers, a night that 
has not yet ended. Such practices were not new to those in the American 
``rust-belt'' but never before had the ferocity and scale reached such 
depths.
    When the Detroit Water and Sewerage Department began this 
aggressive campaign, The Michigan Welfare Rights Organization (MWRO) 
established a water shutoff water hotline to try to assist citizens who 
were threatened with water shutoff. We received forty or more calls per 
hour regarding water shut offs. As part of our work we have seen 
children living in homes without water. Parents with children, whose 
water services are terminated, fear Child Protective Services because 
if Child Protective Services is notified, it can result in a child or 
children being removed from their home. We saw this happen in a case 
where a Detroit Water and Sewage Department customer who lost her job, 
had her water shut off; and then her children were taken and placed in 
foster care by social services. The situation in Detroit is untenable, 
I have personally assisted with moving families into homeless shelters 
or church basements to obtain temporary shelter until water is 
restored.
    Despite multi-level battles to stop these draconian practices, 
residents have not been able to deter the moral bankruptcy of water 
shutoffs or water poisonings. Attempts to ``privatize'' what has always 
been a ``public common'' held in trust has only been slowed. The city 
of Detroit is focused on re-classifying access to clean water and 
sanitation as a commodity to be bought and sold, supported by the 
notion that if you can't pay for it, residents can't have it . . . 
SCANDALOUS! The city of Highland Park, a suburb of Detroit, was first 
to feel the pain of ``water privatization'' attempts that came on the 
heels of that community losing more than 50 percent of its population. 
Elected officials have no other answer. All elected officials, all 
genders, all party affiliations, and all nationalities label then sell-
off city assets that once belonged to the people as a means to balance 
the financial books during challenging economic times. The falsely 
declared ``bankruptcy'' in Detroit sealed our fate and made city assets 
open game to having these re-classified items to be sold. I don't live 
in a bankrupt city . . . I live in a city that was bankrupted!
    In early 2014, the initial numbers being targeted for mass water 
shutoffs was 59,990. Since those days, Detroit has seen upwards of 
100,000+ disconnections. We have been left with no choice but to fight 
for our lives as we try to envision what a different kind of world 
might look like that won't punish poor people because they are poor!
    To be threatened with shutoff, a household must be 2 months behind 
in payments, or merely $150 in arrears . . . SCANDALOUS!! When water is 
turned off, neighborhood issues surface. When water is turned off, 
children can be removed from the household and placed in foster care. 
When water is turned off, infectious diseases increase connected to the 
buildup of surface algae and other contaminants that grow on the inside 
of water pipes surface and are passed from household to household. No 
one hears our cries, no one sees our tears.
    We are left with creating methods of survival as the only option 
for Detroit, for Highland Park, for Flint and for the other cities and 
townships across the country who are facing shutoffs. The government 
answer to how to treat poor people, poor children, poor retirees, poor 
disabled persons, and poor veterans is to deny access to clean water. 
God Bless America, Land That I love . . .
    As possible solutions I offer the following suggestions which our 
coalition has shared at previous hearings and in written testimony:
    <bullet>  A Federal mandate to establish a uniform policy on water 
and sewerage affordability, based on each residential customer's 
ability to pay.
    <bullet>  A Federal dedicated source of funding to the Drinking 
Water State Revolving Fund and renew the Build America Bonds Program to 
address aging water and sewerage infrastructure, which is but one of 
the reasons for rising costs, passed on to residential customers.
    <bullet>  Federally funded bill payment assistance for those with 
the lowest incomes that pay a high proportion of household income for 
home energy to meet their immediate need for home energy
    <bullet>  Federal consumer protections for water service, including 
shutoff procedures that require sufficient notice, shutoff prohibitions 
for vulnerable households with minor, elderly, pregnant, or disabled 
persons, and water quality.
    Recommended solutions specific to Detroit, Michigan include:
    <bullet>  Stop all water and sewerage shutoffs until DWSD has 
implemented policies and procedures addressing shutoffs by implementing 
the original Detroit Water Affordability Plan (2005) created by expert 
Roger Colton.
    <bullet>  Immediately assess of the number of Detroiters living in 
homes without water, including a survey of the number of children, 
disabled, elderly and other at-risk citizens, with a review of public 
health and safety issues.
    <bullet>  Restore all water service and then determine eligibility 
for assistance programs, in one stop, including Federal and State 
assistance. Only if it is determined that the person has the ability to 
pay, but has not, will the water and sewerage services be terminated.
    <bullet>  Create a comprehensive DWSD Policy and Procedure for 
shutoff of residential and commercial accounts.
    <bullet>  Declare an amnesty on Detroit criminal prosecutions for 
``alleged water thief''; instead evaluate these Detroiters for 
financial assistance based on what Detroiters can afford to pay. Turn 
an alleged criminal into a contributor.
    Again, thank you for the opportunity to share a bit about the water 
affordability challenges facing citizens in the State of Michigan, 
particularly the city of Detroit and offer a few suggested solutions.

    Mrs. Napolitano. Thank you for your testimony.
    Next, Mr. Andrew Kricun. Thank you, sir.
    Mr. Kricun. Thank you, Chairwoman Napolitano, Ranking 
Member Westerman, and distinguished members of the House Water 
Resources and Environment Subcommittee.
    I would like to sincerely thank you for the opportunity to 
speak before you today to discuss how the Camden County MUA in 
Camden, New Jersey, used the State Revolving Fund to 
significantly improve our wastewater infrastructure while 
holding our rate steady without impacting our communities.
    I work with the Camden County MUA, a city right across from 
Philadelphia, and I also serve on the board of directors of the 
National Association of Clean Water Agencies, and I work as the 
chair of their Utility of the Future and Environmental Justice 
in Community Service Committee.
    Camden County has used the State Revolving Fund to 
significantly improve our performance, and we also did that 
while holding rates. So specifically, by using the State 
Revolving Fund, we borrowed over $1 billion from the fund since 
1987 in today's dollars.
    In 1996, our household rate was $337 per year, 23 years 
ago. Today, 23 years later, by using the SRF to upgrade our 
system, our rate is only $352 per year per household. It has 
only gone up 4 percent in 23 years, less than .2 percent per 
year because of the State Revolving Fund.
    In Camden City, we have a combined sewer system, too, and 
we have some of the same issues that Ms. Flowers described with 
regard to combined sewage backing up into people's homes, into 
parks, into streets. And your zip code should not define 
whether or not you have safe drinking water or whether or not 
you have sewage backing up into your streets, parks, or homes.
    But with the SRF, thanks to the SRF, we are going to be 
able to eliminate combined sewage flooding in Camden City for 
up to the 1-inch storm by the end of 2020. By the end of next 
year, that combined sewage flooding will be a thing of the past 
in Camden City because of the SRF, and we will not have to 
raise rates.
    Because the way the SRF works, it is a low interest 
program, as you know. It is not a handout. It is a handup. We 
are borrowing funds, a loan that we have to pay back, but 
because of the low interest rates and because it is spread over 
20 and now 30 years in New Jersey, we are able to take those 
funds, upgrade our system, and do it without affecting our 
economically distressed communities.
    Camden City is one of the poorest cities in the country. We 
have a household income of $26,000 per household. We have an 
unemployment rate of 10 percent. So for us, we cannot raise the 
rates.
    Wastewater utilities like ours have to choose between 
infrastructure improvements and affordability for our 
communities, but with the State Revolving Fund, we do not have 
to choose. We can upgrade our facilities, and we can also do it 
in an affordable way. Like I said, our rate has only gone up 4 
percent total in 23 years because all of our capital 
improvements are through the State Revolving Fund.
    The other thing that we are going to be doing is making our 
city more resilient. Hurricane Sandy was a disaster for the 
State of New Jersey. We want to make sure that we are not 
vulnerable to another storm like that. Using the State 
Revolving Fund, by the end of next year also, the same 
timeframe, we will be generating all of our own electricity 
from our biosolids and taking Camden City's treatment plant off 
the grid and then building a microgrid to protect the drinking 
water plant, hospitals, fire, school, police, all through the 
State Revolving Fund without raising rates.
    Again, it is a loan program. It is not a grant, but it 
makes a huge difference. It is a hand up, not a hand out. I 
cannot stress that enough.
    So proposed solutions, you know, to this infrastructure 
gap. Chairwoman Napolitano, you indicated that the American 
Society of Civil Engineers gave a D-plus grade. That is 
terrible. It is not acceptable, you know, for this country, for 
anyone, urban or rural. Everyone deserves safe drinking water 
and deserves to have freedom from sewage in their homes, in 
their streets.
    So the first thing we water utilities have to do is 
optimize. I heard what you said, Ranking Member Westerman, 
about we utilities have to do our work ourselves. We are 
working to optimize our internal efficiencies. You know, we 
public sector entities have to harness the private sector model 
of efficiency for the public good and then use the State 
Revolving Fund to build our infrastructure in the most cost-
effective way.
    Those two pillars have enabled us to upgrade our facilities 
without raising rates, and this can be replicated in any 
community across the country, urban or rural, because the State 
Revolving Fund is that successful, that terrific.
    The other thing, too, I do recommend and agree an 
affordability program is necessary. We need to make sure that 
our low-income customers are able to afford their services. 
Everyone deserves safe drinking water and freedom from sewage, 
combined sewage. It ought to be a right that every American 
citizen has. And with the State Revolving Fund, it can be done.
    The other thing I really strongly recommend is a peer-to-
peer effort. One of the things we found in Camden City is that 
although the State Revolving Fund is so helpful, they lacked 
the resources to apply for funding. They have communities that 
lack resources, whether it be urban or rural. They do not often 
have people to write grants or write for funds.
    So a peer-to-peer initiative among resource utilities with 
less resource utilities would be really helpful to help 
communities like Flint and Gary to apply for funds that are 
available to them. The National Association of Clean Water 
Agencies and EPA are working together on a peer-to-peer network 
to try to assist utilities with that.
    The other thing, I agree with you, Ranking Member 
Westerman. Those are public-to-public partnerships, peer-to-
peer. But public-private partnerships are helpful, too, and we 
were able to use them in some design-build contracts, a power 
purchase agreement to put solar in. So these opportunities are 
available.
    I would really like to thank you all for your interest in 
the water sector, the importance of drinking water and 
wastewater protection.
    I will just say one last thing. This is an opportunity for 
a win-win. President Roosevelt put in the Civilian Conservation 
Corps to put people to work, to build infrastructure. President 
Eisenhower did the same with the Interstate Highway System in 
the 1950s.
    This is a tremendous opportunity to put our citizens to 
work, to protect our environment, and rebuild our water 
infrastructure.
    Thank you very much.
    [Mr. Kricun's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Andrew Kricun, P.E., BCEE, Executive Director/
  Chief Engineer of the Camden County Municipal Utilities Authority, 
                           Camden, New Jersey
                              introduction
    Chairman Napolitano, Ranking Member Westerman, and distinguished 
members of the House Water Resources and Environment Subcommittee, I 
would like to sincerely thank you for the opportunity to speak before 
you today to discuss how the Camden County Municipal Utilities 
Authority, located in Camden, NJ, has used the Clean Water State 
Revolving Fund to upgrade its wastewater infrastructure while 
sustaining an affordable user rate for our customers. My name is Andy 
Kricun and I am the Executive Director and Chief Engineer of the Camden 
County Municipal Utilities Authority (CCMUA), operators of an 80 
million gallon per day wastewater treatment facility located in Camden, 
NJ. I also serve on the Board of Directors of the National Association 
of Clean Water Agencies (NACWA), and as the Chair of NACWA's Utility of 
the Future and Community Service Committees.
    Camden County has used the State Revolving Fund to significantly 
improve its water quality and odor control performance while increasing 
its annual household user rate from $337 per household in 1996 to $352 
per household in 2019. This represents only a 4 percent increase, 
total, in the span of 23 years. When inflation from the past 23 years 
is factored in, this represents a 40 percent rate decrease for our 
customers. This demonstrates the tremendous environmental and economic 
benefits that can be realized from the State Revolving Fund Program. 
The SRF program is a ``hand up'', not a ``hand out''. Without the low 
interest rates provided through the SRF program, Camden County would 
have been forced to choose between environmental performance and 
maintaining an affordable rate for our customers in Camden, NJ, one of 
the most economically distressed communities in the country. Thanks to 
the SRF, we were able to provide both the environmental protection and 
the affordability that our customers need and deserve. And, our case 
study is completely replicable for any water utility in the country. 
For these reasons, we sincerely thank Congress, the United States 
Environmental Protection Agency and the New Jersey Department of 
Environmental Protection for the SRF funding that we have received, and 
we strongly support reauthorization of the Clean Water State Revolving 
Fund as a proven and successful way to protect the environment and the 
public health while sustaining affordable user rates.
                                overview
The Infrastructure Gap Problem
    It is self-evident that properly functioning drinking water and 
wastewater treatment systems are essential to maintaining the public 
health of our citizens and protecting our environment. Moreover, our 
industries and commerce are largely dependent upon the reliable 
provision of drinking water and wastewater services. However, the 
American Society of Civil Engineers has recently given a ``D'' grade to 
the nation's drinking water and wastewater infrastructure systems. This 
is indicative of a very significant vulnerability, and corresponding 
threat, to the public health, the commerce, and the environment of our 
country.
    Moreover, recent climate history, such as Hurricane Sandy in New 
Jersey and the hurricanes in Houston, Florida and Puerto Rico last 
year, have shown us that our existing water infrastructure is 
inadequate to deal with extreme climate events, some of which we are 
already experiencing now. For example, during Hurricane Sandy and its 
aftermath, billions of gallons of untreated sewage were discharged into 
our waterways. Should the climate change more rapidly as most experts 
predict, then this would only exacerbate the current infrastructure 
gap. But, even if the climate were not to change, there is already a 
very significant infrastructure gap in our country's drinking water and 
wastewater facilities that must be addressed if we are to adequately 
protect the public health, commerce and the environment into the 
future.
The Affordability Challenge
    The cost of maintaining and upgrading drinking and clean water 
infrastructure falls nearly entirely on the systems' ratepayers--in 
fact the Congressional Budget Office found that the Federal share of 
the nation's total water and wastewater infrastructure investment is 
just 4 percent, with States and local governments covering the vast 
majority. I ask that as the House and Senate consider infrastructure 
legislation this Congress, water be raised to a more equal footing with 
other sectors like transportation and energy.
    Closing the aforementioned infrastructure gap will be very costly 
and will impose an economic burden on all customers, which will be felt 
especially by our most economically distressed customers. Camden City, 
NJ has a median household income, citywide, of only $26,000 and its 
unemployment rate is just under 10 percent, at 9.8 percent. Our 
customers need, and deserve, safe drinking water, and properly 
functioning water and wastewater infrastructure. However, most of them 
cannot afford water rate increases with the income and unemployment 
rates I have quoted. A person's zip code should not determine whether 
or not they have safe drinking water or have combined sewage backing up 
into their basements or streets or parks.
    Therefore, it is incumbent upon drinking water and wastewater 
utilities, like mine, to find ways to provide the water treatment 
services that every citizen, regardless of where they live, deserves, 
while keeping our rates affordable.
                           proposed solutions
    In order to protect public health, the economy and our environment, 
it is essential that clean water utilities close the existing 
infrastructure gap, while also keeping rates affordable for our 
customers. There are at least five important solutions that could help 
to accomplish this, as follows:
    1) Optimize internal efficiency--Before water utilities seek 
assistance from any outside entities, we must first optimize our own 
internal efficiency, harnessing the private sector efficiency model to 
work for the public good. In Camden County, we implemented an ISO 14001 
Environmental Management System to optimize performance and cost 
efficiency. For example, by optimizing our preventative to reactive/
emergency maintenance ratio, we significantly reduced costs while 
improving performance.
    Improving efficiencies in how a utility can manage its multiple 
clean water compliance and investment objectives is also an area 
Federal policy can help advance. I applaud this Subcommittee for 
advancing language into law last Congress that will help communities 
consider a more integrated planning approach and better manage costs.
    However, alongside strong clean water policy, Federal investment 
must remain strong as well.
    2) Utilization of the State Revolving Fund Program--After internal 
efficiency improvements, the next most important factor for Camden 
County's infrastructure improvement and rate performance was abundant 
use of the SRF program. Because of the low interest rates provided by 
the SRF, spread out over 20, or even 30, years, Camden County was able 
to upgrade its entire wastewater treatment plant, thereby improving 
water quality performance, without raising rates for our customers. 
This is because newer equipment has lower maintenance costs and lower 
electricity costs and so there is an annual savings in operations and 
maintenance costs associated with new equipment. Because of the SRF's 
low interest rates, the annual operations and maintenance cost savings 
are greater than the annual debt service payments on the loan. This is 
how the SRF enabled Camden County Municipal Utilities Authority to 
replace our aging, underperforming, infrastructure, and improve 
environmental performance while only increasing rates by a total of 4 
percent over a period of 23 years, from 1996 to 2019. This esulted in 
savings of over $500 million to our ratepayers during that period of 
time.
    The State Revolving Fund program involves loans that still must be 
paid back by the utility, so it is truly a ``hand up'', not a ``hand 
out'', but this program has enabled Camden County to provide our 
customers with the water infrastructure they deserve, at rates they can 
afford. And, Camden County's success in this regard can be replicated 
in every city and every town, urban or rural, across the country.
    3) Affordability programs--The balancing act that clean water 
utilities must undertake to upgrade infrastructure while keeping rates 
affordable would be aided immeasurably if there were affordability/rate 
assistance programs, similar to those available for electricity and 
heat, available to lower income customers. If these programs were 
available in the clean water industry as well, then clean water 
utilities could have more flexibility to charge full cost rates needed 
to restore and preserve infrastructure without harming our most 
vulnerable customers.
    4) Public-Private partnerships also offer an excellent opportunity 
to reduce the infrastructure funding gap while keeping rates down. Tax 
incentives that encourage private sector investment in clean water 
infrastructure would be extremely helpful. For example, thanks to tax 
incentives extant at the time, Camden County entered into a power 
purchase agreement with a solar panel provider which reduced 
electricity costs for our ratepayers by over $300,000 per year, while 
reducing our vulnerability to power outages with reliable green energy.
    5) Public-Public partnerships--Improved performance from clean 
water utilities across the sector can be accelerated by developing peer 
to peer programs and information sharing mechanisms that ensure 
optimally systematic and efficient dissemination of best utility 
practices, already developed by the leaders in the industry, as widely 
and rapidly as possible across the clean water sector. In this way, the 
learning curve for best practices can be traversed more quickly, 
thereby improving environmental performance while reducing operational 
costs as well. The National Association of Clean Water Agencies (NACWA) 
is currently working with the United States Environmental Protection 
Agency (USEPA) and the Water Environment Federation (WEF) to develop a 
national peer to peer and information exchange program. I believe that 
this will make a significant difference for the entire sector, 
especially urban and rural municipalities and utilities with limited 
resources to improve best practices on their own.
                    conclusions and recommendations
    In summary, I offer the following conclusions and recommendations:
    1.  There is a very significant water infrastructure gap that 
exists at present, even under present climate conditions, that must be 
dealt with while keeping rates affordable for water customers. Every 
American citizen, rural and urban, regardless of their zip code, 
deserve safe drinking water and clean rivers and streams at affordable 
rates.
    2.  This gap, if not dealt with now, will only widen and worsen as 
our nation's water infrastructure continues to age and climate 
conditions become even less predictable.
    3.  The State Revolving Fund (SRF) program is a proven and 
successful resource for clean water utilities to replace and upgrade 
their infrastructure while keeping rates affordable. The Camden County 
Municipal Utilities Authority used the SRF extensively to replace all 
of the main process units for its wastewater treatment plant, and 
upgrade its sewer system, while only raising rates 4 percent, total in 
a period of 23 years. The SRF was an essential component of that 
environmental and economic success for our ratepayers. We strongly 
recommend the re-authorization of the SRF, at the highest levels 
possible, so that other municipalities across the country can realize 
the same economic benefits that Camden County has been fortunate to 
realize. We applaud the bipartisan legislation introduced by Chairman 
Napolitano and members of the Transportation & Infrastructure Committee 
to do just that for the CWSRF.

        Other vital Federal programs that provide important support for 
the States in implementing specific clean water objectives similarly 
deserve ongoing support. For example, the Section 319 program that 
provides funding to the States to help localities address nonpoint 
pollution control can help advance green infrastructure, which I am 
proud to say Camden County has made huge strides in advancing.
    4.  In addition to the SRF, clean water utilities must also work to 
optimize their own efficiency and also look for opportunities for 
public-private partnerships and public-public, peer to peer, 
partnerships in order to further improve environmental performance and 
cost efficiency.
    5.  Affordability programs for lower income families will enable 
utilities to charge full cost rates that will allow for the 
infrastructure replacement that is needed without disproportionately 
burdening the most economically vulnerable members of our communities.
    6.  Finally, there is an opportunity for a ``win-win'' in dealing 
with the infrastructure gap as construction of new water infrastructure 
will also create jobs at a time when they are badly needed in our 
economy. Just as President Roosevelt did with the Civilian Conservation 
Corps, and President Eisenhower did with the construction of the 
Interstate Highway system, there is an opportunity to address our water 
infrastructure problems and create jobs at the same time.
    Thanks, once again, to the distinguished members of the House Water 
Resources and Environment Subcommittee for holding this hearing and for 
your focus on the importance of the State Revolving Fund program to 
clean water utilities and the communities that we serve. There is a 
tremendous opportunity to better protect the public health and the 
environment, and create jobs for our economy, without causing economic 
harm to our most vulnerable communities. Thank you very much for the 
opportunity to address this very important issue with you. I look 
forward to your questions.
       about the camden county (nj) municipal utilities authority
    The Camden County Municipal Utilities Authority (CCMUA) operates an 
80 million gallon per day wastewater treatment plant, and a 125-mile 
regional sewer system, that provides sewage treatment and conveyance 
service to the 500,000 residents of Camden County, NJ. Camden County 
consists of the county seat of Camden City, one of the most 
economically distressed cities in the Nation, and 36 suburban 
municipalities of varying economic wherewithal. The CCMUA discharges to 
the Delaware River and is, after Philadelphia and Wilmington, the third 
largest point source discharger to the Delaware. In addition, the 
CCMUA's treatment plant is only about one hundred yards from a 
residential community of about 1800 people. Therefore, the CCMUA faces 
four main challenges:
    <bullet>  optimizing environmental performance to optimize the 
water quality of the Delaware River
    <bullet>  minimizing odor impact on the adjoining neighborhood
    <bullet>  restoring and preserving our infrastructure, and reducing 
our vulnerability to severe storms
    <bullet>  accomplishing all of these goals while minimizing costs 
to our ratepayers, particularly those living in the economically 
distressed city of Camden.

    Mrs. Napolitano. Thank you very much for your testimony.
    Ms. Heaps.
    Ms. Heaps. Good morning, Chairwoman Napolitano, Ranking 
Member Westerman, and members of the subcommittee.
    I am Jill Witkowski Heaps, visiting scholar at the 
University at Buffalo School of Law and assistant professor at 
Vermont Law School. I also serve as Vice Chair of the National 
Environmental Justice Advisory Council, a Federal advisory 
committee to EPA on environmental justice.
    I chaired the work group which wrote the report, ``EPA's 
Role in Addressing the Urgent Water Infrastructure Needs of 
Environmental Justice Communities.''
    That report is being delivered to Administrator Wheeler 
this week. I am happy to submit to you a copy of the report 
when it is available.
    I am here today speaking in my individual capacity.
    The city of Buffalo has invested more than $150 million in 
its water infrastructure over the past 10 years, but Buffalo 
needs to raise water revenues to pay for more improvements, 
including a $500 million program to address the city's lead 
poisoning problem by replacing 41,000 lead-containing resident 
service lines.
    Many Buffalo residents already have problems paying their 
water bills. More than 30 percent of the households are at or 
below the Federal poverty level. Approximately 200 households a 
month have their water shut off.
    On January 1st, 2019, Buffalo adopted an affordability 
program along with its water rates increase, but the city will 
see more shutoffs despite the new program. Why?
    First, the program only sought to cover the cost of the 
rate increase, even though the city already had water 
affordability issues.
    Second, even though 40,000 households will be eligible for 
the program, Buffalo estimates 10 percent participation in the 
program. That means 36,000 households living paycheck to 
paycheck will see a 17-percent increase in their bills.
    Third, the city increased the capacity charge, not the cost 
of water itself. So families cannot avoid increased bills by 
conserving water.
    This example demonstrates at least two things:
    One, decades of infrastructure underfunding have left 
systems crumbling. Families are now struggling to pay larger 
and larger water bills as utilities are raising rates to pay 
for delayed investments.
    This problem is not unique to Buffalo. According to a 
Michigan State University study, in 2014, approximately 13.8 
million households likely struggled to pay their water bills.
    The second lesson is that utilities need help designing and 
implementing effective programs that will actually address 
water affordability issues. We need congressional action to 
solve this problem.
    I have six recommendations to share with you today. First, 
Congress needs to massively increase Federal Government 
investment in water infrastructure. While the proposed $4 
billion appropriation for the Clean Water State Revolving Fund 
is an improvement over past years, $6 billion would bring 
investment back up to Reagan era levels.
    But even that is not enough. Congress must take bold action 
to fill the $600 billion funding gap for water and wastewater 
infrastructure. The WATER Act of 2019, which creates a $35 
billion trust fund to invest in water infrastructure 
improvements, is a good start.
    Second, Federal water infrastructure funding should provide 
more grants to the neediest communities. The neediest 
communities often struggle to qualify for loans or even apply 
for grants, particularly where utilities are run by volunteers.
    States should be proactively identifying and reaching out 
to these communities who may not be aware of grant 
opportunities.
    Third, Congress should recognize that water is a human 
right. Everyone should have access to clean, safe drinking 
water and sanitation. Congress can recognize this in a stand-
alone law modeled after California's right to water law or in 
water affordability legislation.
    Fourth, Congress should create a Federal block grant 
program to directly assist households in paying water and sewer 
bills. This can be modeled after the Low Income Home Energy 
Assistance Program, LIHEAP.
    Fifth, we need legislation promoting water affordability. 
This legislation should prioritize solutions that provide low-
income customers the dignity of paying their bills without 
having to enroll in an assistance program. Structuring rates in 
a way to keep essential water usage affordable for everyone 
promotes equity, incentivizes water conservation, eases stress 
on the sewage system, and addresses concerns where State law, 
like California, provides hurdles to affordability programs.
    The Honolulu program is a good example of an essential 
needs rate structure.
    Any legislation helping utilities adopt a customer 
assistance program needs to ensure programs are thoughtfully 
designed and well implemented based on a community's particular 
challenges. As Ms. Flowers said, we need to listen to the 
communities, and they need to have input in these programs as 
they are being developed.
    Philadelphia's Tiered Assistance Program is an excellent 
model of where bills for low-income residents are capped based 
on income. Programs should automatically enroll customers using 
existing eligibility requirements from other sectors, like food 
stamps and SNAP.
    Finally, all communities deserve clean water now. The fact 
that families in a community are struggling with household 
water affordability should not be an excuse for regulated 
entities pushing Clean Water Act compliance back for decades.
    Congress should fund programs like WIFIA that can provide 
significant financial assistance to help bring water and sewer 
systems into compliance as quickly as possible.
    Communities can then work to pay back those funds over 
time, spreading the cost of upgrades over decades while getting 
clean water now.
    Thank you for the opportunity to address you today. I would 
be delighted to serve as a resource as this committee continues 
to craft solutions to address these daunting issues.
    Thank you.
    [Ms. Heaps' prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Jill Witkowski Heaps, Visiting Scholar, 
 University at Buffalo School of Law, and Assistant Professor, Vermont 
                               Law School
    Good morning, Chairperson Napolitano, Ranking Member Westerman, and 
members of the Subcommittee. I am Jill Witkowski Heaps, visiting 
scholar at the University at Buffalo School of Law and Assistant 
Professor at Vermont Law School. I am an expert in water law and policy 
and environmental justice. I have worked on water issues in most of the 
states represented by members of this committee, including California, 
Arkansas, New York, Louisiana, Massachusetts, Alabama, Georgia, as well 
as states in the Mississippi River watershed and the Chesapeake Bay 
watershed. I also serve as vice-chair of the National Environmental 
Justice Advisory Council, a Federal advisory committee to EPA on 
environmental justice. I chaired a workgroup which wrote the report 
``EPA's Role in Addressing the Urgent Water Infrastructure Needs of 
Environmental Justice Communities.'' That report is being delivered to 
Administrator Wheeler this week. I am here today speaking in my 
individual capacity.
                          summary of testimony
    Buffalo, New York provides a key example of the water 
infrastructure funding problems facing communities across the country. 
Buffalo has invested more than $150 million in its infrastructure over 
the past 10 years, but the utility needs to raise revenues to pay for 
more infrastructure upgrades. For example, the city will be addressing 
its lead poisoning problem by investing $500 million to replace 41,000 
resident service lines that contain lead.
    While Buffalo faces mounting water infrastructure needs, Buffalo 
residents already struggle to pay their water bills. More than thirty 
percent of Buffalo households are at or below the Federal poverty 
level. Approximately 200 households a month have their water shut off.
    Along with its January 1, 2019 water rate increase, the city 
adopted an affordability program. But the city will see more shutoffs 
despite the new program for three main reasons. First, the program only 
sought to cover the cost of the increase, even though the city already 
had affordability issues. Second, even though 40,000 households would 
be eligible for the program, Buffalo estimates 10 percent participation 
in the program. That means 36,000 households living paycheck to 
paycheck will be seeing a 17 percent increase in their bills. Third, 
the city increased the capacity charge, not the cost of water itself. 
Families cannot avoid increased water bills by conserving water.
    The Buffalo case study demonstrates how underfunding causes water 
affordability issues and how utilities are struggling to address it. 
Decades of underfunding has left water systems crumbling. Families are 
now struggling to pay larger and larger water bills as utilities are 
raising rates to pay for delayed investments. A Michigan State 
University study found 13.8 million households likely struggled to pay 
their water bills in 2014. Further, utilities need help designing and 
implementing effective programs that will actually address 
affordability issues.
    I recommend that Congress take the following actions to address the 
problem:
    1.  Congress should massively increase federal government 
investment in water infrastructure. The Clean Water State Revolving 
Fund should be funded at $6 billion a year to bring investment back up 
to Reagan-era levels. But even that is not enough. Congress must take 
bold action to fill the $600 billion funding gap for water and 
wastewater infrastructure. The WATER Act of 2019, which creates a $35 
billion trust fund to invest in water infrastructure improvements, is a 
good start.
    2.  Federal water infrastructure funding should provide more grants 
to the neediest communities. The neediest communities often have the 
least capacity to qualify for loans or even apply for grants, 
particularly where utilities are run by volunteers. Congress should 
remove the statutory limitation of subsidies in the Clean Water SRF. 
States should be proactively identifying and reaching out to these 
communities, who may not be aware of grant opportunities.
    3.  Congress needs to recognize that Clean Water is a human right. 
Everyone should have access to clean, safe drinking water and 
sanitation.
    4.  Congress should create a Federal block grant program to 
directly assist households in paying water and sewer bills. This can be 
modeled on the Low Income Home Energy Assistance Program (LIHEAP).
    5  Congress should pass legislation promoting water affordability. 
Legislation should prioritize solutions that provide low income 
customers the dignity of paying their bills without having to enroll in 
an assistance program. Rates can be structured in a way that keeps 
essential water usage affordable for everyone. These rate structures 
promote equity, incentivize water conservation, ease stress on the 
sewage system, and address concerns where State law provides hurdles to 
affordability programs. The Honolulu program provides a good example of 
a rate structure making essential needs affordable to all.
    Any legislation helping utilities to adopt a customer assistance 
program needs to ensure programs are thoughtfully designed and 
implemented, based on a community's particular challenges. 
Philadelphia's Tiered Assistance Program is an excellent model of a 
program offering water payments that are capped based on income. 
Programs should automatically enroll customers using existing 
eligibility requirements from other sectors. Utilities should combine 
customer assistance programs with strategies such as bill timing, 
budget billing, pre-termination protections, conservation incentives 
and debt management plans that assist struggling households.
             the water infrastructure affordability problem
    Ensuring that all Americans have affordable, reliable, and 
sustainable access to safe drinking water and appropriate wastewater 
treatment and disposal is a defining problem of the 21st century. Water 
infrastructure demands, costs, and complexity mean many Americans do 
not have access to clean, affordable water, and sanitation. American 
public water systems and communities of all sizes are grappling with 
the need for water infrastructure maintenance or improvements to ensure 
clean, safe, accessible, and affordable drinking water and treatment of 
wastewater. Rising rates are making basic water and wastewater service 
unaffordable for low income consumers across the country. People are 
faced with choosing between paying their rent or paying their water and 
sewerage bills. Aging infrastructure, deferred maintenance, changes in 
regulations, and limitations on water resources increase the complexity 
and cost of ensuring access to the basic public health needs of safe 
drinking water and adequate wastewater treatment. The problem will only 
get worse in the future, as increasingly frequent and severe drought 
and flooding from climate change impact our most vulnerable 
communities.
    The U.S. EPA conservatively estimates the country must invest 
$472.6 billion for drinking water \1\ and $271 billion for sewage 
systems and stormwater \2\ over the next 20 years to meet and maintain 
existing health and environmental standards. EPA recognizes that this 
$744 billion projection likely underestimates the actual needs, given 
that systems underreport their needs. Further, the sewage system 
estimate represents investments needed between 2012 and 2017, even 
though the Clean Water Act directs EPA to submit updated needs 
estimates every other year.\3\ The Value of Water campaign estimates 
that the US needs to invest an additional $82 billion per year in water 
infrastructure at all levels of government over the next 10 years to 
meet projected capital needs.\4\ Likewise, the American Water Works 
Association estimates that restoring existing water systems as they 
reach the end of their useful lives and expanding them to serve a 
growing population will cost at least $1 trillion over the next 25 
years.\5\
---------------------------------------------------------------------------
    \1\ EPA, 2018 Drinking Water Infrastructure Needs Survey and 
Assessment, https://www.epa.gov/sites/production/files/2018-03/
documents/sixth_drinking_water_
infrastructure_needs_survey_and_assessment.pdf.
    \2\ EPA, Clean Watersheds Needs Survey--2012 Report and Data, 
https://www.epa.gov/cwns/
cleanwatersheds-needs-survey-cwns-2012-report-and-data.
    \3\ The Clean Water Act directs that EPA shall ``make . . . a 
detailed estimate, biennially revised, of the cost of construction of 
all needed publicly owned treatment works in all of the States and of 
the cost of construction of all needed publicly owned treatment works 
in each of the States . . .'' 33 U.S.C. Sec. 1375(b)(1)(B). The Act 
directs that the EPA Administrator ``shall submit such detailed 
estimate and such comprehensive study of such cost to the Congress no 
later than February 10 of each odd-numbered year.'' 33 U.S.C. 
Sec. 1375(b)(1).
    \4\ Value of Water Campaign, ``The Economic Impact of Investing in 
Water,'' http://thevalueofwater.org/sites/default/files/
Economic%20Impact%20of%20Investing%20in%20Water
%20Infrastructure_VOW_FINAL_pages.pdf.
    \5\ American Water Works Association, ``Buried No Longer: 
Confronting America's Water Infrastructure Challenge'' http://
www.urbanwaterslearningnetwork.org/wp-content/uploads/2017/08/
AmericanWaterWorksBuriedNoLonger2017.pdf
---------------------------------------------------------------------------
    Small, unincorporated communities, orphaned systems, and those 
serving vulnerable, impoverished populations require urgent attention. 
These communities lack adequate resources to repair and replace 
infrastructure, or to build new systems.\6\ Some rural communities, 
like Lowndes County, Alabama have never had working septic systems, 
despite decades of pleas for help.\7\
---------------------------------------------------------------------------
    \6\ ``Aging infrastructure, lead pipes, nitrate runoff and funding 
among challenges vexing Midwest's drinking water systems,'' Mar. 2016, 
http://www.csgmidwest.org/policyresearch/0316-
drinking-water.aspx.
    \7\ See Catherine Flowers, ``Opinion: A County Where the Sewer is 
Your Lawn,'' New York Times, May 22, 2018; ``The U.N. Looks at Extreme 
Poverty in The U.S., From Alabama to California,'' NPR, Dec. 12, 2017, 
https://www.npr.org/sections/goatsandsoda/2017/12/12/570217635/the-u-n-
looks-at-extreme-poverty-in-the-u-sfrom-alabama-to-california; https://
www.nytimes.com/2018/05/22/opinion/alabama-poverty-sewers.html.
---------------------------------------------------------------------------
    Crumbling water infrastructure means enormous expenses for many 
utilities to bring their systems into compliance with the Clean Water 
Act. For example, Kansas City faces a $2.5 billion price tag to come 
into compliance with the Clean Water Act.\8\ Baltimore plans to invest 
an additional $1.6 billion in upgrades by 2030 to comply with its Clean 
Water Act consent decree.\9\ Despite investing more than $1 billion in 
upgrades since 2002, Baltimore missed its original consent decree 
deadline, and now has until 2033 to comply.\10\ The cost of these 
upgrades have hit Baltimore residents hard. In 2013, the city raised 
rates 42 percent over 3 years.\11\ Then in January of 2019, the city 
again voted to raise rates another 30 percent over 3 years.\12\
---------------------------------------------------------------------------
    \8\ EPA, ``Kansas City, Missouri Clean Water Act Settlement,'' 
https://www.epa.gov/enforcement/kansas-city-missouri-clean-water-act-
settlement.
    \9\ ``Baltimore officials approve $1.6 billion, 13-year sewer 
plan,'' Baltimore Sun, Aug. 9, 2017 https://www.baltimoresun.com/news/
maryland/baltimore-city/bs-md-ci-sewer-consent-decree-20170808-
story.html?
    \10\ Id.
    \11\ ``Baltimore raises rates 42 percent over three years,'' 
Baltimore Sun, July 3, 2013, https://www.baltimoresun.com/news/
maryland/baltimore-city/bs-md-ci-water-bill-increase-20130703-
story.html.
    \12\ ``Baltimore water rates will increase 30 percent over next 
three years,'' Baltimore Sun, Jan. 9, 2019, https://
www.baltimoresun.com/news/maryland/baltimore-city/bs-md-ci-water-rate-
hike-20190109-story.html.
---------------------------------------------------------------------------
    Even utilities without major upgrades are needing to increase 
revenues to meet capital investment and operations and maintenance 
expenses, meaning families are struggling to pay their water bills. A 
Michigan State University study found 13.8 million households likely 
struggled to pay their water bills in 2014.\13\ That study also found 
that if water rates rise at projected amounts over the next five years, 
the percentage of U.S. households who will find water bills 
unaffordable could triple from 11.9 percent to 35.6 percent.\14\ 
Detroit, Michigan has shut off water to more than 100,000 households 
since 2014.\15\ In Philadelphia, in 2016, an estimated 227,000 
customers, or 4 out of 10 water accounts, were past due.\16\
---------------------------------------------------------------------------
    \13\ Mack, Elizabeth, Wrase Sarah (2017) ``A Burgeoning Crisis? A 
Nationwide Assessment of the Geography of Water Affordability in the 
United States.'' PLOS ONE https://doi.org/10.1371/journal.pone.0169488.
    \14\ Id.
    \15\ ``Detroit shut off water to 1 in 10 homes this year. Yes, 
that's progress,'' Bridge Detroit Journalism Cooperative, Dec. 5, 2017, 
https://www.bridgemi.com/detroit-journalism-cooperative/detroit-shut-
water-1-10-homes-year-yes-thats-progress.
    \16\ ``7 years, no water at home for Senior,'' NBC Philadelphia, 
April 8, 2016, https://www.nbcphiladelphia.com/news/local/7-Years-No-
Water-375060031.html.
---------------------------------------------------------------------------
    In the face of mounting infrastructure costs, the Federal 
Government has been investing less and less in water infrastructure. In 
2016, the Federal Government invested approximately $4 billion in water 
and sewer infrastructure, down from approximately $16.8 billion in the 
mid 1970's.\17\ State and local government invested approximately $109 
billion in water infrastructure in 2016. We need congressional action 
to address this estimated $600 billion water investment shortfall.\18\
---------------------------------------------------------------------------
    \17\ In 2014 dollars.
    \18\ ``New water infrastructure finance center seeks to restore 
$600 billion infrastructure gap.'' http://sustainablewater.com/new-
water-finance-center-seeks-to-restore-600-billion-infrastructure-gap/.
---------------------------------------------------------------------------
            Federal spending on water and wastewater utility 
                    infrastructure has decreased while State and local 
                    spending on water infrastructure has quadrupled.
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
Source: Congressional Budget Office (October 2018)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             the solutions
Solution #1: Congress must massively increase federal investment in 
        water infrastructure.
    <bullet>  Appropriate $6 billion per year for the Clean Water State 
Revolving Fund.
    The Clean Water State Revolving Fund and the Safe Drinking Water 
Revolving Fund are the main vehicles to get Federal moneys to water and 
wastewater utilities. Congress established these revolving funds to 
provide States sustainable, long-term financial assistance to support 
communities' water infrastructure needs. While the proposed $4 billion 
appropriation for the Clean Water State Revolving Fund is an 
improvement over past years, $6 billion would bring investment back up 
to Reagan-era levels.\19\ This increased investment would be a good 
start to the Federal Government funding a larger portion of water 
investments and closing the funding gap.\20\ The Clean Water SRF should 
target a growing list of priorities that are currently underrepresented 
in the States' portfolios of assistance, including: \21\
---------------------------------------------------------------------------
    \19\ See Natural Resources Defense Council, ``Go Back to the Well: 
States and Federal Government are neglecting a key funding source for 
water infrastructure,'' May 2018, https://www.nrdc.org/sites/default/
files/State-revolving-fund-water-infrastructure-ip.pdf.
    \20\ See, Clean Water for All, ``Water, Health, and Equity, Sept, 
2017, http://protectcleanwater.org/wpcontent/uploads/2017/09/CWFA-
Infrastructure-Health-Equity-White-Paper-Oct-2018.pdf.
    \21\ See NRDC, ``Go Back to the Well.'', supra note 17.
---------------------------------------------------------------------------
      <bullet>  Water infrastructure that is designed to address the 
increased risk of droughts, floods, sea level rise, and extreme weather 
events;
      <bullet>  Green infrastructure and stormwater management;
      <bullet>  Source water protection to help prevent pollution and 
runoff from contaminating rivers, lakes, and reservoirs; and
      <bullet>  Water efficiency, water reuse, and water recycling.
    <bullet>  More of the Clean Water SRF must be awarded as grants to 
the neediest communities.
    The communities that need the money most often have the least 
capacity to apply for grants and loans, particularly where utilities 
are run by volunteers. A large portion of Federal investment should 
support grants for the neediest communities. To support this goal, 
Congress should remove the statutory cap on subsidization, which is 
currently set at 30 percent of EPA's annual capitalization grant. 
States should be proactively identifying and reaching out to these 
communities, who may not be aware of grant opportunities.
    <bullet>  Increase appropriations to address nonpoint source 
pollution.
    Appropriations for Section 319 nonpoint source grants is critical 
to making progress toward our clean water goals. Stormwater and 
agricultural runoff pollution are the two biggest sources of water 
pollution across the country and deserve special attention. Section 319 
funding should focus on supporting green infrastructure, especially in 
low income communities.
    <bullet>  Continue funding for WIFIA until it can be replaced with 
another major water infrastructure funding vehicle.
    The Water Infrastructure Financing and Innovation Act (WIFIA) 
increased investment in water infrastructure by providing long-term, 
low-cost supplemental loans for regionally and nationally significant 
projects. For example, Baltimore recently received a $202 million loan 
under WIFIA to support its clean water upgrades.\22\ San Diego received 
a $614 million WIFIA grant to support its cutting-edge potable reuse 
project, which addresses both sewage and water supply issues for the 
city.\23\ WIFIA funding is limited to projects that are invited to 
apply for funding. For 2018, EPA invited 39 projects to apply for loans 
totaling up to $5 billion. This invitation-only process excludes many 
needy communities and projects across the Nation. It has led to at 
least one project that should not be prioritized over funding needy 
communities. Clean water advocates and conservationists opposed the 
Carlsbad Desalination Project for years as the most energy intensive 
and expensive water supply option that had a poorly designed ocean 
intake that unnecessarily harms wildlife.\24\ EPA invited the project 
to apply for a $32 million loan to reconfigure intake facilities and 
come into compliance with California law.\25\
---------------------------------------------------------------------------
    \22\ ``EPA provides $202 million loan to modernize Baltimore's 
wastewater infrastructure,'' EPA, Feb. 25, 2019, https://www.epa.gov/
newsreleases/epa-provides-202-million-loan-modernize-baltimores-
wastewater-infrastructure.
    \23\ ``EPA awards $614 million to bolster San Diego's innovative 
Pure Water project,'' the city of San Diego, Nov. 27, 2018, https://
www.sandiego.gov/mayor/news/releases/epa-awards-614-million-loan-
bolster-san-diego%E2%80%99s-innovative-pure-water-project.
    \24\ See https://www.sdcoastkeeper.org/drinkable/san-diegos-water-
supply/desalination/desalination.
    \25\ EPA, ``2018 WIFIA selected projects,'' https://www.epa.gov/
wifia/wifia-selected-projects.
---------------------------------------------------------------------------
    <bullet>  Create a trust fund for water infrastructure investments.
    Increasing funding for the Clean Water SRF, the Drinking Water SRF, 
and WIFIA is not enough. With more than 27 million Americans being 
served by water systems violating health-based standards established in 
the Safe Drinking Water Act,\26\ Congress must take bold action to meet 
our nation's urgent infrastructure needs to protect public health. The 
Water Affordability, Transparency, Equity, and Reliability (WATER) Act 
of 2019,\27\ which creates a $35 billion trust fund to invest in water 
infrastructure improvements, is a good start. The WATER Act also 
directs the EPA Administrator, in conjunction with the Civil Rights 
Division of the United States Department of Justice, to study 
``discriminatory practices of water and sewer service providers'' and 
``violations by such service providers that receive Federal assistance 
of civil rights under title VI of the Civil Rights Act of 1964 with 
regard to equal access to water and sewer services.'' Given EPA's poor 
track record related to Title VI of the Civil Rights Act,\28\ Congress 
should appoint an independent bipartisan commission of experts to 
investigate Title VI violations related to water and sewer service.
---------------------------------------------------------------------------
    \26\ Natural Resources Defense Council, ``Threats on Tap: 
Widespread Violations Highlight Need for Investment in Water 
Infrastructure and Protections'' (2017), https://www.nrdc.org/
resources/threats-tap-widespread-violations-waterinfrastructure.
    \27\ H.R. 1417 (Lawrence) and S. 611 (Sanders).
    \28\ See U.S. Commission on Civil Rights, ``Environmental Justice: 
Examining the Environmental Protection Agency's Compliance and 
Enforcement of Title VI and Executive Order 12898,'' Sept. 2016, 
https://www.usccr.gov/pubs/2016/Statutory_Enforcement_Report2016.pdf
---------------------------------------------------------------------------
Solution #2: Congress should recognize Clean Water is a human right.
    Everyone should have access to clean, safe drinking water and 
sanitation. Every person needs safe water to drink, bathe, cook, and 
clean and every community needs a working wastewater system to prevent 
the spread of disease, bacteria and parasites. When poor communities 
are denied access to clean, safe, affordable water and sanitation 
(specifically low-income communities and communities of color), they 
are put at a high risk for waterborne diseases and pathogens (such as 
cholera, typhoid, legionella, and polio).\29\
---------------------------------------------------------------------------
    \29\ See World Health Organization, Drinking Water, http://
www.who.int/mediacentre/factsheets/fs391/en/; Center for Water Policy, 
University of Wisconsin-Milwaukee, ``Water Main Breaks Expose Public to 
Waterborne Disease Risk,'' http://home.freshwater.uwm.edu/mclellanlab/
files/2013/06/6-21Water-main-breaks-expose-public-to-waterborne-
disease-risk.pdf.
---------------------------------------------------------------------------
    The World Health Organization firmly states, ``Water safety and 
quality are fundamental to human development and well-being. Providing 
access to safe water is one of the most effective instruments in 
promoting health and reducing poverty.'' \30\ In fact, in 2010, the 
United Nations General Assembly passed Assembly Resolution 64/292, 
formally recognizing the position that clean water and sanitation is a 
human right.\31\
---------------------------------------------------------------------------
    \30\ World Health Organization, Water Sanitation Hygiene, http://
www.who.int/water_sanitation_health/water-quality/en/.
    \31\ See http://www.un.org/waterforlifedecade/
human_right_to_water.shtml.
---------------------------------------------------------------------------
    Congress should adopt laws that recognize the human right to water. 
Congress could follow in California's lead and adopt a human right to 
water law, modeled after AB 685, or recognize the human right to water 
in affordability legislation. California's Right to Water law 
prioritizes domestic drinking water for human consumption over 
commercial water use and directs State agencies to consider the human 
right to water when implementing policies.
Solution #3: Congress should create a Federal block grant program to 
        provide direct assistance to households to pay water and sewer 
        bills.
    A Federal water and sewer bill block grant assistance could be 
modeled on the Low Income Home Energy Assistance Program (LIHEAP). 
LIHEAP provides block grants to States, tribes, and territories to help 
low income households in meeting home energy needs. The Water 
Affordability Act of 2018, introduced by Senator Harris, would have 
created the Low Income Sewer and Water Assistance Program (LISWAP), to 
award grants for public water utility companies to assist low-income 
households with bill repayment. Eligibility for grant assistance would 
consider environmental risk factors and inequitable environmental 
burdens.
Solution #4: Congress should adopt water affordability legislation.
    To directly address household water affordability issues, Congress 
should adopt water affordability legislation. This legislation should 
do the following:
    <bullet>  Facilitate utilities adopting affordable rate structures.
    One of the best options to address household affordability is to 
structure rates in a way that keeps minimal water usage affordable for 
everyone. This could include eliminating or drastically reducing the 
base cost to simply have water access at home, coupled with very low 
cost for very low water usage. This provides low income customers the 
dignity of paying their bills without having to enroll in an assistance 
program. To ensure that utilities can meet revenue requirements, 
utilities would create several tiers of costs for additional water 
usage, ramping up costs as water usage increases. This would spread 
fixed costs across user groups more equitably because larger volume 
users place a greater burden on the system. This approach also 
incentivizes water conservation, which eases the stress on the sewage 
system. Additionally, this approach addresses concerns around customer 
assistance plans where State law, like California's Proposition 218, 
provides hurdles to these programs.
    Honolulu's program provides an excellent example of very low-cost 
water for very low water usage.\32\ The Board of Water Supply 
established an Essential Needs Tier that all residentials customers 
will be given for the first 2,000 gallons of water used, to promote 
affordability. Ten percent of all Honolulu residential customers use 
less than 2,000 gallons per month, and this Essential Needs rate 
structure will assist those with low incomes or on fixed income. This 
water rate structure is consistent with Hawai'i's State water code, 
which recognizes that the waters of Hawai'i are held for the benefit of 
the citizens of the State and the people have a right to have the 
waters protected for their use.\33\
---------------------------------------------------------------------------
    \32\ See Board of Water Supply rate schedule for Schedule for July 
1, 2019--June 30, 2023, https://www.boardofwatersupply.com/bws/media/
files/water-rate-schedule-2018-2023-2018-09-15.pdf.
    \33\ State of Hawaii State Water Code, Chapter 174C, Part 1 Section 
2.
---------------------------------------------------------------------------
    <bullet>  Support adoption of effective customer assistance 
programs.
    An EPA study found that approximately 25 percent of utilities have 
customer assistance programs, which use bill discounts, special rate 
structures, and other means as an approach to help financially 
constrained customers maintain access to drinking water and wastewater 
services.\34\ Customer assistance programs can be effective in 
addressing water affordability issues, but only if they are well-
designed and implemented, based on a community's particular challenges. 
The Buffalo example demonstrates that a well-intentioned program, if 
not well-designed and implemented, will be ineffective.
---------------------------------------------------------------------------
    \34\ EPA, ``Drinking Water and Wastewater Utility Customer 
Assistance Programs,'' at 2, April 2016, https://www.epa.gov/sites/
production/files/2016-04/documents/dw-ww_utilities_
cap_combined_508-front2.pdf.
---------------------------------------------------------------------------
        <bullet>  Tailor every customer assistance program to community 
needs.
    To design an effective customer assistance program, a utility must 
first determine why people are struggling to pay their bills. Are there 
high poverty levels and people are struggling to make ends meet? Are 
quarterly bills too large and too difficult to budget for in households 
living paycheck to paycheck? Are people struggling during the heat of 
summer or the dead of winter when energy bills are the highest? Are 
people wracking up tremendously high bills due to undetected leaks? Are 
landlords or fellow tenants in a duplex delinquent in paying the bill? 
Are customers being charge for water usage at an apartment after they 
have moved out? Are people struggling with personal trauma such as 
illness, job loss, divorce, or caring for ailing family?
    A utility or its consultants will not be able to design and 
implement an effective customer assistance program without conducting 
significant outreach to learn why customers are struggling to pay their 
bills. Only once a utility understands the community it serves can it 
design a program to address customers' struggles. Ideally, a utility 
should convene both a stakeholder group to guide program design, as 
well as conduct individual or community-level meetings--at places where 
customers are already gathering--to understand customer concerns, hear 
customer complaints, and accept customer ideas about solutions.
        <bullet>  Customer assistance programs should automatically 
enroll customers.
    Programs should automatically enroll customers using existing 
eligibility requirements from other sectors. There are many well-
established Federal and State programs to ensure that low-income 
households have affordable access to utility services for electricity, 
natural gas, and telecommunications, including the Federal Low Income 
Home Energy Assistance Program (LIHEAP) and the Low Income Energy 
Efficiency Program (LIEE).\35\ A number of water suppliers use the same 
program-enrollment eligibility as a public assistance program such as 
Medicaid; Women, Infants, and Children Program; Supplemental Security 
Income; Temporary Assistance for Needy Families (TANF); or Tribal 
TANF.\36\
---------------------------------------------------------------------------
    \35\ Pacific Institute, ``Water Rates: water affordability,'' Jan. 
2013, https://pacinst.org/wp-content/uploads/2013/01/water-rates-
affordability.pdf. California programs include California Alternate 
Rates for Energy (CARE); the Family Electric Rate Assistance Program 
(FERA) and the California LifeLine Program.
    \36\ Id.
---------------------------------------------------------------------------
        <bullet>  Where auto-enrollment is not possible, utilities 
should hire communications professionals to conduct community outreach 
about the program and assist customers with enrollment.
    Once a utility invests in creating a customer assistance program, 
it must invest in a creating and implementing a community outreach plan 
to inform customers of the program and assist with enrollment. Time and 
again, utilities rely on the engineers that assist with operations 
upgrades to design community outreach programs or conduct outreach. 
Congress should ensure that any pilot programs that support community 
assistance programs require utilities to work with professionals 
qualified in community outreach, stakeholder participation, 
communications, and environmental justice. The award-winning Pure Water 
San Diego project is an exemplar of effective stakeholder process and 
community outreach.\37\ The stakeholder processes provided multiple 
meaningful opportunities for input. The city put such an outstanding 
effort in reaching communities where they are that the project now has 
widespread community support. This widespread support is remarkable 
because an identical project more than a decade earlier was tabled due 
to community opposition.
---------------------------------------------------------------------------
    \37\ Pure Water San Diego has won more than two dozen awards, many 
related to its public outreach. See https://www.sandiego.gov/public-
utilities/sustainability/pure-water-sd/awards.
---------------------------------------------------------------------------
        <bullet>  Prioritize programs that offer income-based payments.
    Often the most effective affordability programs provide income-
based payments that remain the same regardless of water use. 
Philadelphia's Tiered Assistance Program is an excellent model.\38\ The 
average bill for residents accepted into the is $19.84 per month, 
compared to the system-wide average of $70.87.\39\ Twenty percent of 
program enrollees only pay $12, the program minimum.\40\ The Tiered 
Assistance Program is divided into three tiers: households earning up 
to 50 percent of the Federal poverty level pay 2 percent of monthly 
income; those between 51 percent and 100 percent of the Federal poverty 
level pay 2.5 percent; and those between 101 percent and 150 percent 
pay 3 percent of monthly income. Households with higher incomes that 
experience a special hardship may still apply for the program. For 
those accepted in the program, bills do not change according to use.
---------------------------------------------------------------------------
    \38\ See https://www.phila.gov/services/water-gas-utilities/pay-or-
dispute-a-water-bill/water-bill-customer-assistance.
    \39\ ``Philadelphia water rate experiment aims to help struggling 
residents pay bills,'' Circle of Blue, Nov. 1, 2017, https://
www.circleofblue.org/2017/world/philadelphia-water-rate-experiment-
aims-help-struggling-residents-pay-bills/
    \40\ Id.
---------------------------------------------------------------------------
        <bullet>  Utilities should combine customer assistance plans 
with other services that alleviate hardships for low-income customers.
    While providing lower water and sewer bills for low-income 
customers is the most direct way to address water affordability, there 
are a variety of services that can be provided to reduce financial 
hardships for low-income customers.\41\
---------------------------------------------------------------------------
    \41\ See Pacific Institute, ``Water Rates: water affordability,'' 
Table 4. Jan. 2013, https://pacinst.org/wp-content/uploads/2013/01/
water-rates-affordability.pdf.
---------------------------------------------------------------------------
    These programs include:

 
------------------------------------------------------------------------
   Service                            Description
------------------------------------------------------------------------
              ..........................................................
 Bill timing---Change the timing of bills to more closely coincide with-
                  the income stream of the household. For example, time
                    bills to coincide with customer's receipt of Social
                                             Security or pension income
------------------------------------------------------------------------
      Budget  Allow methods of bill payment to avoid unaffordable peaks
      billing                          (typically during summer months)
------------------------------------------------------------------------
        Pre-    Provide full due process protections before terminating
  termination water service--for example, required notice of customer's
  protections opportunity to enter a budget billing program or deferred
                                                    payment arrangement
------------------------------------------------------------------------
 Appropriate   Ensure that all charges for late payments, disconnection
      charges    and reconnection, and deposits are imposed after clear
                   notification and do not exceed the true costs of the
               services provided. For example, a water service provider
                   may choose to waive late payment fees for low-income
                                                              customers
------------------------------------------------------------------------
Conservation      Provide assistance to help reduce usage by curtailing
    programs    leaks and installing conservation devices--for example,
               target low-income houses for audit, retrofit, and rebate
                                                               programs
------------------------------------------------------------------------
        Debt     Establish incentive programs that reward customers for
   management  timely payments with partial forgiveness of old debt and
        plans             provide installment plans to re-pay old debt
------------------------------------------------------------------------
 Source: Pacific Institute, ``Water Rates: Water Affordability'' Jan.
  2013

Solution #6 Congress should help low-income and vulnerable communities 
        access cutting-edge technology.
    Congress should provide grants to communities with high income 
inequality and large numbers of low-income households to use innovative 
technology to address water, sewer, and affordability issues. For 
example, potable reuse projects can be used to address water supply and 
sewage issues, while also treating drinking water with reverse osmosis 
and UV light, which eliminate most contaminants of emerging concern 
from drinking water. Grey water systems can drastically reduce 
household water usage, and rain barrels can reduce water usage for 
outdoor uses. Low flow and dual-flush toilet systems can reduce water 
bills and reduce burdens on the sewer system. Composting toilet systems 
can provide sanitary sewage solutions where households are not 
connected to a sewer system. Even water tracking systems, like 
Dropcountr,\42\ can help customers track water usage in real-time, 
which can assist with water conservation. Technology and innovation 
should not be limited to our wealthiest communities.
---------------------------------------------------------------------------
    \42\ ``An app that tracks water use in real time so Californians 
can save in the drought,'' Fast Company, Aug. 5, 2014, https://
www.fastcompany.com/3033873/an-app-that-tracks-water-use-in-real-time-
so-californians-can-save-in-the-drought.
---------------------------------------------------------------------------
Solution #7 Ensure the poorest communities have access to clean water 
        now.
    Community affordability--the ability of a community to pay for 
upgrades to comply with the Clean Water Act--is a legitimate concern 
for regulated entities. But everyone deserves clean water now, and the 
fact that a community has families struggling to pay their water bills 
does not justifying pushing Clean Water Act compliance out for decades. 
Instead, we need to find ways to get these communities the funds to 
upgrade their systems immediately and figure out a long-term solution 
to plan for scheduled capital improvements and operations and 
maintenance to avoid massive upgrade costs in the future.
    For example, Baltimore delayed maintenance of their aging sewer 
system for nearly 100 years after they built their system in 1909. EPA 
and Maryland brought suit to enforce compliance with the Clean Water 
Act, and settled in 2002 with the city of Baltimore to ``end the years 
of chronic discharges of millions of gallons of raw sewage into city 
streets and local waterways.'' \43\ The settlement decree gave 
Baltimore 14 years to completely overhaul the sewage system, but 
between 2010 and 2012, over 7,000,000 gallons of raw sewage spilled 
into Baltimore's streams and harbor.\44\ In 2015, the Baltimore 
Department of Public Works received 5,000 reports of sewage basement 
floods.\45\ Because Baltimore has not been able to meet its initial 
compliance deadline, Baltimore now has until 2033 to comply with the 
consent decree. That means local residents have to wait a total of 31 
years from settlement to compliance. This schedule is unacceptable. The 
Federal Government should have immediately provided additional 
financial support to Baltimore to meet upgrade needs to help the city 
comply within the original timeframe. In the future, the Federal 
Government should immediately use funding from programs like WIFIA or a 
clean water trust fund to help these communities meet clean water 
standards as quickly as possible. To meet this goal, Congress must 
significantly increase Federal water infrastructure funding.
---------------------------------------------------------------------------
    \43\ EPA, ``City of Baltimore, Maryland, Sewer Overflows 
Settlement,'' https://www.epa.gov/enforcement/city-baltimore-maryland-
sewer-overflows-settlement.
    \44\ Blue Water Baltimore Consent Decree Fact Sheet, https://
www.bluewaterbaltimore.org/wp-content/uploads/BWB-Baltimore-City-
Consent-Decree-Fact-Sheet-7-31-13_link.pdf.
    \45\ ``Raw sewage has been leaking into Baltimore's harbor for 5 
days, city says,'' Baltimore Sun, Aug. 23, 2016, http://
www.baltimoresun.com/news/maryland/baltimore-city/bs-md-ci-sewage-
updates-20160823-story.html.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify today. I look forward to 
continuing to assist the Subcommittee as it continues to address these 
challenging and critical issues.

    Mrs. Napolitano. Thank you for your testimony, Ms. Heaps.
    And now I will defer to the chairman of the full committee, 
Mr. DeFazio, for any comments he may have.
    Mr. DeFazio, you are recognized.
    Mr. DeFazio. Thank you, Madam Chair.
    I was over speaking to the airports about their needs and 
unfortunately could not be here at the beginning of the 
hearing.
    I did want to provide this small recognition of your 
chairpersonship, chairwomanship [passing a box to Mrs. 
Napolitano].
    Mrs. Napolitano. Thank you very much.
    Mr. DeFazio. However one properly says that. Chair, just 
chair.
    And you know I feel very strongly about the Federal 
Government's role in this. I was a county commissioner when my 
two largest cities, Eugene and Springfield, and I live in 
Springfield, for years could not agree on even putting their 
waste together. But when I got on the county, we finally formed 
a Metropolitan Wastewater District, and we built out a system 
that has served us well, and the population has just about 
doubled in the time period since I was a commissioner.
    And we are still not at capacity, but we are able to do 
that because we got a massive infusion of funds from the 
Federal Government. We got an 80/20 share. We put up 20; they 
put up 80.
    And then in the rates, we put in rates basically an 
additional charge, but the rates were very affordable, to build 
a capital fund to replace the system when it wears out. So, I 
mean, it was a great investment by the Federal Government, and 
other communities certainly need that partnership.
    I think we have had some great examples. I really like 
the--I just unfortunately only came in to hear New Jersey and 
did not hear the others--but the idea of building your new 
system to be resilient, self-sufficient in terms of energy. You 
know, those are really great points, and the fact that you were 
able to do it without a rate increase is fairly astounding.
    What is the interest rate on the SRF? Do you know?
    Mr. Kricun. It is less than 1 percent, and that makes the 
difference between go and no go.
    Mr. DeFazio. Wow.
    Mr. Kricun. Because the interest rate is so low and spread 
it over 30 years. So we can do that without raising rates.
    Mr. DeFazio. Right.
    Mr. Kricun. The conventional rate would be like 4\1/2\ to 5 
percent. We would have to raise rates significantly in order to 
do the same thing.
    Mr. DeFazio. Right. When we had a select committee on 
privatization a few years ago appointed by Chairman Shuster, at 
the beginning there was a lot of enthusiasm among some Members 
on the idea that these should be private-public partnerships.
    By the end, most Members agreed that it just was not going 
to work because of the cost and the expected rates of return 
that many of the P3s want. There is no one who is going to lend 
you money at less than 1 percent in the private sector. I mean, 
they are looking at very high rates of return.
    So I want to thank the chairwoman for convening the 
hearing. I want to look into some of the other issues that were 
raised about the examples of the ``right to water'' and those 
things.
    Hopefully, we can not only reauthorize the SRF, but look at 
other ways that we can help communities that are very low 
income or disadvantaged in other ways to get what I think I 
would agree with the panel should be a right, a right not to 
pollute with wastewater and a right to have clean, potable, and 
safe drinking water.
    So with that, Madam Chair, I thank you for holding this 
hearing.
    Mrs. Napolitano. Thank you, Mr. DeFazio, and I agree with 
you.
    Mr. DeFazio. Are you going to show your gift?
    Mrs. Napolitano. A gavel with my name on it. Thank you. 
Thank you very much, Mr. DeFazio. Much appreciated.
    We start the questions off, and I will have 5 minutes to do 
it just like everybody else.
    The first question for Ms. Flowers, and I was shocked to 
read your testimony and learn that over 30 percent of the 
samples from Lowndes County tested positive for hookworm, a 
disease no longer thought alive in this country.
    What does it say about the Federal Government's commitment 
to clean water and healthy communities, that people in this 
country are still suffering from hookworm?
    Ms. Flowers. I think what it says about the Federal 
Government is that there are some people that have been left 
behind, and when we heard about Flint and what happened in 
Flint, we often said that part of Flint's problem was flawed 
infrastructure.
    There are large parts of the United States that have no 
infrastructure at all. And for me having grown up in that area, 
I thought that was normal until I went to other parts of the 
country and saw that it was not.
    And it is even more astounding when the U.N. Special 
Rapporteur on extreme poverty, who I invited to come to visit 
Lowndes County, saw that and said that what he saw there was 
uncommon in the First World.
    Mrs. Napolitano. Well, it just is unreal, to be honest with 
you, and I think we have learned a lot, and we hopefully will 
address it in the future, both in the FDA and the EPA and all 
the other agencies that should have been looking for that.
    My next question for Ms. Taylor, in your testimony you talk 
about how automation has displaced workers. It seems like 
Detroit experienced unemployment and declining rate base.
    Because of that, residents are unable to pay their bills, 
including water, and are faced with water shutoffs and 
additional consequences. You note it in your testimony.
    In your opinion, do shutoffs help address the issue of 
affordability or do they contribute to more poverty?
    You also discuss in your testimony the idea of addressing 
affordability based on the customer's ability to pay. Why is 
that a preferred approach to shutoffs?
    Ms. Taylor. Shutoffs highlight poverty. Shutoffs mean that 
whoever is in charge of making certain that citizens are safe 
are asleep at the wheel. Shutoffs do not have to occur if, in 
fact, there is a priority set that establishes water and access 
to water and clean sanitation as a human right.
    If we start with that as a priority, then what we do as 
mothers and fathers, like we would do in our homes, we set 
policies based on what the priorities are.
    So if you have shutoffs like I have in my city, thousands 
and thousands, I remember the first shutoff case. A young woman 
had two jobs, and she lost them both. She had four little 
girls, and they were taken out of the house and put into three 
foster care homes.
    The foster care people pay $465 per child. The water bill 
was only $1,100. The children stayed in foster care for 18 
months. That becomes an issue.
    So what shutoffs do is that they highlight the problem, and 
they most certainly contribute to ongoing poverty.
    Mrs. Napolitano. I am sorry. Mr. Graves was my prior chair, 
and I was welcoming him back to the committee.
    Thank you very much for your testimony.
    The question for Ms. Heaps, you mentioned you chaired a 
workgroup of National Environmental Justice Advisory Council, 
which wrote a report on EPA's role in addressing urgent water 
infrastructure needs of environmental justice communities.
    Would you please give a copy of that report to this 
committee? We have not seen that.
    Ms. Heaps. Yes. It is being delivered to Administrator 
Wheeler this week. As soon as I have the go from EPA, I would 
be happy to deliver it to you.
    Mrs. Napolitano. Thank you.
    You have just heard examples of what is happening in 
Michigan and Alabama and how long communities or individuals 
may not be able to afford clean drinking water and wastewater 
services.
    In your opinion, what can we do to ensure every American in 
every community across the country has access to these 
utilities?
    Ms. Heaps. I think there are three things: a shift in how 
we view water; the actual funding issue, Federal funding, 
increasing Federal funding; and guaranteeing community 
participation in developing solutions.
    Congress can take a huge role in leading a fundamental 
shift of how we as Americans view water, from viewing it as a 
commodity to viewing it as a human right. Our Declaration of 
Independence views life, liberty, and pursuit of happiness as 
an inalienable right, but there is no life without water.
    We need to recognize this and find ways that everyone 
living in America can have access to water for life and 
sanitation for life.
    Second, we need more funding, and I can think of at least 
five different types of funding: the Clean Water and Drinking 
Water SRFs to support infrastructure at the utility level; 
programs like WIFIA, which provides supplemental funding for 
significant projects. That has been a huge game changer, 
especially in San Diego. They just got a $16 million WIFIA 
grant for Pure Water, a San Diego project which is in direct 
potable reuse, which is addressing not only San Diego's 
drinking water issue but their sewage issue as well.
    We need money for water affordability programs to support 
utilities adopting customer assistance programs.
    We need block grants that go straight to the customers. 
Clean Water SRF is great, but it trickles down from the Federal 
Government to the States, the utilities, and then the utilities 
might get it to the customers. We need something directly to 
the customers.
    And then also I think we also need big funding grants for 
our most critical issues, like dealing with these rural sewage 
issues.
    Mrs. Napolitano. Thank you very much.
    I think I had better go on to the next Member. Questions 
from Mr. Westerman?
    Mr. Westerman. Thank you, Madam Chairwoman.
    And thank you to the witnesses for your testimony. Ms. 
Flowers, as you talked about your life experiences, it kind of 
took me a little bit back down memory lane.
    I know growing up in rural Arkansas. The little country 
church I went to as a kid had a single hole outhouse, which was 
the sanitary facilities there. Now, it cut down on the number 
of church members getting up and going to the restroom during 
church. You only went there if it was an absolute emergency.
    But I think sometimes we forget to appreciate how far we 
have come when we are looking at where we need to be. I know my 
parents, not my grandparents, but my parents talked about when 
they got running water and electricity in their homes, and then 
my grandparents saw much more technology advances in their 
lives.
    So as we look at this issue and affordability seems to be a 
major problem, and we have talked about that some here, and 
there are always two sides to the coin on affordability.
    For one thing, I think we put regulations in place 
sometimes that falsely drive up the costs that need to be 
there. There is this concept of diminishing returns. You can 
try to do something perfect, but at some point, the cost 
greatly exceeds the benefits.
    And, Mayor Condon, you mentioned in your written testimony 
and talked about State water quality standards for PCBs at 7 
parts per quadrillion. It was a good illustration you used 
there. You cannot even measure that, but it still is a standard 
that is out there.
    And I know I used to serve in the Arkansas Legislature, and 
one of the first occurrences I had to deal with was a situation 
like that. I had constituents come in and tell me that in their 
drinking water system, the dissolved mineral content in their 
drinking water did not meet EPA standards, and they were going 
to have to put demineralization equipment in for their drinking 
water.
    Now, to country folks, you are telling them this is safe to 
drink, but you cannot water your grass with it, and sometimes 
it does not make sense.
    So I do not think that just throwing money at the problem 
is always the answer. I think there are ways we can be smarter 
about how we put the policies and standards in place.
    Mayor Condon, I wanted to get you to elaborate a little bit 
on that, and also maybe an idea of, you know, what is good for 
a major city versus a rural area.
    Are there certain standards that could provide sanitary 
sewer systems and clean drinking water, but not have the extra 
cost added onto it that you might see in a larger metropolitan 
area?
    Mr. Condon. Thank you for the question.
    You hit the nail on the head. I talked about originally 
when I came into office, the expected cost of our program was 
about $500 million, and literally in my inbox were two 
contracts that were waiting to be signed for, I believe, about 
$38 million just to manage that.
    As we came back to DC this time in 2012, that is where I 
was presented with a choice. ``Mayor, ask for a consent decree 
and blame it on us or we are thinking about this idea of 
integrated planning.''
    So we cut about $150 million out of that cost, and they go, 
``Well, you are not meeting the regulation obviously. There is 
no way you could.''
    Well, the reality is what you just said. In integrated 
planning, there are other ways of looking at how you meet the 
requirement. We were going to a level, for regulatory purposes, 
a level that was insurmountable. We cannot even test below 170 
parts per quadrillion, and our State standard is 7.
    And so as you look at this, right now, as I have been 
lauded, I have received the national award from NACWA several 
years ago. I have been and our plan has been quoted in both the 
Obama administration and now the Trump administration from EPA 
that we were leading the country. We are literally doing 
integrated planning based off of a memo, which is not a great 
place to be.
    So thank you for the law, but now we are ready to go sign 
that permit as we are in our final year of the largest 
infrastructure project that my community has ever seen. Yet 
they say, ``Well, you are going to have to meet seven now.''
    My citizens are going to pay that bill for the next 17 
years. We are one of the first in the country to sell green 
bonds, some $200 million in green bonds as part of that $350 
million cost.
    So now we need to meet seven. Some estimates have it up to 
$1 billion to meet seven. Our wastewater treatment facility is 
using technology that is used for drinking water to get it to a 
standard to put back into our Spokane River, which is literally 
the center point of our community and has been for years.
    And so I sit there and so as you look at it, it really is 
the framework that allows us to look at the cost rather than 
always going to try to alleviate that cost on the final end. 
You really need to look at the construction side of that.
    We have some other 144 other contaminants that we should be 
looking towards to remove from our river rather than going back 
to PCBs to try to get to this unreasonable level that no one 
can actually get to or prove that you were to it.
    So I have sat in many meetings with our State folks, with 
the EPA, and I sat here several years ago. I meet with EPA 
constantly, and they said, ``Yes, Mayor. It is hard to 
justify.''
    Well, I have to justify it to my citizens. That is the 
reality. So as we look at this and as you look at these 
programs, regulatory innovation and innovations to meet those 
requirements are so key.
    I will finish with this, and that is as we look at these 
programs, especially in a delegated State like ours, our State 
has never had a variance to meet this.
    Mr. Westerman. Our graceful chair is not going to show me 
mercy if we do not yield back.
    Mrs. Napolitano. Thank you very much.
    Mr. Espaillat, you are on.
    Mr. Espaillat. Thank you, Madam Chair.
    Thank you to the witnesses for being here.
    The Clean Water State Revolving Fund and its sister 
program, the Drinking Water State Revolving Fund, are of vital 
importance to New York City and New York State and cities 
around the country really.
    The New York City Department of Environmental Protection 
owns and operates one of the largest wastewater collection and 
treatment systems in the world with 96 pumping stations and 14 
treatment plants.
    While our waterways in the New York area are cleaner now 
than they have been in a century; in fact, the Hudson River 
right now is a playground for sports and other activities. 
There is still so much work to be done.
    In Upper Manhattan, combined sewer overflow tanks release 
gallons of dirty water directly into the Hudson whenever too 
much rainfalls happen quickly. This happens on a regular basis. 
So any time you have storms, untreated sewage water is released 
into the Hudson where people are kayaking and doing water 
sports.
    We saw this happen all over the city during Super Storm 
Sandy as well, when not only rainfall, but also storm surge 
waters overwhelmed our system, damaged our infrastructure, and 
dirtied our waterways.
    After the storm, it was determined that part or all of our 
14 treatment plants and more than half of our pumping stations 
are at risk and could suffer more than $1 billion in damage in 
a single storm or flood.
    New York has been putting FEMA resiliency funds to work in 
order to make upgrades to our clean water system, but the clean 
water state we have all been for and is still so vital for 
long-term upgrades.
    A city of nearly 9 million people can witness a great 
damage to our clean water and environment if we do not invest 
in maintaining our water infrastructure. The companion impacts 
of climate change make this work even more critical.
    New York City has a wastewater resiliency plan that calls 
for critical equipment to be protected to the 100-year base 
flood elevation plus an additional 32 inches to account for sea 
level rise. But New York and other cities around the country 
simply cannot meet this challenge without Federal investment. 
So the buck stops here. This is a deep pocket issue, and we 
must be a full partner.
    Federal funding through the Clean Water State Revolving 
Fund will go towards raising low lying wastewater treatment 
facilities and other ways to make them more resilient. But even 
more important, the Clean Water SRF will help make the system 
greener.
    New York City would like to upgrade all of our wastewater 
plants to replace their engines with ones that use cleaner 
natural gas and even green energy. This will not only make our 
water cleaner, it would at the same time make our air cleaner 
by reducing emissions, and it helps to combat climate change by 
reducing our footprint.
    So this is a major, major endeavor, and we need money. And 
so in an era where we see the White House speaking about budget 
cuts and we are here sitting in the Transportation and 
Infrastructure Committee trying to wrestle with a potential 
major infrastructure bill, what are you recommending about the 
money, the green money, that must come to ensure that we, in 
addition to some of the measures that, for example, have been 
taken in Spokane; what are you recommending that we do to make 
this happen before the infrastructure in America collapses?
    Mr. Kricun. Well, we have been very lucky with the State 
Revolving Fund on both of the issues you described. Camden City 
has a combined sewer system, and we have used the State 
Revolving Fund to upgrade our wastewater treatment plant, make 
it bigger; to upgrade Camden City sewer system to allow it to 
convey more flow to the plant; and we have also greened 100 
acres for a green infrastructure program, all funded through 
the SRF, to capture 100 million gallons of stormwater by 
soaking it through the ground.
    And then good begets good. Because we now have 100 acres of 
parkland that we have to manage, we used an AmeriCorps grant to 
hire 240 at-risk youth between 18 and 25 to maintain the green 
infrastructure.
    So green infrastructure not only has a functional benefit 
of capturing stormwater, but also greens the city, has those 
benefits, but also there are green job opportunities.
    On the green energy side, through the SRF we will have 
eliminated combined sewage flooding for up to the 1-inch storm 
in Camden by the end of 2020.
    And then for green energy, we are using the SRF again to 
make our plan completely resilient. We will be off the grid by 
the end of 2020 by using the SRF to build a district facility 
and a combined heat and power system to turn our sludge, our 
biosolids, into electricity.
    So without the State Revolving Fund, we could not do that. 
So we thank the Government and the EPA for the State Revolving 
Fund and hope that you will reauthorize it and remember it is a 
loan program, not a grant. So it really is a hand up, not a 
handout.
    We have to pay it back, but that low interest rate makes 
the different.
    Mr. Espaillat. Thank you, Madam Speaker.
    Mrs. Napolitano. Thank you, sir, for your testimony.
    Mr. Webster, you are recognized.
    Mr. Webster. Thank you, Madam Chair.
    Professor, are the rates paid for water and wastewater 
treatment way low, medium, too high, or is it a mix?
    Ms. Heaps. Thank you for the question.
    I think the answer depends on where you are and who you 
ask. I think in many communities we have what is considered 
reasonable water and sewer rates, but many people struggle. And 
I think one of the challenges of setting affordable rates is 
that in many places, the cost of water itself is very, very 
cheap, and the cost of the infrastructure, the energy to move 
the water is what is very expensive.
    So often rates are structured in a way that I have seen 
recommendations that say make your fixed costs of your 
infrastructure the base rate for all of your ratepayers, and 
then the cost of water, your flexible costs go beyond that.
    So often what we have is for somebody who uses very little 
water, it is very expensive for them to just even get in the 
game and turn on water at their home. And if we were able to 
have more sliding rates that recognize very low usage of water 
at very low water cost, I think we could see a more equitable 
system and have the larger water users actually paying a more 
equitable cost of their burden on the system.
    Mr. Webster. So should the Federal Government get engaged 
in any way in setting rates?
    Ms. Heaps. I think there we are talking about a federalism 
issue, that rate setting has been a local issue and a State 
level issue, and unlike with energy where we have public 
utility commissions, often water rates are Wild West, kind of 
all over the place.
    But I think the Federal Government can provide incentives 
to good policies at a local level by tying Federal support, 
Federal monetary support, to policies that support water 
affordability at a local level.
    Mr. Webster. So that would be like a shared expense? The 
better you do, the better the Federal Government will do?
    Ms. Heaps. I think we can reward systems that end up well 
structured to deal with both affordability and clean water 
compliance issues.
    Mr. Webster. Is the diversity playing in that somewhere? I 
mean, you know, I think about Florida. There is water. It is 
almost like a wetland, especially in the middle of south 
Florida, and so you can dig down a few feet, maybe 5 feet, and 
there's water as opposed to other places.
    Now, certainly it needs to be cleaned up or whatever. 
However, the point is when you do septic tanks or something 
like that, then there is a difference than if they were done in 
some other State.
    So does the topology play a role in that?
    Ms. Heaps. Yes, absolutely, and as Ms. Flowers' testimony 
demonstrated, there is no one-size-fits-all solution for every 
community. We need to look specifically at what engineering 
solutions will work and what makes sense for local communities.
    Mr. Webster. So but that affects rates, too. There may be a 
simple way to do it in one part of the country and a little 
more complex in another part of the country. Is that true?
    Ms. Heaps. I would agree with that, yes.
    Mr. Webster. OK. I yield back.
    Ms. Mucarsel-Powell [presiding]. Thank you. I now yield to 
Ms. Finkenauer for 5 minutes.
    Ms. Finkenauer. Thank you, Madam Chair.
    I am happy to sit on this subcommittee and be here with you 
all today, and thank you so much for all that you are doing. I 
know you are dedicated, as I am, to making sure that every 
single American has access to clean, safe drinking water.
    It is one of our number one priorities around here, and 
again, thank you for being here today.
    One of the things that I am really curious about because I 
come from the city of Dubuque and have seen some really 
innovative things around water quality and partnerships, and a 
lot of technology in regards to, well, using technology to 
monitor and improve water systems.
    So where I am from in Dubuque, they have actually partnered 
with IBM's Watson Research Center where they did a smarter 
water pilot study for over a year. Some of you may or may not 
have heard of it, but where they used actually smart water 
meters to help reduce water usage over 6 percent, and then 
increased leak detection and actually the response is 
eightfold.
    So I just kind of want to hear from you all today about 
intelligence systems, and specifically, how can we use 
technology to reduce leaks and other causes of system down 
time, as well as making sure that our water systems are more 
environmentally sustainable?
    Is there anything that you have seen across the country, 
whether local, State level? Obviously, I know the Dubuque 
example, but I am wondering if you all have any examples that 
States or other localities have done well and anything that we 
should be looking at on the Federal level to either ramp up or 
be helpful with this.
    Again, use of technology we do have and making sure that 
every dollar we do spend we are doing it in the best way 
possible and in the most efficient way possible.
    Mr. Kricun. Well, nonrevenue water is a huge problem for 
every community, but especially in communities, whether it is a 
city or rural, that are lower resourced. So, for example, the 
norm in a well-run system there is always going to be some 
leaks, maybe 10 percent. But Camden City, for example, has a 
nonrevenue water of over 40 percent. So that means that for 
every 100 gallons that go out of their water treatment system, 
they only get paid for 60.
    Now, some of that goes for firefighting, and that is 
normal, but a lot of it is for leaks or unbilled revenue. So 
that is a huge loss for a city that needs revenue. But it is 
sort of a vicious cycle because if you lack the resources to 
find the leak, then you cannot find the revenue that you need.
    So I have heard of like smart water systems, too, but 
usually it is a public-private partnership, which is at a much 
higher rate. So one thing the Federal Government could do 
because the technologies are out there would be through the 
Drinking Water SRF allow rural and urban communities to borrow 
and invest in that smart technology to reduce their nonrevenue 
water, and then that revenue would help pay back the loan. It 
would pay for itself.
    So the problem is that many of these communities that need 
it the most cannot afford them.
    Thank you.
    Ms. Finkenauer. Thank you. Thank you. I really appreciate 
it.
    Mr. Condon. I was just going to say the technology is a key 
component, as a city that is going to all smart meters and 
looking at the real time use. One is real time reporting back 
to the users, especially large users.
    In our system we are thinking of golf courses and parks, to 
give people that real solution.
    The other is technology and leak detection. We used more 
recently in-line technology that saved us some $7 million 
because, of course, there are algorithms based on years and 
gallons through certain systems because you did not know what 
was under the ground. Now using certain types of technology, we 
were able to alleviate $7 million that was in our capital plan.
    But, again, back to the issues of partnering with 
technology, one is the real time reporting to use, and we will 
be a fully automated city here shortly through a smart city 
initiative. But, again, that is all privately done, which is 
great because they are coming to the table to demonstrate 
those.
    But secondly is to use that sort of technology that had 
typically been on the wastewater side, but again, as we are 
here about wastewater, the real issue is the clean water 
solutions on the drinking water also.
    Ms. Heaps. And if I could add, technology can also benefit 
affordability. If you have real time reporting in residential, 
customers have that, and you have rates structured so that 
people can have control of their bill and actually use less 
water. People can say, ``Oh, I am going to take a shorter 
shower today,'' or, ``we are going to save laundry until next 
week,'' or something like that.
    So it really benefits all around, both from the utility and 
the consumer end.
    Ms. Finkenauer. Great. Thank you all so much for your 
comments, and I would love to follow up on some of this as 
well.
    And, Madam Chair, I yield back.
    Ms. Mucarsel-Powell. Thank you.
    I now recognize Mr. Babin for 5 minutes.
    Dr. Babin. Thank you, Madam Chair.
    And thank you, witnesses, for being here today. I 
appreciate it.
    Mokszycki, right? Is that the way? Mokszycki?
    Mr. Mokszycki. Mokszycki, yes.
    Dr. Babin. Mokszycki. OK. I am sorry.
    I represent a large district in Texas, nine counties, from 
Houston over to Louisiana. The majority of my constituents live 
in rural communities, and you talk about the difficulties that 
rural communities face with respect to and compliance with 
Federal regulations due to a lack of technical resources.
    You mentioned that compliance is expensive. It is complex 
and burdensome to small communities who have minimal resources 
and personnel, and I can understand issues very similar to 
yours in my district.
    Many of my constituents are suffering at the hands of 
overregulation from the Federal Government in many areas of 
their lives already. In your testimony, you lay out five 
provisions which aim to help target communities most in need of 
Federal assistance.
    Do you think that these provisions are sustainable for 
solving the long-term issues that rural communities like ours 
face?
    Mr. Mokszycki. I think they are sustainable. I think there 
just needs to be enough money in the fund so that more people 
can participate in these rural communities.
    The rural communities need the technical assistance that we 
get from like the Rural Water Association because for us even a 
small project, we had a wellhead protection project that we did 
in our town. It was going to cost us $75,000. For a small rural 
community, $75,000 is a lot of money.
    We were fortunate that through clean water funding and 
through the New York Rural Water Association, their 
hydrogeologist did the program for us, saved us $75,000, and 
our wellhead was protected. That allowed us to get this 
wellhead protection done because what happens in a small 
community is that work just does not get done if there is not 
some sort of outside funding to help with it.
    Dr. Babin. All right. Well, let me just follow this up. Do 
you see an opportunity for the private sector to bring 
solutions to some of these problems?
    Mr. Mokszycki. I do not see how that would work. It is just 
going to be a little bit more expensive if private entities 
come into the picture because they need to get paid.
    Dr. Babin. OK. And then, Ms. Flowers, these centralized 
wastewater recycling technologies have been proven in many 
rural infrastructure cases to be cost effective and a 
sustainable solution to rural wastewater issues.
    How can we better utilize and implement these new 
technologies in rural or even urban communities to best 
maximize taxpayer dollars?
    Ms. Flowers. Well, I think that, first of all, the 
technologies that have been used in our communities have not 
worked, and I think the first thing we have to do is 
acknowledge that we probably need to do something differently.
    I was just in Florida where I saw there they are having 
problems. They have to remove septic systems because of the 
rising sea levels, and the water tables are rising.
    I think the technologies that have been created were 
created for 20 years ago. We have a new reality now. We have 
more rain, and the technologies that the people that I am 
dealing with are talking about every time it rains, they are 
dealing with sewage coming back into their homes.
    So I think one of the big problems that I have found, being 
a country girl myself, is that a lot of people that are making 
policies have never been to these rural areas. So it is hard to 
articulate to someone who cannot even imagine what it is like 
to be in a community where your cell phone does not work 
because with the signal you will not get it. You know, you 
cannot rely on GPS to go to some of these places.
    And I have to tell people coming from the cities all the 
time you had better write those directions down or you are 
going to end up lost.
    So the same thing is true when we deal with wastewater. I 
think that there has to be a concerted effort, and maybe one of 
the ways to address it is to put together a committee that can 
actually go and visit these areas and see that these 
technologies are simply not working.
    Nobody goes to the homeowner who is on the other end when 
they fail.
    Dr. Babin. You bet.
    Ms. Flowers. They go to the people who installed them.
    And lastly, I think that the other problem that I have seen 
with the funding, the people that get the funding are not 
necessarily the people that need it. The business community can 
always get the funding. We have an example right now in Lowndes 
County where the business community on 65 just got funding to 
put in wastewater treatment because they have failed septic 
systems, too, but the community is left out.
    Dr. Babin. Thank you very much for that, and I appreciate 
that.
    I want to ask Ms. Taylor something real quickly.
    In your testimony, you discuss the dangers of privatizing 
water infrastructure, and what do you think is a good balance 
between private entities and Government funding when it comes 
to water safety and infrastructure?
    In addition, if you would, discuss a few policies that 
would allow the private sector and the Federal Government to 
work together in these areas. If you could, just for a few 
seconds.
    Ms. Taylor. Profound question because I think all across 
America we are all trying to find a way to work with the 
Federal Government. Everybody is.
    Even in this discussion today, I worry that people are not 
really listening. I listened to what Ms. Catherine said. 
Private monies coming into public dollars generally means 
something bad is going to happen. That is what it means.
    This is not rocket science. It is not rocket activities. 
All we have to do is to decide that water is a human right, and 
if we do that, then we will establish policies and practices to 
make it so.
    There is something to be said about throwing money at a 
problem. People that have money always say you cannot throw 
money at it. It will not fix it.
    Throw money at me and watch me fix things.
    Ms. Mucarsel-Powell. Ms. Taylor, thank you so much.
    Dr. Babin. All right. Thank you.
    Ms. Mucarsel-Powell. The time is up. If you would like, you 
can always provide testimony in writing to add to that.
    I now recognize Mr. Rouda for 5 minutes.
    Mr. Rouda. Thank you, Madam Chair.
    And thank you, witnesses, for joining us today. I 
appreciate your testimony and information that you are sharing.
    My district is the 48th District of California in Orange 
County, and we are served by the Orange County Water District 
and the Orange County Sanitation District. In fact, in February 
2018, the Orange County Water District in Fountain Valley and 
the Orange County Sanitation District in Fountain Valley as 
well set a Guinness world record title for the most wastewater 
recycled to drinking water in 24 hours. They served 2.4 million 
residents and have certainly relied on SRFs in the past to help 
create world-class operations in Orange County.
    But California has about $26 billion of needs in this area, 
and I think federally the number is around $270 billion. 
Professor, I will start with you.
    You have talked about the need for massive amounts of money 
to address our water infrastructure needs. Can you talk a 
little bit about the impact climate change has on these 
calculations?
    Because it seems like these calculations are based on 
historical information and not really taking into account the 
full potential impact of climate change if it is not adequately 
addressed in the very near term.
    Ms. Heaps. Yes, thank you.
    And actually, I have toured that Orange County facility 
twice. It is wonderful.
    Mr. Rouda. It is quite impressive.
    Ms. Heaps. A wonderful facility.
    I think you raise an excellent question about are we really 
counting cost considering climate change and resiliency for our 
water infrastructure. The latest numbers that I have seen from 
EPA on the Clean Water Act needs, at least on the Clean Water 
Act side, on the drinking water side new numbers came out in 
2018, but on the Clean Water Act side the latest numbers are 
from 2012.
    And that report itself acknowledges it is supposed to be a 
20-year estimate, but that actually utilities often look out 5 
years. So those numbers are likely very, very low.
    And one of the things I would encourage this subcommittee 
to do is to connect with EPA and ask when the new numbers are 
going to be out and to specifically ask how climate change 
resiliency and impacts on climate change for both water and 
sewer are going to impact those numbers.
    And then also provide guidance to the utilities, to the 
local municipalities as they are trying to figure that out and 
trying to figure out how those numbers change with new threats 
from climate change.
    Mr. Rouda. Anybody else on the panel want to speak to the 
topic?
    Mr. Kricun. Yes, thank you, Congressman.
    I am from New Jersey, and so Hurricane Sandy, you know, 
that is climate history, and the storms from Houston, Puerto 
Rico, et cetera. We have seen that our infrastructure is 
already inadequate for how the climate is already. So there is 
already a significant infrastructure gap even if climate does 
not get any worse. So we have to address that.
    But then, of course, many believe the climate change will 
get worse, and so that will only widen the gap. So the need for 
investment in water infrastructure is more important than ever, 
one for replacement of the water infrastructure while we have 
it now, but also to provide resiliency especially for 
vulnerable communities, from power outages, low lying areas, et 
cetera.
    So I believe that we must close the water infrastructure 
gap while we can since we already see the infrastructure is 
inadequate, and we know that gap will only widen.
    Mr. Rouda. Thank you.
    Turning a little bit, Mayor, to what I believe you talked 
about earlier, my neighbor to the north and Los Angles have 
plans in place to reclaim the L.A. River and restore it back to 
a natural habitat to some degree, and I am certainly intrigued 
that we can do the same in my district with the Santa Ana River 
because I think you have shown and others have shown that there 
is a partnership between man-made infrastructure and natural 
habitat.
    Can you elaborate a little bit more on the cost 
effectiveness of doing so?
    Mr. Condon. Absolutely. You can see in number two in my 
handout that we took this integration idea all the way 
throughout our city, and so now in our community, the Streets 
Department used to be part of the city government proper. It is 
now part of the Utilities Division, and they pay a franchise 
fee for that. But they get to design our street predominantly 
around stormwater.
    So now our stormwater mitigation people talk about complete 
streets or integrated streets. Well, now we look at every 
square foot that is not pavement that we did not need because 
we used to collect stormwater. We now can infiltrate that.
    There are two other things though. There is no money for 
integrated projects. So I spoke about it in my testimony, which 
was we have to go to many different sources, line those sources 
up, and I feel it is dramatic for our rural partners. I have a 
whole department that does that.
    I am in eastern Washington. We are the largest city in 
eastern Washington of a large congressional district, but 
working with Congress, if we could have an integrated fund that 
actually looks at all of these solutions.
    The other is the regulation. Believe it or not, we could 
purple pipe everything, but my river has a right to that water. 
So we cannot actually remove it from the river and put it into 
purple pipe.
    And number two is we have health requirements that do not 
allow purple pipe to go onto anywhere that is going to have 
human contact, i.e., parks. You cannot have purple pipe in 
parks. The kids play on it, yet the wastewater standard is 
higher than our drinking water standard. Yet health departments 
across this country, and perhaps regulatory, do not allow that 
to be into public spaces because it might have contact.
    So I think you are going down the right path, but really 
looking at the regulations that conflict between the different 
components of the Federal Government.
    And the final piece is we should reward these integrated 
projects throughout the system and have a single source for 
those projects.
    Mr. Rouda. Thank you.
    Ms. Mucarsel-Powell. Thank you, Mayor Condon.
    Mr. Rouda. Thank you, Madam Chair.
    Ms. Mucarsel-Powell. Thank you.
    I now recognize Mr. Woodall for 5 minutes.
    Mr. Woodall. Thank you, Madam Chair.
    And I will pick up, Mayor, where my colleague left off. It 
is an amazing thing that you all have done bringing economic 
incentives. That is easier to invest $350 million if I can save 
$150 million along the way.
    I believe there should be a different set of regulations 
for the best actors in our community. We are using that same 
membrane technology in my suburb north of Atlanta. We are 
pumping our water back into our reservoir cleaner than we took 
it out just like you are.
    Tell me about the efficacy from an executive's perspective 
of having a different set of standards for the good actors and 
a training wheels set of standards for those folks that we're 
still trying to get up to code.
    Mr. Condon. Well, thank you because I am not the nerd in 
the room. I am not an engineer by any means, but to see it from 
my perspective as running a large utility, you hit the nail on 
the head, which is to give rewards to those that are 
innovative.
    I was one of the first in the country to do integrated 
planning, where now we are going to have trouble signing a 
permit because they are going to try to hold us to a standard 
that no technology in this community, in this country can meet.
    Rather, we would like to start spending those dollars where 
our citizens see it. I passed a street levy, received 77 
percent passage because they saw the integrated effectiveness 
of that, and they see the real world outcomes from that.
    From my handout you see that now our CSO tanks have a 
playground from one of our schools. I actually had to come all 
the way back here to the Department of Transportation. One of 
our infiltration sites is land that the Federal Government owns 
along I-90, one of the Federal highways. It originally had been 
a place where a considerable amount of vagrancy had happened, 
and it was very unsafe for the individuals that were there.
    It is now an infiltration site, but the Federal Government 
had never allowed this to happen because it was on their 
property on an on ramp. But this was how we were to look at 
saving that $150 million.
    The citizens see that. I come from a part of the country 
that is very progressive in environmental standards. But that 
being said, they also are very cognizant of the cost, and my 
citizens, one of the poorest legislative districts in the 
State, and as you see from the ALICE rate, you know, a family 
of four is left with $400 or $500 to pay for rent when you have 
taken out the utility costs.
    So we need to look at these innovative approaches, but also 
look at somewhere in the Federal Government where you can have 
that integrated approach. We get points for integration, but we 
still are applying on multiple different locations or sources 
to get those dollars and then lining up the cash flow when 
those are due, when they have to be spent by, and it is a 
Rubik's Cube that is not plausible for smaller governments.
    We are able to do it, but we are about 210,000. I do not 
think you could do it for cities that are much smaller than 
that.
    Mr. Woodall. But for cities north of 210,000, do you think 
this is a model that is applicable across the country or you 
have the particular leadership and the particular circumstances 
that you can make it work when others cannot?
    Mr. Condon. I would hope the latter. I would think the 
latter, but no.
    [Laughter.]
    Mr. Condon. The issue is, and that is why when you simplify 
it and have grant pools that reward a single location for these 
integrated projects, I realize the difficulty. I worked in the 
Federal Government for some time, but you have some instances 
where this has happened throughout, whether it be at the 
Department of Transportation, and the grants that came out that 
looked at integrating different projects.
    So I think it can be done, especially on the authorization 
side, especially when we look at policy of how that could be 
rewarded for innovation across this country. Because we can 
drop that cost and get real benefits to our citizens.
    Believe it or not, most of my citizens, thankfully, when 
they flush the toilet, it flushes the same way before we did 
$350 million and the same way afterwards. So they have gotten 
to see the ability and see the real outcomes, and they have 
seen that in their infrastructure in my community and really 
have rewarded us and given us that confidence to continue down 
this path.
    Mr. Woodall. As we have seen water costs in major cities go 
up 50 percent over the last 10 years, with Atlanta and Seattle, 
your neighbors to the west, the two highest in that measure, 
yes, constituents are----
    Mr. Condon. I got elected because of water rates.
    Mr. Woodall. Is it Mr. Kricun? Am I pronouncing that 
correctly?
    Mr. Kricun. Yes, sir.
    Mr. Woodall. Your peer-to-peer sharing idea is really 
interesting to me. Who is doing that the best today? Because 
sometimes I see my communities compete with one another and so 
they do not want a partner to help each other succeed.
    Who is doing it well and what can we do to make that more 
successful going forward?
    Mr. Kricun. Well, thank you.
    The National Association of Clean Water Agencies and EPA 
and Water Environment Federation are working together to 
develop a 50-State peer-to-peer initiative in which utilities 
with larger resources would help those with less.
    So, for example, the way our regional authority helps 
Camden City, Camden City is one of the poorest cities in the 
country. Our county is a regional authority with some affluent 
communities as well. So we partner with them.
    In New Jersey, the commissioner has developed a peer-to-
peer program with eight utilities helping the more challenged 
cities across the State. We are hoping to replicate that across 
the country.
    San Francisco is also doing a lot in the bay area. Actually 
the city of Atlanta is very involved in water equity issues as 
well with your Commissioner Kishia Powell.
    So I mean, there are a lot of examples. The idea is how to 
coalesce that into a national initiative since nobody should 
have to deal with these issues.
    And the thing is, real quickly, in the public sector we are 
willing to share the information. So we are glad to share it. 
We just need mechanisms to help facilitate that sharing, those 
partnerships.
    Mr. Woodall. I had many more questions for many more 
witnesses, Madam Chair, but I yield back.
    Ms. Mucarsel-Powell. Thank you, Mr. Woodall.
    I would like to recognize myself now for 5 minutes.
    Thank you so much to the witnesses here this morning.
    I represent Florida's 26th District. It is, as I say, 
ground zero for the effects of climate change, and water is a 
daily topic for us. As you can imagine, we have had serious 
issues threatening the water infrastructure in my community 
dealing with flooding.
    The water continues. We have septic tanks, about 90,000 
septic tanks in Miami-Dade County. This was done because it was 
less costly at the time. So a lot of overdevelopment without 
really providing the appropriate municipal infrastructure that 
is needed.
    You have all seen the algae blooms that we have been 
suffering from in both of our coasts. There is also such a 
divide in Miami-Dade County. We have some of the highest number 
of millionaires that live along the coastal communities, but 
then the average income for people living in most of the county 
is about $44,000. So you can imagine how costly it is for our 
communities to actually invest in the appropriate 
infrastructure.
    So programs like the Clean Water SRF are crucial, and we 
have used the SRF program to obtain low interest loans to move 
residents from septic to sewer, constructing treatment systems 
to improve the water quality of the nearshore waters and 
protecting the Florida Keys National Marine Sanctuary.
    So I would like to start with Ms. Flowers, something that 
you said a little bit earlier. You mentioned that you saw some 
creative solutions to the septic tank issues in south Florida.
    If you could, please elaborate on that.
    Ms. Flowers. Actually I did not see creative solutions, but 
I was at the University of Florida recently, and they were 
talking about the problems they were having with wastewater 
treatment there using septic systems, and they said the problem 
is because of the sea level rise and the water tables are 
rising, and as a result, the technology is failing and is 
leaching into the groundwater and ends up in the rivers and so 
forth, which creates the algae bloom and sometimes fish kills.
    So what I am hoping will come of this, if I had a magic 
wand, I would try to partner with some of the agencies that are 
already dealing with innovative technology like NASA for an 
example. I am trying to get to NASA because they treat 
wastewater in outer space, and people think I am crazy when I 
say this, but I believe that we could partner with them and 
come up with a way to treat wastewater in an innovative way 
that is affordable that you can go to a Lowe's or Home Depot 
and buy it like we do with our HVAC system and hire a 
technician to go and install it.
    But we have to start thinking out of the box. The way we 
are thinking is for technology or for a time that was when I 
was a child. Now at the age of 60, you know, I never could have 
imagined. I remember when we had a party line. Now we have cell 
phones, you know. Some people do not even know what I am 
talking about.
    But anyway, now we have cell phones and we cannot even 
imagine what it was like to live without them. I think we can 
do the same thing with wastewater, but I think we have to get 
to the point where we can start thinking out of the box, and I 
think that we have such ingenuity in this country that if we 
can galvanize it and through possibly a public-private 
partnership and come up with the kinds of solutions that will 
help people in Miami, people in Alabama.
    In Alabama, they tell us that the best source for treating 
wastewater are sandy soils. When I went to Florida, I saw that 
was something different.
    So we really need to find a way to develop the type of 
technologies that do take into account climate change.
    Ms. Mucarsel-Powell. Thank you, Ms. Flowers. I could not 
agree more with you.
    I think that it is critical to continue to talk about this 
topic. That is why this hearing is so important. There is 
nothing more important I do not think to any of us than clean 
drinking water, access to clean water, even for our coastal 
communities so that our children's health is protected. I have 
a quick question now for Ms. Heaps.
    I am curious. You mentioned the right to water law that was 
enacted in California. Can you just briefly comment on what 
that entails and how that has worked for California? I am 
curious to see if that is something that we can do in Florida 
as well.
    Ms. Heaps. I am happy to. I see we are almost out of time. 
So I am happy to actually put something in writing so I can 
address it better, but it basically provides guidance for 
implementation of that human right to water across State 
agencies that deal with water and also provides guidance for 
local utilities as they are making decisions.
    Ms. Mucarsel-Powell. OK. And just lastly, if I am allowed, 
I would like to ask for unanimous consent to include in today's 
hearing record an article from Bloomberg Business Week, ``Miami 
Will Be Underwater Soon. Its Drinking Water Could Go First.''
    Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
        Article Submitted for the Record by Ms. Mucarsel-Powell
Bloomberg Businessweek
https://www.bloomberg.com/news/features/2018-08-29/miami-s-other-water-
problem
    Miami Will Be Underwater Soon. Its Drinking Water Could Go First
              the city has another serious water problem.
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

A rock lake at the edge of Miami-Dade County.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    One morning in June, Douglas Yoder climbed into a white government 
SUV on the edge of Miami and headed northwest, away from the glittering 
coastline and into the maze of water infrastructure that makes this 
city possible. He drove past drainage canals that sever backyards and 
industrial lots, ancient water-treatment plants peeking out from behind 
run-down bungalows, and immense rectangular pools tracing the outlines 
of limestone quarries. Finally, he reached a locked gate at the edge of 
the Everglades. Once through, he pointed out the row of 15 wells that 
make up the Northwest Wellfield, Miami-Dade County's clean water source 
of last resort.
    Yoder, 71, is deputy director of the county's water and sewer 
department; his job is to think about how to defend the county's fresh 
drinking water against the effects of climate change. A large man with 
an ambling gait, Yoder exudes the calm of somebody who's lived with bad 
news for a long time.
    ``We have a very delicate balance in a highly managed system,'' he 
said in his rumbly voice. ``That balance is very likely to get upset by 
sea-level rise.'' What nobody knows is when that will happen, or what 
happens next.
    From ground level, greater Miami looks like any American megacity--
a mostly dry expanse of buildings, roads, and lawns, sprinkled with the 
occasional canal or ornamental lake. But from above, the proportions of 
water and land are reversed. The glimmering metropolis between Biscayne 
Bay and the Everglades reveals itself to be a thin lattice of earth and 
concrete laid across a puddle that never stops forming. Water seeps up 
through the gravel under construction sites, nibbles at the edges of 
fresh subdivisions, and shimmers through the cracks and in-between 
places of the city above it.
    Miami-Dade is built on the Biscayne Aquifer, 4,000 square miles of 
unusually shallow and porous limestone whose tiny air pockets are 
filled with rainwater and rivers running from the swamp to the ocean. 
The aquifer and the infrastructure that draws from it, cleans its 
water, and keeps it from overrunning the city combine to form a giant 
but fragile machine. Without this abundant source of fresh water, made 
cheap by its proximity to the surface, this hot, remote city could 
become uninhabitable.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

One of Miami-Dade's many canals, which the county relies on to drain 
its flat surface when it rains. Yoder calls the canals ``probably the 
most complex'' water management system in the world.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    Climate change is slowly pulling that machine apart. Barring a 
stupendous reversal in greenhouse gas emissions, the rising Atlantic 
will cover much of Miami by the end of this century. The economic 
effects will be devastating: Zillow Inc. estimates that six feet of 
sea-level rise would put a quarter of Miami's homes underwater, 
rendering $200 billion of real estate worthless. But global warming 
poses a more immediate danger: The permeability that makes the aquifer 
so easily accessible also makes it vulnerable. ``It's very easy to 
contaminate our aquifer,'' says Rachel Silverstein, executive director 
of Miami Waterkeeper, a local environmental protection group. And the 
consequences could be sweeping. ``Drinking water supply is always an 
existential question.''
    County officials agree with her. ``The minute the world thinks your 
water supply is in danger, you've got a problem,'' says James Murley, 
chief resilience officer for Miami-Dade, although he adds that the 
county's water system remains ``one of the best'' in the U.S. The 
questions hanging over Miami and the rest of Southeast Florida are how 
long it can keep its water safe, and at what cost. As the region 
struggles with more visible climate problems, including increasingly 
frequent flooding and this summer's toxic algae blooms, the risks to 
the aquifer grow, and they're all the more insidious for being out of 
sight. If Miami-Dade can't protect its water supply, whether it can 
handle the other manifestations of climate change won't matter.
    The threats to the Biscayne Aquifer are unfolding simultaneously, 
but from different directions and at different speeds. In that way, 
Miami's predicament is at once unique and typical: Climate change 
probes a city's weaknesses much as standing water finds cracks in the 
foundation of a house.
    Twenty minutes east of the Northwest Wellfield sits the Hialeah 
Water Treatment Plant. With its walls built of coral rock in 1924, 
Hialeah was Miami's first major water processing facility. The water 
drawn from the Northwest Wellfield is piped here to be cleaned along 
with water from another cluster of wells that pull from straight 
beneath the plant. As climate change worsens, this plant will matter 
more and more.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Inside the Hialeah water treatment plant.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    A few blocks from the Hialeah plant, buried beneath what's now a 
maintenance yard for the county's Metrorail trains, lies a 1.2-acre 
zone that the Environmental Protection Agency has ranked the second-
most hazardous Superfund site in Miami-Dade. From 1966 until 1981, the 
land was used by Miami Drum Services Inc., a company that rinsed 
containers for an assortment of toxic chemicals, then disposed of the 
residue onsite.
    County and State officials concluded in 1981 that the operations 
were contaminating the aquifer; the EPA later said the space was 
leaching arsenic, cyanide, mercury, nickel, lead, cadmium, chromium, 
chloroform, and oil into the groundwater. The county forced Miami Drum 
Services to abandon the property and spent 2 months removing all 
``visibly contaminated soils.''
    Until then, water from the Biscayne Aquifer required minimal 
treatment: The plant would add lime to soften it and chlorine and 
ammonia to disinfect it, then filter out remaining particles. Once 
fluoride was added to help prevent tooth decay, the water would be 
piped to people's taps. In 1992, in response to the risks posed by 
toxins from the Miami Drum Service site and others near it, the county 
added a new stage, running the water through ``air stripping'' towers 
designed to remove toxic contaminants.
    In 2014 an EPA report warned that ``flooding from more intense and 
frequent storms'' could push toxins from Superfund sites into 
undergroundwater sources like the Biscayne Aquifer. Anna Michalak, a 
researcher at the Carnegie Institution for Science in Stanford, Calif., 
says climate change means that U.S. cities are ``entering a state that 
these systems were not built for.'' She adds: ``As the incoming water 
quality becomes either worse or just less predictable, you have to have 
more and more systems in place to deal with all of that.''
    In South Florida that new state is already here. The amount of 
precipitation that falls during the heaviest storms has increased by 
about 7 percent in Miami-Dade County since the 1960's, according to 
research by Constantine Samaras, an associate professor of civil and 
environmental engineering at Carnegie Mellon University. Although the 
disparity might not seem like much, it could mean the difference 
between a lot of rain and an outright flood. The Union of Concerned 
Scientists estimates that by 2045, as much as 29 percent of Miami Beach 
and 26 percent of Key Biscayne could be ``chronically inundated,'' 
which UCS defines as flooding twice a month.
    Earlier this year, Pamela Cabrera, a graduate student at Harvard, 
mapped the Superfund sites in Miami-Dade County and their proximity to 
wellfields. Her hypothesis was simple: Increased flooding could 
dislodge the toxic chemicals that remain on Superfund and other 
industrial sites, pushing them into the aquifer. According to Cabrera's 
map, the Miami Drum site is 750 feet from the Hialeah Wellfield. A 
dozen other Superfund sites are scattered throughout the county. More 
severe flooding or rainstorms could overwhelm Hialeah's controls or 
move toxins through the aquifer in new ways, sending them into one of 
the wellfields not equipped with the same controls.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Beneath this patch of ground is Miami-Dade's second-most polluted 
Superfund site, which was contaminated with arsenic, mercury, and 
cyanide. The site was turned into a maintenance yard for the county's 
Metrorail system.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    In 2014 a storage tank in West Virginia leaked methylcyclohexane 
methanol, a chemical used to process coal, into the Elk River just 
upstream from Charleston's water intake center. The spill rendered the 
city's water undrinkable, leaving 300,000 people with no water for 
days. ``It's extremely important for everybody to look upstream of 
their drinking water systems and protect them,'' says Gina McCarthy, 
who ran the EPA under President Obama and now directs the Center for 
Climate, Health & the Environment at Harvard. She cites Charleston, as 
well as Toledo, Ohio, which had to shut down its drinking water supply 
later in 2014 because of an outbreak of cyanobacteria, as evidence of 
how a shock to the drinking water supply can thrust a city into chaos.
    Miami-Dade has regulations and testing procedures in place to 
prevent or detect contamination of the aquifer. Asked about the risk, 
Yoder chooses his words carefully. ``I think it's a fair question to 
ask,'' he says, but adds that the county at least has a history of 
dealing with those threats, noting its experience with the Miami Drum 
Services site.
    Michalak warns that's too easy. ``Invariably,'' she says, ``we 
discover that we're not quite as clever as we thought.''
    In 1997 the State approved large-scale limestone mining on the 
border between Miami-Dade and the Everglades. Pulling the rock out of 
the ground entails blasting holes in the aquifer, which almost 
immediately fill with groundwater to become dusty blue pools. Locals 
refer to them as ``rock lakes,'' although they're not the kind that 
draw families for weekend picnics.
    The mines happen to surround the Northwest Wellfields. The same 
conditions that made the area suitable for water wells--vast open space 
with no development in sight--also made it ideal for massive rock pits. 
Environmentalists have warned that the rock lakes act as a superhighway 
for pollutants from the mining, driving them straight to the heart of 
the aquifer. In 2005 one of the Northwest wells registered five times 
the Federal limit for benzene, a chemical used to blast out rock that's 
been linked to leukemia, according to the American Cancer Society. The 
county ordered the well, along with four adjoining ones, temporarily 
shut down. Yet regulators never successfully identified the source of 
the benzene, and the mining continued.
    Yoder pulled over beside a rock lake that was lined by gravel roads 
and surrounded by swamp. The photographer with us made a half-hearted 
joke about alligators and then got out. Yoder and I stayed in the 
truck; the air outside was dusty and hot, and neither of us was 
particularly keen to take our chances with whatever might crawl out of 
the ditch.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Yoder at the Hialeah treatment plant. He says the county's drinking 
water infrastructure ``is very likely to get upset by sea-level rise.''
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    The decision to surround the county's most pristine wellfields with 
rock mines reflected a compromise, Yoder said. The Miami-Dade Limestone 
Products Association Inc., which represents some of the area's biggest 
mining outfits, insists mining has no effect on the aquifer. Better 
that than to surround the wellfields with houses, Yoder said, adding: 
``More developed areas had higher contaminants.''
    More worrisome than the mining itself is the whole vast world of 
toxicity to which the mining has opened up the aquifer. ``The rock belt 
is going to become a place where contaminants can enter and move 
deeper,'' says Philip Stoddard, the mayor of South Miami, one of the 
cities in Miami-Dade County that's most exposed to sea-level rise. As 
flooding and rainstorms get worse, Stoddard warns, they'll move surface 
water around the county in increasingly unpredictable ways. ``You've 
always been able to count on the water going west to east,'' drawing 
runoff away from the water supply, he says. ``What happens when it 
starts going back toward the wellfield? You don't have to be a genius 
to figure out it could be a bad thing.''
The Sea's Slow Creep Inland Threatens Freshwater Wells

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Data: U.S. Geological Survey, EPA, OpenStreetMap

    Then there's the feces. As developers built out Southeast Florida, 
they found that instead of connecting each new home to the local sewer 
system, it was often easier to install septic tanks. Miami-Dade has 
about 90,000. ``It was the magic carpet for quick, cheap development in 
Florida,'' says Brian Lapointe, a research professor at Florida 
Atlantic University who focuses on the role of septic tanks in water 
contamination. These tanks are typically used in rural areas where 
homes are too far apart to justify connecting them to a central sewage 
system--but also in places where residential construction happens 
faster than municipal infrastructure development. Septic tanks trap 
solid waste, which is supposed to be pumped out, while the liquid stuff 
drains into the soil, where gravity and time filter out bacteria and 
whatever else is in it before it reaches groundwater. In Southeast 
Florida, that groundwater is especially close to the surface--and 
rising.
    The State requires at least two feet of dry soil between the bottom 
of the drainage field and the top of the water table, but Lapointe says 
that during the wet season, the groundwater in parts of southern 
Florida already comes above that two-foot threshold. More intense 
flooding and rainstorms will swell the water table further, on top of 
the gains caused by sea level rise, sending partially treated human 
waste into the aquifer. That waste can contain E. coli bacteria, which 
cause diarrhea, vomiting, and even kidney failure. High levels of 
nitrates, another component of untreated waste, cause what's called 
blue baby syndrome, in which infants' blood can no longer carry 
sufficient oxygen.
    Lapointe adds that one of the ways researchers track septic-tank 
contamination is by tracking the levels of acetaminophen in the 
groundwater. ``People's medications are coming with that septic-tank 
effluent.'' The wonders of the human digestive system are many and 
varied, containing any number of other bacteria and viruses--``all 
these other organic compounds that may or may not be affected by the 
treatment at the utility plant,'' he says.
    How long does Miami have before the water table overwhelms the 
septic system? Officials, including the South Miami mayor, worry that 
the point of failure is closer than people realize. Says Stoddard, 
``I'm convinced that some of those septic systems are working by force 
of habit rather than by the laws of physics.''
    The slowest-moving threat to Miami's drinking water is also the 
most sweeping: As the ocean rises, salt water is being pushed into the 
limestone, forming a wall of brine that's creeping inland along the 
aquifer's floor. The county's wells are essentially giant straws 
drawing water from 60 feet to 80 feet beneath the ground. As the 
saltwater front advances westward across the aquifer, reaching each of 
those intake valves and enveloping them in saline water, it risks 
rendering them useless in succession--a sort of Sherman's March in 
reverse, as prosecuted by the sea.
How Salt Water Gets Into the Biscayne Aquifer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Not to scale
Data: U.S. Geological Survey

    Projecting the pace of saltwater intrusion is fantastically 
complicated, all the more so because the State and Federal Governments 
are still debating whether and how to proceed with a massive, still-
unfunded pledge to restore the Everglades. Doing this could increase 
the flow of fresh water into the aquifer and thus slow the salt line's 
inland creep, but the uncertainty means the county's plans extend only 
through 2040, by which point Yoder and others officials say they should 
still be able to use all but one of their current wellfields. 
Regardless of the pace of seawater incursion, the Northwest Wellfield, 
almost 20 miles inland, will be one of the last to succumb; short of 
cutting into the Everglades, there's no farther to go.
    Except farther down. In 2013 a new facility west of the Hialeah 
treatment plant began pulling brackish water up from 1,000 feet beneath 
the surface, below the Biscayne Aquifer, then pushing that water 
through a series of plastic membranes, a desalination process called 
reverse osmosis. The process requires as much as 200 pounds per square 
inch of pressure, which consumes about 5,000 kilowatt-hours of 
electricity per million gallons of water.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Reverse-osmosis equipment inside the desalination plant in Miami-Dade 
County. As sea levels rise, the county will have to get more of its 
drinking water from brackish sources.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    Though far from perfect, desalination may one day be Miami's only 
option. Climate advocates fret that the increased need for desalination 
will accelerate global warming. For the county, there's a more urgent 
concern: Reverse osmosis is enormously expensive. Water from the plant, 
built by engineering company AECOM for $55 million, costs two and a 
half times as much to process as water from the Biscayne Aquifer.
    Hypothetically, most of the challenges climate change poses to 
Miami's drinking water could be solved with money. Homes with septic 
tanks could be connected to the sewer infrastructure, a process Yoder 
estimates would cost from $2 billion to $3 billion. The soil at 
Superfund and other industrial sites could be dug out or better 
encased. Real-time monitors could be installed to warn of unexpected 
seepage. Still more advanced technology could be installed at water-
treatment plants. But those projects would need funding. And there's 
already a long line.
    In 2008 the Florida legislature passed a law dictating that the 
State's water utilities stop discharging sewage into the ocean by 2025; 
complying with that timeline could cost as much as $5 billion, Yoder 
says. Then, in 2013, Miami-Dade entered into an agreement with the EPA, 
which had found the county unlawfully discharged more than 28 million 
gallons of untreated wastewater into Biscayne Bay. The county promised 
to upgrade its wastewater collection and treatment facilities at a cost 
of $1.6 billion.
    In its latest capital budget, Yoder's department estimated that 
$13.5 billion would be required for these and other future 
infrastructure projects, of which $9.5 billion would be funded by 
bonds. But last November, Moody's Corp. warned that the county's 
creditworthiness depends on ``future annual rate increases to meet 
escalating debt service requirements''--saying, in effect, that the 
county's elected officials who must approve rate increases had better 
be willing to accept the political pain associated with ratcheting up 
their voters' water bills. If not, the county's credit rating could 
fall, necessitating higher interest payments on its bonds--and even 
higher water bills to cover them.
    The county's crush of climate-related spending requirements goes 
beyond protecting drinking water. Add to that the cost of pumps and sea 
walls as rising seas turn the area's gravity-reliant drainage canals 
back on themselves. ``Anything that this county relies on that is 
gravity-based is in jeopardy with sea-level rise,'' says Wilbur 
Mayorga, head of environmental monitoring and restoration at the 
county's Department of Environmental Resources Management. ``We've been 
lucky all this time. The time will come that it may not be so easy.''
    Spending on that scale is hard for any county to manage on its own. 
The challenge is greater here: Despite pockets of extreme wealth--one 
study estimated that the Miami metro area has the nation's eighth-
highest number of millionaires--the county overall is poor. Its median 
household income of $44,224 is almost one-quarter lower than that of 
the country as a whole.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

New construction in Miami-Dade County.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    Asked if the State would help Miami-Dade protect its drinking water 
from climate change, Governor Rick Scott's office directed questions to 
the Florida Department of Environmental Protection, which said in a 
statement that it ``continues to work to protect the resiliency of our 
coastal ecosystems and shoreline communities.'' But Jose Javier 
Rodr!guez, a Democrat who represents Miami in Florida's Republican-held 
senate, says his city is unlikely to get bailed out by the State. It's 
not a question of believing in science. ``The massive political and 
institutional resistance to taking action, in my view, is not largely 
ideological,'' he says. ``It's not largely even political. It's a 
question of being intimidated by the price tag.'' As the low-tax State 
struggles against a revolt among school districts protesting meager 
budget increases and a $28 million prison funding deficit, there's no 
appetite for funding the solutions to future crises, even when the 
future is almost here.
    The obvious solutions would cause problems of their own. Why not 
stop mining near the wellfields, for instance? Because the limestone 
from those mines goes into the concrete used to construct sea walls and 
build higher off the ground around Florida's coast. There's little 
disagreement about the need to get rid of the septic tanks, but which 
homes get help first? If a coastal neighborhood will have to be 
abandoned anyway, is it worth spending money on new sewers?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Rock lakes. The county rests on the Biscayne Aquifer, which is so 
shallow the water seeps up through the ground.
Photographer: Anastasia Samoylova For Bloomberg Businessweek

    Now pull the lens back further. Miami's drinking water problems are 
merely one facet of the still-accumulating effects of climate change 
that officials must identify, decipher, and combat. These include new 
diseases such as Zika, more frequent toxic algae blooms, disappearing 
beaches, heat waves, the growing threat of a real estate crash, and the 
eventual need to relocate people away from the coast. Protecting the 
aquifer isn't the end of adapting to climate change; it may not even be 
the hardest part. It's simply the price the city will have to pay to 
keep trying.
    That leaves the cruelest lesson of climate adaptation: The costs of 
saving Miami will mostly fall on the people who live here--testing how 
much they're willing to pay for the privilege, a sort of free-market 
Darwinism for the life of whole cities. ``There will always be drinking 
water here,'' says Virginia Walsh, a hydrogeologist with Yoder's 
department. ``It's just a question of how much you want to pay for 
it.''
    Stoddard, the South Miami mayor, says the people who already have 
homes here will accept almost any price to stay. But those who would 
otherwise come to South Florida will start looking at the growing cost 
of protecting it--measured in water rates, in property taxes, in 
insurance premiums, in uncertain future home sales--and go elsewhere.
    ``People will hang on with their fingernails to keep what they've 
got,'' Stoddard says. ``But who's going to move here? And that's what's 
going to kill us.''

    Ms. Mucarsel-Powell. Thank you.
    I would like to now recognize Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    I want to thank all of the witnesses for being here today 
and appreciate your testimony.
    Mayor, first, it really is impressive to see some of the 
cost savings and some of the forward-leaning efforts that you 
took in working together with EPA on integrated planning, and 
so first I want to commend you. I want to commend you for the 
cost savings. I want to commend you for thinking forward and 
working through a voluntary relationship with EPA on the 
integrated planning approach that has apparently yielded good 
outcomes for your community. And I have family there so that is 
important.
    But I am curious. As you may know, we did enact integrated 
planning law last year, and I believe you may have some 
thoughts about what we got right and maybe what we have left 
out and can improve on in a second generation bill.
    Do you care to share any perspective on that?
    Mr. Condon. Absolutely. Like I shared in my opening 
comments, integrated planning was literally just a thought, and 
we acted on a memo. I still have the memo that came at the time 
from Nancy Stoner.
    And so as you look at the integrated planning and the way 
it was passed, thank you for doing that. We are very happy at 
the U.S. Conference of Mayors that that became law.
    There are a couple of pieces as we look at integrated 
planning going forward, and that is especially across this 
country, in order to meet the regulatory requirements, EPA has, 
I believe, five different ways that you can meet those 
standards, and one is a variance.
    Believe it or not, that is not universally done across the 
United States. The State of Washington, in my understanding, 
has never done a variance to meet a, in my opinion, 
unreasonable requirement of, in this case, seven parts per 
quadrillion of PCBs. We cannot even measure that.
    And so as we look at this in integrated planning, you 
really need to go back and look at the regulatory framework 
after those plans are accepted. If those plans are accepted as 
the right way to do, and again, this was not without green 
infrastructure, but that is to be said how does then the 
regulatory environment meet with the integrated planning.
    So I would ask especially this committee in their oversight 
at the EPA and of the delegated States that it is actually 
implemented the way it was intended. So I was very excited to 
hear the chairwoman talk about the oversight role of this 
committee.
    Mr. Graves of Louisiana. Great. Thank you. I appreciate it.
    And as we move forward, again, I fully expect that through 
oversight and through perhaps a second generation bill, version 
2, we will come back, and so if you do have any additional 
thoughts, I would appreciate you sharing those with us on how 
we can further improve our build upon.
    Mr. Condon. Integrated funding would be another key issue.
    Mr. Graves of Louisiana. Great. Thank you, Mayor.
    Mr. Kricun, again, I want to commend you for some of the 
efforts that you have undertaken. It appears some of the cost 
savings you have provided under some of the work that you have 
done has been impressive.
    Could you talk a little bit about how replicable you think 
that is? Because, as you have heard from the panel, there are 
sort of mixed messages about whether this is a funding issue, 
an implementation issue, and I am just curious of your 
perspective on how replicable it is and how we could do a 
better job from here helping to empower other communities to 
achieve some of the low rates that you have been able to 
achieve.
    Mr. Kricun. Thank you, Congressman.
    I think in a way our county is sort of a microcosm of the 
whole country in that we have this very economically distressed 
community with an average median income of only $26,000, and 
yet we have some affluent communities as well.
    So I believe that it is completely replicable for any 
utility if the State Revolving Fund is there. Without the State 
Revolving Fund, we could not have done it. We would have had to 
have raised rates, and we would have been forced to raise rates 
on our economically distressed community. So that would have 
been a real problem.
    But because of the State Revolving Fund and because of 
internal efficiencies, we were able to upgrade our 
infrastructure as it needed to be, but also hold the rate. I 
definitely believe it is replicable.
    I think though for some utilities or municipalities which 
lack resources, you know, whether it be economically stressed 
communities, cities, rural areas, I think that is where our 
peer-to-peer efforts, especially from the State Revolving Fund, 
may be getting circuit riders getting out there to help them 
with the State Revolving Fund because what I found in Camden 
was that they lacked resources to apply for the funding, and 
then when the funding was available, they had to get much 
higher interest rates when they could afford it because they 
did not have the funding to go through the SRF program.
    So one thing I would really recommend is support for 
economically distressed communities, small or rural or urban 
areas that do not have the internal capacity to apply for these 
fundings.
    There are two things. One, making the funding available. 
Continue to make it, expand it as much as possible. It is a 
loan that has to be paid back, but then also provide some 
assistance for those that need it to apply for it and go 
through the program.
    Mr. Graves of Louisiana. All right. Thank you. I am out of 
time.
    Ms. Taylor, I wanted to ask you a question. All I could 
think about when I heard you talking about the money issue, 
that quote that people who say money cannot buy you happiness 
do not know where to shop.
    But I do have some followup questions with you, and we will 
submit those in writing if you do not mind responding.
    Thank you. I yield back.
    Mrs. Napolitano [presiding]. Thank you, sir, for your 
testimony.
    Mr. Delgado, you are recognized.
    Mr. Delgado. Thank you, Chairwoman.
    I want to thank the panel and, of course, especially thank 
Mr. Mokszycki for making the trip from upstate to tell the 
folks here in DC about the needs of rural communities.
    Eleven counties, that is how many counties are in New York 
19. I represent the third most rural district of any Democrat 
in this body, the Eighth, both Republicans and Democrats.
    As you have articulated, Greenport is one of the many 
communities in New York 19 where residents are not only 
struggling to pay their water bills due to increasing rates, 
but also have seen an increase in property taxes to pay for 
vital infrastructure projects.
    It is for this reason that I am glad to support the WATER 
Act, which creates a water trust fund to be used by the Clean 
and Drinking Water State Revolving Fund loan funds. Legislation 
would also create new grant programs to help rural communities 
improve their water and sewer systems.
    Now, you have talked about technical assistance for small 
and rural communities and how important it is to help with 
complying with the Clean Water Act and assessing the State's 
revolving funds.
    Can you explain how this works specifically? And how has 
Greenport, and I know you talked about this earlier, this 
$85,000 grant, has benefitted from technical assistance?
    Mr. Mokszycki. OK. Thank you.
    Yes, we work with Rural Water quite a bit. They have helped 
us with our Clean Water Revolving Fund loans. They have helped 
us with contacts with people. They have helped guide us on how 
to pursue this.
    We are a small rural community. We do not have anyone on 
staff who does this. We either have to hire an engineer or we 
have to go to someone like Rural Water to help guide us through 
it, and we have a lot of the same problems that the large 
communities do where you do have to go to a number of different 
funding sources and see if you can get funding in order to be 
able to do your projects.
    And, you know, without the money from the revolving loan 
fund, we could not do a lot of these projects. We just simply 
could not afford them. With the American Recovery and 
Reinvestment Act money that we received for our wastewater 
plant, we were under a consent order. We were looking at a 
$9\1/2\ million bill.
    If we had self-financed it, we would have spent $17 million 
over the 30 years of the loan. We were fortunate. We are going 
to end up spending roughly around $4 million for that same 
plant, which made it something that our community was able to 
afford. We would not have been able to afford it without that 
help.
    We were very fortunate to get a zero-interest loan. We were 
extremely fortunate to get half loan forgiveness. That also 
allowed us to turn around and do another water project 
afterwards that badly needed to be done. We had 50 water breaks 
a year. That work needed to be done. There is no way we would 
have been able to do both. It just would have been impossible 
for our community. We cannot afford it.
    We still have a lot of work left to do. We need to upgrade 
our pump system. We need to upgrade our transmission system. 
There is a lot of money still left on the table, and hopefully 
with the SRF money, we will be able to do that.
    We have been raising rates. We have been trying to keep 
them from getting too extreme because our residents just cannot 
afford it. We have a lot of seniors. We used to have a lot of 
industry in our area.
    Mr. Delgado. Yes.
    Mr. Mokszycki. And that is basically what paid for most of 
the infrastructure to go in in the first place, but most of 
that is gone now.
    Mr. Delgado. Right.
    Mr. Mokszycki. And the businesses that we do have are not 
the type that really participate in the community in the same 
way that the industry and the factories that were there before 
used to participate. It is a lot of retail, a lot of small 
stores, but they do not have the kind of resources and funds to 
support the infrastructure like some of the larger businesses 
that we had in the past did.
    Mr. Delgado. Yes, and I appreciate all of that and the 
followup. To piggyback on a comment or a question from one of 
my colleagues earlier on the distinction between public and 
private action and the role that some might believe private 
actors are better suited for in terms of addressing these 
scenarios.
    And I have often found that absent a population center, a 
dense population center that can function as a basis for 
achieving profit in some way, shape, or form, rural communities 
are marginalized as a result because private actors do not have 
the incentive to invest in these communities.
    And one would, therefore, hope that in promoting the 
general welfare and promoting the public good, as is our 
responsibility as detailed in the Constitution, that the 
Government would at that point deem it appropriate to leave no 
one behind.
    Would you agree with that?
    Mr. Mokszycki. I would agree with that.
    Mr. Delgado. Thank you.
    Mrs. Napolitano. Thank you for your testimony, sir.
    Mr. Palmer, you are recognized.
    Mr. Palmer. Thank you, Madam Chairwoman.
    Mayor Condon, a lot of States and localities are using 
life-cycle cost analysis to determine the appropriate materials 
for a particular project. Given the limited resources 
particularly of municipalities, would more frequent use of a 
life-cycle analysis help these funds go farther?
    Mr. Condon. Yes, definitely, and that is the approach we 
took as we went to integration across our city. Like I spoke 
earlier, in my graphic number 2 there, we now look at our 
streets as part of the life-cycle cost, i.e., we used to go in 
and look at, and especially since they were all stove piped 
just like most governments, stormwater, wastewater, and water 
all had different motivations. Now they want to retain less 
stormwater in some cases, in some sections of our streets that 
we want to redo, saved nearly $1 million from treatment by 
redesigning the streets to take into account stormwater 
collection.
    What I always say is old is new again. We used to have 
parking strips. We got rid of those in the 1970s and 1980s. We 
are now back to those. We call them swales, but at the end of 
the day, especially in my part of the country, that is where 
the snow goes and that is where the stormwater goes. So 
definitely life cycle is key.
    Mr. Palmer. You said something in your testimony that 
caught my attention. This is an issue that has been brought up 
in other committees that I have served on, and that is the 
regulatory standards that are being imposed, sometimes the 
technology does not exist to achieve those.
    And plus, even if you do a life-cycle analysis and you get 
what you think is more than adequate, the standards change so 
rapidly that even before you fully paid for what you just did, 
you are having to do it over.
    Mr. Condon. That is exactly our request for a variance, and 
my citizens are paying $200 million in green bonds for the next 
17 years. That was a 20-year bond cycle, which is quite 
conservative in this country, as we are going to 30-, 40-, 50-
year bonds, but our citizens should, as they mortgage this 
green infrastructure, have the benefit at least on that 
contaminant.
    And if I could finish, most of our regulatory environment 
is on quantity not quality. If we were truly to look at the 
quality of our river, our citizens, very environmentally 
minded, would use their resources for other contaminants rather 
than going after the first one on the list that we have done a 
major investment on, but now the standard had moved on us in 
the middle from start of integrated planning to the end of 
integrated planning when I'm supposed to sign a permit before 
the end of the year.
    Now they're saying it went from 170 parts per quadrillion 
now down to 7. So what am I supposed to do as we finish one of 
the most innovative projects in the country and now the 
regulation shifted on me?
    Mr. Palmer. Well, what they have done is they have created 
regulations, and they say that it is black box technology. 
Well, there is nothing in the box, and it is putting an 
enormous burden on cities.
    I grew up in rural northwest Alabama, and it has potential 
to bankrupt cities. Mr. Mokszycki, you mentioned the consent 
order that you are under. I represent most of Jefferson County, 
and that was the largest municipal bankruptcy in the history of 
the country until Detroit, and that began with a consent decree 
dealing with our storm sewers.
    I know that is not the subject of this hearing, but I have 
done a tremendous amount of work on this about creating a 
database transparency, and I am proud to say that every 
Democrat, all of my Democratic colleagues voted for this, to 
bring transparency to this issue so that when someone gets 
elected mayor or Governor or city council, they know what they 
are under and have an opportunity to have some kind of 
mitigation for that.
    You did not elaborate on it, but what you are really saying 
is that you have lost control of the ability to correct the 
situation because it is under the control of a Federal judge or 
a control group or a special master.
    Mr. Mokszycki. Well, yes, you have a plan for how you want 
to proceed with your problems, and suddenly all of the money 
gets shifted to a separate problem because of the consent 
order. It is work that needs to be done, but it also impacts 
all of the rest of the infrastructure that you have to take 
care of.
    You know, in the small rural communities, we do not have a 
lot of resources to help us. It is usually just a few guys, and 
you know, you are not only dealing with wastewater and water. 
You are dealing with stormwater. You are dealing with parks. 
You are dealing with streets. You are dealing with everything 
together, and when you get a consent order and so much money 
and focus has to go to that consent order, all of the other 
utilities suffer for it.
    And unfortunately, we do not have the resources to combine 
everything and do everything at once, and we do not have the 
people to go out and look for these grants, look for these 
loans, and pursue that. We need to get help from outside in 
order to be able to do that.
    Mr. Palmer. Well, I thank the witnesses for their 
attendance today, and I yield back.
    Mrs. Napolitano. Thank you very much, sir.
    Mrs. Craig, you are recognized.
    Mrs. Craig. Thank you so much, Madam Chairwoman.
    As you know, each of you, nonpoint source water pollution 
is a big problem across the country. It comes from multiple 
sources, and unlike point source pollution, that can be traced 
back to industrial and sewage treatment plants.
    Under EPA's 319 program, States receive grants to help 
develop and administer their own programs to address nonpoint 
source pollution. As each of you may know, I have worked with 
my Republican colleague, Representative Brian Mast of Florida, 
and we have introduced a bill that would reauthorize this 
program for the first time since it was established.
    So I would like to start with perhaps Mr. Kricun and 
perhaps Professor Heaps and ask you: How important is it for 
Congress to continue to reauthorize and appropriate funds for 
this program?
    And tell me how it can address these nonpoint sources of 
pollution.
    Mr. Kricun. Thank you, Congresswoman.
    Yes, I mean, it is incredibly important, and thank you to 
you and to your Republican colleague and others who are 
supporting this bill.
    The 319(h) grant program is a very important funding 
program. We have been talking about the Clean Water and 
Drinking Water State Revolving Fund. That really is helpful, 
but 319(h) is a program that offers assistance for things that 
are not eligible for the State Revolving Fund program.
    So we have been using 319(h) funding in Camden County for a 
lot of that green infrastructure, some of it that did not have 
a combined sewer nexus, like building bioswales along 
riverfronts, brownfield cleanups, et cetera, things that were 
not related to our sewer system itself.
    So it is a great supplement and assistance for even in an 
urban area, but especially in rural areas. So I really support 
it and hope that it goes forward.
    Thank you very much.
    Mrs. Craig. Thank you.
    Ms. Heaps. Thank you.
    Yes, I would like to echo what Mr. Kricun said. In the 
Chesapeake Bay watershed, there has been a phenomenal 
cooperation between Federal, State, local governments to try to 
clean up the Chesapeake Bay, but stormwater is the one area of 
pollution that continues to grow, and 319 grants are critical 
to address those.
    In rural Vermont, agricultural pollution is a problem, and 
319 grants are used to help farmers put in important 
conservation practices to reduce their runoff pollution as 
well.
    Mrs. Craig. Thank you so much.
    Ms. Flowers, I just want to start this next question to 
you, but I want to first say thank you for your work with EJI. 
I had the opportunity to visit your State and your city here 
this past weekend with Congressman John Lewis and walk across 
the Edmund Pettus Bridge with him in Selma.
    So it was stunning, frankly. I come from a suburban, half 
suburban, half rural district in Minnesota where we have been 
investing in certain things, and to see the inequities and 
disparities in your community, every American should see that, 
and I think it would make such an incredible difference.
    So, Ms. Flowers, in your testimony you noted that the U.S. 
census once captured information regarding whether homeowners 
were served by municipal treatment or septic systems, but the 
question was taken off after the 1990 census.
    Can you speak a little more to what kind of data that 
collection would be useful to properly assess the wastewater 
infrastructure needs in the country?
    Ms. Flowers. Well, thank you for asking that question, and 
thank you for coming to the area this weekend.
    That information, we cannot solve the problem without 
understanding and quantifying what the problem is. Actually one 
of the observations that I have made since I have been working 
in rural communities is that after the census stopped going 
from door to door, I think a lot of rural communities were left 
out.
    You cannot do a qualitative analysis of people in rural 
communities by just looking at addresses. For an example, in 
Lowndes County, there may be one address and five homes there. 
But that is not going to be counted.
    And whenever funds are distributed or they design projects, 
they look at that kind of data, and I think in that data there 
are gaps in rural communities.
    We have what we call a rural lexicon, and what the rural 
lexicon means is that a lot of the policies are written in such 
a way that it excludes rural communities. For example, it says 
it is a municipality of so many people. That automatically 
excludes a whole lot of rural communities.
    So we think that in terms of the census, the data that 
could be collected by finding out how many people are on rural 
wastewater systems or septic systems will help us work on the 
solution a lot better because I think right now when people 
look at it, because we are in the news, they think if they 
solve the problem in Lowndes County, Alabama, it solves it in 
America. That is not true.
    Mrs. Craig. Thank you so much.
    And I yield the balance of my time, Madam Chairwoman.
    Mrs. Napolitano. Thank you, Mrs. Craig.
    And I will yield to my cochair for the rest of the 
questioning.
    Mr. Westerman. Thank you, Madam Chair.
    And I recognize the gentleman from California, Mr. LaMalfa, 
for 5 minutes.
    Mr. LaMalfa. Thank you both.
    My part of northern California is the area that includes 
what is known as the Camp Fire in what was Paradise, 
California, as well as many other fires. We had the Car Fire in 
Redding, California, as well.
    The damages that are being attributed to the Camp Fire are 
being estimated at $16.5 billion at this point, which would be 
the largest disaster anywhere in 2018 in terms of cost.
    Nineteen thousand structures, fourteen thousand of them 
being homes, residents trying to determine if they are going to 
come back to the area. There is a good cleanup phase going on 
right now, and things are going reasonably well in that regard, 
but the intention is to rebuild the town, and where many of us 
are committed to seeing that it is done.
    But we need an improvement in the process there. It is one 
of the largest towns anywhere that was nearly entirely on a 
septic system, and we know what kind of problems there are with 
compliance and all that, and so it needs to come back with a 
good sewer system on that, especially for the main spine area 
of the town and branching out where it is practical.
    So the Clean Water State Revolving Fund and other 
wastewater grants all require a local match. So I guess my 
question, and I will ask Mr. Condon and Mr. Mokszycki what they 
think about this; the local match for a place where basically 
not very many people live right now. The population of about 
30,000 is decimated. You may have a few hundred living in the 
town, and it will take a while to rebuild that.
    But should we rebuild the same old infrastructure? Should 
we improve at this time when you have unfortunately, but 
indeed, I guess there is opportunity, to rebuild with better 
infrastructure?
    They are talking new underground on the power lines, but 
indeed, coming back with a sewer system, you have got it torn 
up. You might as well do it right.
    Outside of asking FEMA for additional money, what can be 
done for a community that has been devastated like this, since 
they do not presently have the tax base to do so right now?
    So you two gentlemen, please.
    Mr. Condon. Well, I will start.
    Of course, we are a larger city, but of course, we are in 
the middle of rural America in eastern Washington, northern 
Idaho area, and it is becoming more and more this way, that the 
Federal and State government requires the matching funds, which 
is very difficult.
    I alluded earlier. I come from the Fifth Congressional 
District, represented by Congresswoman McMorris Rodgers, but 
formerly by Speaker Foley, and at that time, there was $100 
million, $5 million a year to eliminate our septic tanks in the 
region because we are on a single source aquifer. That was the 
grant.
    So that went over a 20-year period. We had an innovative 
program in the region to deal with that. So as you look at 
these programs, it really gets back to, especially for the 
smaller communities, grants, low interest loans. But as soon as 
you start putting in the match requirement, it becomes much 
more difficult, to say the least, especially since there are 
multiple sources that we usually have to go after to get these 
dollars.
    So where does the match count? And whose match counts 
where? And what percentage of that match? And it becomes even a 
more bureaucratic Rubik's Cube to put these funding sources 
together. So it becomes even more difficult for the smaller 
communities, definitely.
    So the more you can simplify it, the more you can look at a 
single source for integrated projects, someone, you know, as 
they go to rebuild an entire town, where are the dollars that 
come from many different sources, but you only have to apply to 
a single grant account at the Federal level or at the State 
level rather than making these communities go across multiple 
different funding sources?
    Thank you.
    Mr. Mokszycki. Thank you.
    Yes, I agree. The other thing is that, you know, obviously 
your situation is a particularly difficult situation, and there 
needs to be something in the program that allows for these 
difficult situations.
    It makes sense to do these projects now. It will be much 
more cost effective to do it now, and you know, the money 
should be set aside so that it does help the people that are 
most in need, and I would think that this situation should be 
something that should qualify for it.
    Mr. LaMalfa. Yes. I am sure if, you know, the population 
was there, they would be willing to have that discussion on how 
to come up with a match. But we need something unique in this 
and other disaster situations.
    So what kind of regulatory changes can we make to reduce 
the cost of delivering these systems, since the projected need 
over the coming next 20 years is almost triple what has been 
invested in the last 50 years?
    So would you touch on that please, Mr. Mokszycki?
    Mr. Mokszycki. Well, I think one of the biggest things as 
far as regulatory is to, you know, rather than having the 
entities try to use enforcement to force people to do upgrades 
without having any sort of financing to back that up or some 
help for the local communities to do it, to try to use the best 
technologies out there and try to fund that and make 
improvements, not necessarily just solve the problem, but try 
to solve the problem long term.
    We want to try to make permanent solutions, not just get 
out from underneath an enforcement.
    Mr. LaMalfa. Right.
    Mr. Mokszycki. We want something that is going to last, 
something that is going to be long term, something that we do 
not have to come back and redo.
    So funding needs to be adequate to allow communities to be 
able to fix their problem and put something in that is going to 
last.
    Mr. LaMalfa. Modernize it, but at the same time we have to 
be cost effective in doing that and hope there are less 
roadblocks and unneeded costs and hurdles.
    So I had better yield back. Thank you.
    And thank you, Mr. Chair.
    Mr. Westerman [presiding]. The Chair now recognizes the 
gentleman from California, Mr. Lowenthal, for 5 minutes.
    Dr. Lowenthal. Thank you.
    I had two sets of questions. One has to do with the NPDES 
permitting process, and the other one about what I believe is 
the critical need to capitalize the State Revolving Fund, and I 
am going to ask about that.
    But the first one is about a year ago, maybe a little less, 
after a hearing in this subcommittee, Congressman Garamendi and 
myself wrote a letter to the committee saying that we wanted to 
follow up that hearing on the need to modernize the National 
Pollutant Discharge Elimination System permitting process, the 
NPDES permitting process, by allowing States who have a 
delegated authority to administer the permitting process to 
issue permits for up to 10 years rather than just 5 years.
    And it gets to what Mr. Woodall said. It would not be 
mandatory. We do not request mandatory moving it up, but that 
we reward good actors really and those that are trying to 
comply by actually allowing them to do the work that they need 
to do.
    So I am wondering, first from the mayor, Mayor Condon, and 
also, I think, Mr. Kricun, what is your experience? How 
important? Is this a good step?
    Should this committee really be working on something like 
that, setting in legislation so that those actors who are good 
actors have an opportunity to extend it?
    And how important is that to extend it?
    So I ask you.
    Mr. Condon. In two words, very important. To give certainty 
to our ratepayers, to give certainty to local governments to 
implement these regulations, I use the example in our case 
where we have prudently bonded some $200 million of a $350 
million project. There are 17 years left in that payment.
    For that regulation, now, mind it: one of only hundreds if 
not thousands of regulations on this issue. We should be 
granted a variance to the best science that was available, the 
best equipment that is available; that that downpayment by my 
community has been made.
    And so how do we then go through the permit process to give 
that security to our citizens?
    Technology is phenomenal, and we spend inordinate amounts 
of money getting to the best technology. The good actors should 
be rewarded with that. And so the movement to 10 years would be 
phenomenal, or the technology or the investment that would have 
been made.
    I would further that with and encourage this committee in 
your oversight that it is universally applied across the 
country, especially in delegated States. My State has never had 
a variance based on the regulations created both here in 
Congress and then also those that are at the agency level.
    I cannot say this enough: that the good actors get rewarded 
even in the case where there are delegated States. And although 
I believe in the States' rights and that ability, but also a 
real reality of what is happening across this country.
    Mr. Kricun. Thank you, Congressman.
    First of all, I applaud you and your colleagues for the 
thoughtful way of looking at this NPDES permit situation.
    To me, I think that the length of the permit cycle is not 
as critical as the ability to be able to modify the permit 
should technology or external conditions change. If there is 
less rigidity, then the permit duration does not really matter.
    My concern, as an environmentalist as well as a water 
utility manager, is that good actors and bad actors are 
sometimes determined by the leadership, and so a utility is not 
monolithic. So you might have a good actor, but then the 
leadership might change, and it may not be a good actor. And so 
you have to be careful about that.
    But I think there needs to be flexibility within the 
permitting system. For example, blending is a really good 
example of that. If our permit was more flexible, we could 
actually take more stormwater flow at our treatment plant and 
reduce combined sewage flooding and overflows if we were 
allowed to mix the flow in in a different way.
    It is more of a permanent rigidity, which is hard to 
explain in a short time, but the point is I think greater 
flexibility is the thing that really good actors need, and that 
would be my recommendation, sir.
    Dr. Lowenthal. Yes. And just quickly, Mr. Kricun, you know, 
in your testimony earlier, I think, how the SRF loans allowed 
your agency to keep water rates down, can you expand? How does 
it affect affordability?
    I know in Orange County, we have used it a tremendous 
amount. It has been extremely successful in our groundwater 
replenishment system.
    But tell me how does it? I know it needs to be briefly, 
just a few seconds.
    Mr. Kricun. Basically the State Revolving Fund allows us to 
upgrade the equipment in a way. So the new equipment has lower 
maintenance cost, lower energy cost because it is newer. So the 
operations and maintenance savings are greater than the annual 
debt service cost because of the low interest rates.
    That is how we are able to upgrade the performance, protect 
the environment and the public health, and hold the rates down.
    Dr. Lowenthal. Thank you.
    And I yield back.
    Mr. Westerman. The Chair now recognizes the gentlewoman 
from Puerto Rico, Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you.
    And thank you for the opportunity, all of the members of 
the panel.
    And I think I will go in the same line Mr. LaMalfa, my 
friend from California, just made because of the disasters in 
California, and I thank you for taking the opportunity to 
explain what happened with Hurricane Sandy.
    And we in Puerto Rico, and I am the only representative for 
the 3.2 million American citizens living there, and one thing 
is before the hurricane and another one after the hurricane.
    In our case, we are dealing with different situations as 
well. We do have an Oversight Board on the island that limits 
and actually just capped to 50 percent the capital investments 
in infrastructure for the next 6 years, and when we identify 
and the Government of Puerto Rico identifies more than $769 
million needed just to repair the water infrastructure on the 
island, and now that it is just capped to $13 million every 
year for 6 years, we will never recover from that.
    So we have got different experiences that I want to ask for 
your advice here. One thing is the money that we receive from 
FEMA in order to repair a lot of these water systems. The other 
one is that we are also under the pressure of restructuring the 
debt of the island, and that limits our opportunities to 
actually access a lot of the funds and matching the 
requirements for the communities.
    We have got more than 170 community separate water systems 
that attends more than 89,000 people on the island as well.
    The main issue right now that as, Mr. LaMalfa was talking 
about, we may have been OKed the money by a discount resident 
to fix a lot of the failures or infrastructure damage by the 
hurricane. And actually this committee recommended to pass an 
amendment that I was pushing for that the staff wrote in order 
to build back better, not the way it was before.
    But right now, we have gotten a memo from FEMA saying that 
that will cost more money immediately, and that will just fix 
what was there before the hurricane, and that was not the 
intention of the law.
    So my question for the panel here, and the mayor as well, 
is: How do we find a balance to build back better, because the 
community needs it, in terms of the access to not just drinking 
water?
    Actually we are in a drought right now. So there are water 
restrictions in Puerto Rico in some areas as we speak today 
because there is a lot of investment that needs to be done, and 
we just paid our debt with the revolving systems just February 
20th.
    So we are showing the real need of getting more access to 
that money. How do we make changes? How can this Congress 
directly make changes in order for communities to match that 20 
percent, connecting the FEMA when disasters are happening, even 
by another law of Congress in our case, the Oversight Board, to 
make that infrastructure better?
    I think the whole point of this hearing is how we can get 
better infrastructure in water services, clean water and 
wastewater as well.
    So any recommendations would be highly appreciated.
    Mr. Kricun. Well, thank you, Congresswoman.
    I have spoken with Pete Lopez, the EPA Regional 
Administrator. New Jersey and Puerto Rico are in the same 
region, along with New York.
    And our wastewater treatment plant is almost exactly the 
same size as PRASA's largest treatment plant. So he asked me to 
speak with PRASA because what we are doing to get off the grid 
and develop a microgrid for Camden City's most vulnerable 
facilities, like hospitals' drinking water plant, fire, police, 
schools, the jail, et cetera, could be replicated in Puerto 
Rico. In fact, I think it could be done more effectively 
because of the water-energy nexus is an even greater 
opportunity in Puerto Rico because of your high energy costs.
    So I have been talking with PRASA, and I would be glad to 
speak with you afterwards, but I think there is a tremendous 
opportunity to do a project that would take your water, your 
sewage and sludge, and turn it into energy, underground, 
resilient energy, which then could be used to protect the 
island against power outages from storms like last summer.
    I think there is a tremendous opportunity there. Also, food 
waste conversion into energy, and it is definitely affordable, 
and the energy savings would pay for the facility costs. I have 
already looked at it.
    Miss Gonzalez-Colon. I know I am running out of time, but 
if we can amend or even have reading recommendations, I will be 
more than welcome to have it.
    And we never talk here about generators. Six months after 
the hurricane we were drinking water because we use generators 
in our power plants, and we still do it in some areas.
    So thank you, and I yield back.
    Mrs. Napolitano [presiding]. Reclaiming my time, thank you, 
Mr. Westerman.
    He has to depart.
    Mr. Westerman. Thank you, Madam Chairwoman.
    Mrs. Napolitano. Mr. Carbajal is on.
    Mr. Carbajal. Thank you, Madam Chair.
    And thank you to all of you for being here and sharing your 
testimony with us.
    Mr. Kricun, thank you for your willingness to advocate in 
support of much needed water and wastewater infrastructure 
resources for local government.
    I served in local government for many years. So I really 
appreciate you more than ever today.
    In your testimony, you mentioned Hurricane Sandy in New 
Jersey and hurricanes in Houston, Florida, and Puerto Rico. You 
used these examples as evidence of how ill-equipped our 
existing water infrastructure is to deal with these extreme 
events and climate change.
    I represent the central coast of California. Last winter, 
our region experienced a devastating wildfire season followed 
by a very, very heavy rainfall event, which triggered a deadly 
debris flow that claimed the lives of 23 of my constituents and 
ruptured the main water line on Montecito.
    This left many of my community stranded and without access 
to clean drinking water for days. Based on your experience in 
local government, what are the pros and cons of creating a 
dedicated Federal program to help communities strengthen the 
resiliency of the water and wastewater infrastructure against 
these threats, one?
    And, two, what are the challenges that local governments 
experience in trying to fund some of these water resiliency 
projects?
    Mr. Kricun. Thank you, Congressman.
    For the first question, it is an absolute must. I mean, we 
have already seen, and I know there is a difference of opinion 
between whether climate change is real or not. Put that aside. 
Climate history has shown that our infrastructure as it is now 
is wholly inadequate for how the climate is now.
    So we must build resiliency, and then there is a quite a 
bit in the body of science that shows that the climate will 
only worsen and that problem will only be exacerbated. So I 
think it is critical to have resiliency funding for vulnerable 
communities, both in arid communities or in areas where there 
is too much water.
    And I could not support that more and hope that the 
Congress will support that.
    In the meantime, we must look for opportunities. If you are 
in an area where there is too much water, like in the East 
where we have flooding issues, or in Puerto Rico or Florida, 
Houston, we need to upgrade our infrastructure. We need to 
expand it. We need to build for rising river level issues.
    Green infrastructure is very important, and that should be 
funded. Our State does fund it, but not all States do. They 
fund it through the SRF.
    To soak up the stormwater in arid States, you know, there 
are measures that need to be taken as well. I mean, I think 
that we are doing the future of our country and our children 
and grandchildren a disservice if we do not plan for this now 
and try to fund to protect, you know, the vulnerable 
communities in our country.
    Mr. Carbajal. Thank you so much.
    I yield back.
    Mrs. Napolitano. Thank you, Mr. Carbajal.
    Seeing as there are no other questions from the Members of 
Congress, we will go to a second round if you do not mind. This 
is a very important issue, and we want to give it as much light 
as we can.
    So I will start with a question for Mayor Condon.
    One of the things that you mentioned was the integration of 
your streets to collect more water. Would you mind elaborating 
on that?
    I think that is an important thing for us to know, and some 
of my cities are doing it, but I would like to know more about 
it.
    Mr. Condon. Thank you very much, Madam Chair.
    Yes, several years ago we took this integrated idea and 
took it throughout our city. We now look at our streets as 
three dimensional, as what is important underneath is just as 
important as what is on top, and we functionally went through 
the process of handing our Streets Department from the 
operational government over to the utilities side of our 
operation, meaning that those same engineers that design our 
water, sewer, stormwater system now design our streets.
    We used to have that all done separately. Not only that, 
but you can think of it, and those of us in local government, 
we get notified when they see a brandnew street. A year or two 
later the Utility Division is out there cutting it open to put 
in new water mains or new sewer mains.
    It took us 3 years in transition, but now a lot of our 
street redoes are done based off of what the infrastructure 
underneath needs to be done, saving all the money from 
reconstructing that street after utility; not only that, but 
now our investor-owned utilities are lining up their capital 
projects with ours so that they are redoing their capital at 
the same time.
    Mrs. Napolitano. Well, I'm glad to know that because at one 
point I had asked when I was mayor of a city why the utilities 
did not inform us when they were going to break the streets up. 
Guys, we could channel all of that energy and save money and do 
it right.
    But now that it is happening, maybe more people will take 
notice of that.
    Thank you very much for the answer.
    Mr. Mokszycki, the Clean Water Act once authorized grants 
for water infrastructure, but switched primarily to loans 
through the Clean Water SRF. You suggested our SRFs should be 
allowed to use grants in the form of loan forgiveness and zero 
interest.
    I agree with that. Can you expand upon the point?
    Mr. Mokszycki. Well, yes. Well, all I know is that for us, 
if we did not have the loan forgiveness and the zero-percent 
interest, we would not have been able to construct a plant that 
would have completely solved our problem as far as discharging 
wastewater to the local creeks.
    So it is very important, especially for the small rural 
communities. They just do not have the resources to fund 
adequately what they need to do in order to solve the problem 
long term.
    What we are looking to do is, you know, we need the zero-
interest loans. We need these grants to be in place for the 
most vulnerable communities. We were fortunate to get that 
money, and it allowed us to do some of the other work that we 
needed to do with our water lines.
    More to the point, we had the same problem with our Highway 
Department, and our water and sewer utilities are separate, and 
there is nothing more disturbing to a highway superintendent 
than going out and watching us put a nice, big hole is a 
brandnew paved road because the water lines are so inadequate 
and they fail so often, but they just could not wait to repave 
the road and, you know, 1 week later, 2 weeks later, you are 
out there digging these roads up.
    Stuff does need to be coordinated, but we also need to be 
able to afford it, and without the Clean Water Act funds and 
without the grants and the zero-interest loans, there is just 
no way these small communities can afford it.
    Mrs. Napolitano. Thank you for your testimony.
    Mr. Kricun, you suggested the SRF is a proven successful 
resource for water utilities to replace and upgrade the 
infrastructure while keeping the rates affordable. Please 
expand upon that point.
    Mr. Kricun. Thank you, Congresswoman, Chair.
    So we have used the State Revolving Fund since its 
inception in 1987 and borrowed about over $1 billion in 
funding. Much has been paid back; still borrowing more.
    We have rebuilt our entire wastewater treatment plant, 
upgraded Camden City's combined sewer system to the extent that 
we will be able to eliminate combined sewage flooding, the same 
kind of flooding Ms. Flowers talked about. We will be able to 
eliminate that in Camden for up to the 1-inch storm by the end 
of 2020, plus using that SRF funding to be off the grid and 
less vulnerable to power outages, all without raising rates.
    Our rate was only $337 in 1996 per household per year. It 
is $352 today. So in 23 years, it has only gone up by $15 per 
year because of the SRF. So that is proof that the SRF works.
    We are paying the loan back, but because of the loans, we 
were able to upgrade our system without raising rates. And like 
I said before, Camden City has a median income now of $26,000. 
They cannot afford a raise, but yet they deserve clean water 
and they deserve freedom from sewage in their basements. So 
that is how the SRF works.
    Mrs. Napolitano. Thank you very much.
    Mr. Lynch, you are recognized.
    Mr. Lynch. Thank you, Madam Chair. I really appreciate you 
holding the hearing, and the ranking member. I appreciate your 
holding this hearing on a very important issue.
    And I want to thank the witnesses. You have been very, very 
helpful in developing our response.
    I represent a district in Massachusetts on the Atlantic 
Coast that stretches from the city of Boston, one of the oldest 
cities in the United States, down to Quincy and Weymouth, down 
all the way down the south shore to towns like Cohasset and 
situated on the Hull that are impacted regularly by climate 
change.
    And there are also some infrastructure issues on their 
water supplies because of the age of those systems. It is 
heartening to hear the concern and the commitment to the State 
Revolving Funds.
    We have done quite a bit of work in Massachusetts. We have 
funded the Deer Island water-sewage treatment facility. Up 
until that point, since the days of Massachusetts Bay Colony, 
they were basically flushing their wastewater out into Boston 
Harbor, and so that has dramatically changed.
    Now, a couple of years ago at Easter sunrise service at 
Castle Island in South Boston, it is a beautiful area 
overlooking the harbor, and if there were not 900 people there, 
no one would believe it, but we actually saw a small school of 
harbor dolphin going just offshore, and that is the clearest 
sign that we have ever seen. Never in my lifetime has that been 
the case.
    But it shows you how clean that water is getting because of 
the investment. It largely has been a State and local and a 
municipal investment though, and so we have got some of the 
highest water rates in the country, you know. Maybe because we 
have been doing the wrong thing for so long.
    But the investment on the Federal side is so important to 
us, and you know, that has been reflected in all of your 
testimonies. Ms. Taylor, you hit the nail on the head. You 
know, if we invest in this, do it the right way, and we have 
got ratepayers out there.
    You know, some aspects of our Committee on Transportation 
and Infrastructure, because of the public mission, they will 
never make money, but this can pay for itself. If we just get 
some help, just some very, very low-interest funding, you know, 
bonding, you know, we can pay this over time.
    But we are dreadfully behind schedule on some of these 
improvements, and you know, Congress has to take note of this. 
We cannot leave this for the next generation. This is something 
that has happened on our watch.
    And I really appreciate the mayor of Spokane coming here 
because you are dealing with it, you know, right at ground 
zero, and it is real to our mayors, and that is who I am 
hearing from.
    I have meetings with the EPA and others with my mayors to 
try to resolve this city by city and town by town. So we could 
surely use your help.
    Madam Chair, I am glad that you have been such a champion 
on this as well, and I know that your passion is shared by 
Chairman DeFazio. And I think we are at a good place, 
Republican and Democrat on this committee and in Congress, 
about the importance of providing that support for our water 
systems and critical infrastructure.
    So I am very happy to hear your perspectives. I think it is 
very important that you came here today and shared those 
visions with us.
    And I yield back the balance of my time. Thank you.
    Mrs. Napolitano. Thank you, Congressman Lynch.
    Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    I will go back to the question I was doing before, and I 
know we never got enough time to answer. So, Mayor Condon, can 
you talk about what other measures can be taken in order to 
reveal not the way it was before, but in a better way?
    And I will combine that question. I was looking into your 
ALICE form, and I would like to know how do you deal with 
people that are under the poverty level line. Because in Puerto 
Rico, the household median income annually is $19,000.
    So our public deliveries rose to 43 percent, which is 
higher than even Mississippi. So how do you manage that and how 
do you apply using lower income from communities as well?
    Mr. Condon. Quickly, I wrote down your Build Back Better. I 
like that alliteration.
    So first of all, ALICE is done across the country, every 
community, and so it is eye opening when you really see that 
budget, what it means, and there have been comments about, you 
know, your base rate use versus your utilization rate, 
especially on the water side.
    I was elected primarily because of water rates going up 
double digits on the consumption side. I do give some credence 
to the idea that the base rates if they go to high, people 
cannot negate that.
    I would also suggest though if it is in our case so overtly 
on the utilization side, imagine who is using more water, those 
people that cannot afford brandnew, to be honest with you, 
things like toilets, brandnew appliances that use dramatically 
less water, and so your families, your senior citizens, your 
low income inadvertently use more water.
    Those growing their own food at their house, some of my 
areas that voted for me because of that water rate increase, 
our senior citizens that have large gardens. So they are doing 
exactly what we want, reducing food deserts, using natural 
foods.
    So when you go to water consumption only rates, it also 
causes a problem, and so as we go down this path, I would 
suggest that we look at that. It is a whole picture.
    The second is, and I go back to it again, is the idea 
especially as you build back an entire community, is to look 
across the Federal agencies and look at opportunities where 
those dollars can be utilized together, but not necessarily put 
that burden on the localities to figure out where in Federal 
Government that they can get dollars, but rather look across 
the Federal Government and truly authorize an account that is 
for integrated projects from streets to utilities. This is 
basic infrastructure.
    And done together, our private sector and our public sector 
will do the right thing. Now we have, Chairwoman, as a mayor, 
you probably saw this. We have people coming together in city 
government that said, ``You know what? If I had authority over 
the entire right-of-way, look what I can do.''
    And my citizens are getting walking paths they never got 
before. They are getting pervious pavement trails, and that all 
remove stormwater from the system rewarding our stormwater 
utility because it is not coming into the treatment plant.
    The previous plan was a total gray solution, spend 
millions, hundreds of millions on the sewage treatment plant. 
Now we did not have to spend as much because less in does not 
need to be then treated.
    And so really looking at integrated solutions, but for the 
Federal Government to reward that with, yes, funding for 
integrated projects and also permits that allow this sort of 
innovative thinking.
    Miss Gonzalez-Colon. When you are using new technology, is 
there any legal barrier to improvise or improve, if I may say, 
technology that you use in water systems?
    Mr. Condon. Not that I am aware of. I will ask our experts, 
and I can submit that for the testimony.
    One of the more recent ones we are using now is satellite 
imagery for leakage, where rather than literally today, there 
is a truck that goes out in Spokane some 60 square miles of a 
city, and they listen to the street for water, and that is the 
current technology.
    They have a picture of me listening to the street. It never 
popped up on social media, but a giant stethoscope because they 
listen for certain sound waves.
    Now the technology we are literally just testing out, one 
of the first in the country, is using satellite imagery to look 
at leakages. So phenomenal possibilities in technology.
    Miss Gonzalez-Colon. Thank you.
    I yield back, Madam Chair.
    Mrs. Napolitano. Thank you.
    One more question I have for Ms. Flowers.
    One of the things that we talk about is the pollution of 
our water, and we have not even scratched the surface on 
industrial, farm runoff, and drugs/opioids. But essentially, we 
have got to deal with the first problem we have, which is 
dealing with delivery of water, clean water, potable water to 
residents.
    What would you ask us to do?
    Ms. Flowers. Well, I think we just partnered with the 
Alabama Rivers Alliance, and we partnered because they have 
found at least on the State level where the big polluters are 
getting away with polluting the rivers and the streams.
    And as I mentioned in my testimony, homeowners were being 
criminalized for having failing septic systems and no septic 
systems at all.
    So I think one of the ways in which we could deal with that 
is to try to find a way to fund or get funds to those small 
areas that do not have access to the finances to put 
technologies in place to treat wastewater.
    In our area, I know everybody has talked about the match 
that is required. There is no tax base. So, therefore, there is 
no match, and they will not be able to apply and receive 
funding.
    So there should be something that will allow for those 
parts of America that have been marginalized for so long to be 
prioritized where they can have access to these funds as well 
because to make them available and then people do not have 
access to it is not going to clean up our rivers and streams. 
We are going to still have the same problems that we have right 
now.
    Mrs. Napolitano. Ms. Taylor?
    Ms. Taylor. We believe that it is the Federal Government's 
responsibility to guarantee access to clean water and 
sanitation. And given that priority, everything else is about 
best practices, and I have heard the mayor, my colleagues on 
this end. I have written a million notes. I am going to take 
all those things back. The bottom line is that our folks are 
drinking water that is not clean in Detroit and Highland Park, 
and other places we do not even have dirty water to drink.
    So this is the Federal Government's responsibility to find 
a way to make this happen, and I trust with all of these smart 
people here, we can do this. We can do this.
    Mrs. Napolitano. They need to share best practices.
    Ms. Taylor. We can share best practices. I am prepared to 
send over to pick anybody up and bring you to Detroit so we can 
talk about this. Because we can do this.
    Mrs. Napolitano. We can if we all work together.
    Ms. Taylor. Yes.
    Mrs. Napolitano. Ms. Heaps.
    Ms. Heaps. I would echo what my colleagues up here have 
already said. We need for polluters to be held accountable. We 
need resources for communities.
    Just to answer Mr. Lowenthal's question, I was not asked, 
but I think 10 years on an NPDES permit is a terrible idea. I 
would have told Mr. Lynch that in Gardner, Massachusetts, the 
sewage treatment plant there had its permit expire in 2014, and 
it still does not have a new permit yet.
    So I would say that also Mr. Kricun mentioned we do not 
know who the good guys and the bad guys are because we have too 
much turnover in these organizations.
    So I would support everything that has been said here and 
oppose 10-year permit conditions.
    Mrs. Napolitano. Well, thank you very much, panel. You have 
been very enlightening, and it certainly is a pleasure hearing 
from people who are affected. It is important for us to have 
those testimonies in the record.
    The need for action, the need for more funding, investment 
in underserved communities, all of us working together can help 
address the critical issue of water, infrastructure, and 
potable water.
    In closing, I ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions to be included in the 
record of today's hearing.
    Without objection, so ordered.
    I would like to thank you, witnesses, again. Thank you very 
much.
    I ask unanimous consent that the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing
    And Miss Gonzalez-Colon has information on Puerto Rico she 
would want us to have included in the record?
    Miss Gonzalez-Colon. That is correct.
    Mrs. Napolitano. So ordered, without objection.
    Mrs. Napolitano. I would like to thank you, again, very 
much. You have been very kind, and it has been a long hearing, 
but thank you again.
    If no other Members have anything to add, our committee 
stands adjourned.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Statement of Hon. Eddie Bernice Johnson, a Representative in Congress 
                        from the State of Texas
    Thank you, Mr. Chairman.
    I am pleased that the Chairman is holding this hearing today, as it 
allows us to discuss the urgent need for federal investment in order to 
modernize water infrastructure and make communities more affordable. 
The CWSRF assists communities by providing low-cost financing for a 
wide range of wastewater, stormwater, reuse, and other pollution 
control projects. Recent streamlining of the program provides year-
round funding as projects are included in the CWSRF Intended Use Plan. 
Through Fiscal Year 2018, the program has committed approximately $8.7 
billion for projects across my home state of Texas.
    As the world's population continues to grow and urbanize, advanced 
water treatment and sanitation will be ever more essential. We must get 
the water equation right if we have any hope of sustaining the world's 
growing populations and urbanization.
    But our water infrastructure doesn't just need funding, it needs 
reinvention. In our nation, it is no secret that our water 
infrastructure is struggling to keep up with current demands, much less 
meet tomorrow's needs. Issues such as the water crisis continuing to 
plague the city of Flint, Michigan, where children are being poisoned 
by lead in the water supply, elevate the need for urgent and swift 
action.
    I have been an advocate of water infrastructure by supporting 
projects such as the Bois d'Arc Lake project--the first major reservoir 
to be constructed in Texas in 30 years. I continue my support for the 
U.S. Army Corps of Engineers and their mission of Flood Risk Management 
and Life Safety in DFW and the surrounding areas. Of note, the Dallas 
Floodway, which enhances Flood Risk Management for the city of Dallas 
by raising levy heights and constructing interior pump stations, and 
the Dallas Floodway Extension, that provides new levies for parts of 
south Dallas and restores some of our precious wetlands.
    I have also supported the U.S. Army Corps of Engineers when a 
negative article was published about the Lewisville Dam. We worked 
together as the Corps finished the Dam Safety Modification Study and 
started the Dam Safety Modification Project. This partnership resulted 
in a project that started a full two years ahead of schedule and was 
fully funded.
    The reality is that we need to repair, replace, and extend our 
water infrastructure, and that we need more money to do it, especially 
at a state and local level. But it's not just a matter of finding the 
money. We also need to think strategically about what we put the money 
toward. It is time we target those investments for needs today and 
tomorrow.
    The easy course would be to repair, rebuild, and extend our water 
infrastructure using the technologies in use today. Engineers know how 
to design and build it, vendors can make money selling components 
they're comfortable making, and operators know how to run it. But will 
it equip us to handle the water needs that communities will face twenty 
years from now, fifty years from now? That is the question we must 
address.
    Thank you. I yield back.



                                Appendix

                              ----------                              


     Questions from Hon. Grace F. Napolitano for Hon. David Condon

Question 1. Your testimony highlights the water and wastewater 
affordability challenges in communities that I represent. In addition 
to the integrated planning law and Clean Water State Revolving Fund 
reauthorization which I have pushed for, I also contend that the 
Federal government can do more to help individual households address 
water affordability concerns. I understand that you have personal 
experience with the Low Income Heating and Energy Assistance Program, 
or LIHEAP.
    In your view, could a similar concept work in addressing low-income 
household affordability challenges for water and wastewater?
    Answer.
    A.  The history of federal financial assistance to local government 
for water and sewer has gone from construction grants (80% Federal, 20% 
local), to low interest State Revolving Fund (SRF) loans (Cities pay 
the loans back with interest), to WIFIA credit support (which is also 
additional long term debt carried by cities). All of these financing 
mechanisms highlight the Congressional retreat from cities. The 
question must be asked regarding how does an additional annual 
appropriation that is greatly uncertain address the fundamental problem 
with the Clean Water Act regulations and the declining ability of large 
portions of the population to afford services that comply with a strict 
set of requirements?
    B.  The actual history of a LIHEAP type approach related to 
residential heating and cooling does not signal that applying it to 
water and wastewater will provide the needed aid to the right 
households, or enough households. For example, the LIHEAP programs, as 
implemented in the states, often rely on a lottery system in an effort 
to stretch limited resources among a pool of households, so the aid 
does not get extended to all who need it.
    C.  Another concern is that authorizations do not equal 
appropriations, and the uncertainty of continuous funding provides some 
members of Congress a sense of having solved the affordability problem 
by kicking the pay-for can down the road to the appropriators, but 
ultimately the consumer.
      a.  One east coast city within 100 miles of Washington, DC can 
serve as an example of how much subsidy is needed in a LIHEAP type 
program for wastewater to make low income households on par with cost 
per household for wastewater at no more than 2 percent of actual 
household income.
      b.  Table 1 examines:
        i.  How 2% Median Household Income (MHI) impacts all income 
levels in this city; and,
        ii.  The level of subsidy required to limit household 
wastewater charges to 2 percent of actual household income.
      c.  2% MHI in this city roughly matches the income group making 
$42,500/year. Some 30 percent of Households spend more than 2% of their 
annual household income for wastewater services: the lowest income 
group would be required to spend 9.43 percent of their annual income 
for wastewater services.
      d.  In this case, wastewater charges annually are $650.
      e.  The annual subsidy required to limit cost per household to 2 
percent of actual annual income would cost $9.7 million.
      f.  Table 2 examines:
        i.  How 4.5% MHI impacts all income levels in this city, (4.5% 
is related to the EPA expectation that households should spend 2% of 
their income on wastewater service and 2.5% of income for drinking 
water); and,
        ii.  The level of subsidy required to limit household 
wastewater and drinking water charges to 4.5 percent of actual 
household income.
      g.  4.5% MHI in this city roughly matches the income group making 
$30,000/yr;
      h.  Some 30 percent of Households spend more than 4.5% of their 
annual household income for wastewater services: the lowest income 
group would be required to spend 13.0 percent of their annual income 
for wastewater and drinking water services.
      i.  In this case, wastewater and drinking water charges annually 
are $1,300.
      j.  The annual subsidy required to limit cost per household to 
4.5% percent of actual annual income would cost $45.8 million.
    D.  In Spokane, LIHEAP energy assistance is available once per 
heating season per household as long as funding is available. Grants 
are based on income, heat usage, number of people in the household, and 
housing type. A family of four needs to make $30,000 or less to qualify 
for help. The process to get an appointment is cumbersome, and it can 
take weeks to get an appointment.
    We believe that affordable rates provides a more equitable and easy 
way to assist our families. Bureaucratic processes and costs would not 
be necessary, and more families would receive help.

    Question 2. Do you have recommendations on how Congress could 
create a Federal grant assistance program to address house-hold 
affordability in a way that provides communities with the flexibility 
to tailor that assistance to address their unique needs?
    Answer. Given the concerns that were just outlined in the answer to 
question 1, we have no further recommendations regarding creating a 
Federal grant assistance program that addresses household 
affordability. We would recommend additional federal assistance to 
communities to help pay for water infrastructure, particularly in the 
form of grants either through the SRF process or another means. We 
would also recommend a robust application of Integrated Planning (IP) 
for communities facing costly unfunded mandates. Both of these would 
assist in the bottom line costs to the community so that rates could 
remain more affordable.
    Related to Integrated Planning, we encourage this Congress to be 
mindful about authorizing new rules and regulations without appropriate 
funding that will ultimately impose additional costs to citizens that 
will only exacerbate the current affordability problem.
    We recommend Congress to be aware regarding EPA's work on 
developing a new Financial Capability and Affordability guidance and 
weigh in if appropriate. This document will be used to determine what 
communities and citizens can afford to pay and will be used for future 
regulatory negotiations.

Question 3. As you know, in recent years, the annual appropriations 
bill for the Clean Water State Revolving Fund (SRF) has carried 
specific language requiring States to distribute a percentage of their 
funds to communities, not as traditional loans, but with additional 
subsidizations (e.g. negative interest loans or principal forgiveness) 
or grants.
    Has this authority provided a benefit to communities to address the 
local costs of wastewater assistance?
    Answer. The simple answer is yes. The problem sometimes is to 
convince the states to actually implement it. That is why the language 
Congress chooses is so important. Requiring a state to provide a 
certain percentage is much better than simply allowing a state to do 
it.

    Question 4. Do you believe this requirement should be made 
permanent in the Clean Water Act?
    Answer. Yes.

Question 5. In the fiscal year 2019 appropriation for the Clean Water 
SRF, States are required to distribute 10 percent of funds for 
additional subsidizations (e.g. negative interest loans or principal 
forgiveness) or grants, and not loans. However, in the Conference of 
Mayors Priorities for the 116th Congress, the Conference recommends 50 
percent of the funds go out as grants arid an additional 30 percent be 
used for no-interest loans.
    Can you describe your rationale for this change?
    Answer. As mentioned in Answer 1, the Federal government has walked 
away from its original commitments to water and wastewater 
infrastructure funding. From the grants of the 1970s, the Federal 
government has now moved ultimately to loans that communities have to 
pay back. As a result, local governments are spending 98% of annual 
investments in municipal water and wastewater infrastructure, including 
capital as well as operations and maintenance. The last census numbers 
released for 2016 indicate that local government spent more than $123 
billion for water and wastewater alone. Given the tremendous needs in 
our communities, many have reached their limits in bonding capacity. 
Other communities are too small or too disadvantaged to pay these loans 
back. It would help if Congress would require more of the money they 
give to States to be used as negative interest loans and principal 
forgiveness. By doing this, these loans would, in fact, act like much-
needed grants to communities who desperately need them. This would be a 
positive step by Congress to demonstrate its recommitment to funding 
water and wastewater infrastructure.
    Table 1: Level of Subsidy Required to Make Wastewater Cost per 
                          Household Affordable

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Table 2: Level of Subsidy Required to Make Wastewater and Drinking 
                  Water Cost per Household Affordable

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Questions from Hon. Grace F. Napolitano for John Mokszycki

Questions 1 and 2. During the hearing, in response to a question about 
opportunities for the ``private sector to bring solutions'' to local 
water quality challenges, you noted that you did not ``see how that 
would work.'' You also noted that it was likely that such solutions 
``are going to be a little more expensive if private entities come into 
the picture because they need to get paid.''
    Can you expand upon this answer?
    Can you describe your experiences with private sector companies' 
involvement in providing local wastewater services?
    Answer. Regarding privatization of water infrastructure and public-
private partnerships, NRWA has not opposed water supply privatization 
in principle. However, corporate water (profit generating companies or 
companies paying profits to shareholders/investors) should not be 
eligible for federal taxpayer subsidies. Private companies argue that 
they have to comply with the same regulations. However, the distinction 
in mission between public and private is the core principle that should 
be considered. Public water utilities were and are created to provide 
for public welfare (the reason why public water continues to expand to 
underserved and nonprofitable populations). Any federal subsidy that is 
provided to a corporate water utility can't be separated from 
subsidizing that company's profits.
    Regarding private or commercial funding as a source for investment 
in the country's water infrastructure, please know that there is 
currently no limitation on private or commercial investments in water 
utility infrastructure projects. Many water utilities currently rely on 
commercial or private investors (i.e. a local bank) for certain 
projects.
    However, many water infrastructure water projects would become 
unaffordable if they were to rely solely on commercial or private 
financing. This means that the ratepayers would not be able to afford 
their water bills if the total cost of the project were financed by the 
ratepayers. This dynamic is especially acute in low-income communities 
with expensive water utility infrastructure needs.
    Congress has determined that there is a federal interest in 
subsidizing some of these water infrastructure projects based on need--
the community's lack of ability to afford the project combined with the 
public health or environmental urgency of the project. Congress 
appropriates finite water funding subsidies and communities compete 
based on need for these limited federal subsidies.
    We have concerns with proposals to extend new subsidies or tax 
preference to the private investment sector to support a new national 
infrastructure initiative: (1) For private or commercial funding 
instruments to be able make projects more affordable by lowering 
interest rates, the federal government would have to offer some type of 
subsidy or tax-break to the private sector. This will have a cost to 
the federal government in decreased tax revenue or direct 
appropriations. If this cost is used to support the private sector it 
will result in a transfer or circumvention of public (taxpayer) 
subsidies from the public (local governments under the SRFs, USDA, 
etc.) to the commercial or corporate sector. We believe that federal 
water project subsidies should be used for the public/governmental 
sector water infrastructure projects determined to be a federal 
priority worthy of public subsidy. (2) Private infrastructure financing 
does not require the prioritization of projects based on need 
(economical and environmental) like the current government water 
programs. It is in the interest of the private financing sector to fund 
the projects that would have the highest return on investments. 
Therefore, if additional federal subsidies were used to subsidize the 
private sector, if would have the effect of redirecting federal 
subsidies from the projects with the greatest need (economical, public 
health and environmental) to the projects with least need.
    Federal water infrastructure subsidies should only be available to 
benefit the public--local governments who can't finance water projects 
on their own, and then the limited federal subsidies should be 
prioritized to communities in the greatest need. The current federal 
water infrastructure initiatives including the SRFs and USDA are 
required by statute to accomplish these public policy objectives and we 
have not witnessed any new private funding proposals that retain these 
objectives.

Questions 3 and 4. In recent years, Congress has included a 20 percent 
set-aside in the Clean Water State Revolving Fund for green 
infrastructure projects in its annual appropriations bill for this 
program.
    Do you think this authority should be retained, and should it be 
made permanent?
    Has this authority been helpful in assisting local wastewater 
infrastructure become more resilient and more energy efficient?
    Answer. All U.S. Environmental Protection Agency (EPA) water 
funding programs should be primarily dedicated to compliance with EPA's 
federal mandates or standards. Currently, the Safe Drinking Water Act 
and Clean Water Act are creating a tremendous financial burden on small 
and rural communities. The funds provided by Congress, however, are not 
consistently applied to communities that are experiencing the greatest 
burden as a result of federal compliance. Communities experiencing 
economic burden resulting from federal Clean Water Act and Safe 
Drinking Water Act compliance should be the priority in targeting all 
EPA water funding subsidies.
    Federal water infrastructure subsidies should only be available to 
benefit the public--local governments who can't finance water projects 
on their own, and then the limited federal subsidies should be 
prioritized to communities in the greatest need.
    Under the Clean Water Act and the Safe Drinking Water Act, the 
state revolving funds' (SRFs) application processes require the 
prioritization of funding awards based on a meritorious needs-based 
evaluation conducted by the states. Under the U.S. Department of 
Agriculture's (USDA) water infrastructure funding program, communities 
must demonstrate they don't have the ability to obtain commercial 
credit (the ``credit elsewhere'' test) and then they are only 
subsidized by the amount to make the project affordable to that 
specific community based on a ratio of water rates and local median 
household income. There are never enough federal subsidies to fund 
every project.

 Questions from Hon. Grace F. Napolitano for Andrew Kricun, P.E., BCEE

Questions 1 and 2. The Clean Water Act construction grants program and 
the Clean Water State Revolving Fund (SRF) authorities both have an 
innovative/alternative program that allowed more favorable financial 
packages for innovative projects in order to encourage utilities to try 
new approaches by reducing the associated costs.
    Within the context of the Clean Water SRF, how has the green 
infrastructure/water or energy efficiency improvements/other 
environmentally innovative activities set-aside, annually extended 
through the appropriations bills, encouraged utilities to try such 
innovations?
    Have there been any quantifiable benefits of this authority, and if 
so, please describe?
    Answer. The NJ State Revolving Fund includes provisions for 
principal forgiveness for both green infrastructure projects and for 
green energy projects. These provisions have been extremely helpful to 
the Camden County Municipal Utilities Authority. Specifically, we have 
benefited from the principal forgiveness provisions in the NJ SRF to 
green over 100 acres in Camden City, capturing 100 million gallons of 
stormwater, and correspondingly reducing the potential for combined 
sewage overflows and combined sewage flooding in the streets and homes 
of Camden residents. In addition, we have leveraged the 100 greened 
acres and created 240 green internships for at-risk young men and 
women, aged 17-25, to help maintain and preserve the green 
infrastructure. None of this could have happened without the State 
Revolving Fund, and the principal forgiveness component of the Fund was 
especially helpful.
    In addition, the NJ SRF also has provided us with principal 
forgiveness for our green energy project. This project will enable us 
to convert our biosolids into electricity and, therefore, be entirely 
off the electric grid by June 2020, thereby reducing our vulnerability 
to power outages and severe storms. As a result, our wastewater 
treatment plant will be able to continue to protect the public health 
and environment, even if there is a power outage in Camden City. And, 
we will be able to do this without raising rates to any of our 
customers. Again, we could never have been able to accomplish this 
project, without implementing a significant rate increase, if not for 
the low interest loans offered by the State Revolving Fund. With a 
median household income of $26,000, Camden City residents cannot afford 
rate increases. Yet, I strongly believe that every person in the United 
States, urban and rural, deserve safe drinking water and protection 
from sewage overflows and flooding. Thanks to the State Revolving Fund, 
the Camden County MUA has been able to provide Camden's residents with 
full clean water service, without raising rates.

    Question 3. Should this authority be made permanent, and if so, at 
what level?
    Answer. For these reasons, I strongly recommend that this authority 
be made permanent. It represents a tremendous opportunity to provide 
all citizens with innovative environmental solutions, while reducing 
the risk to the utility trying the innovation, and also, preventing a 
significant rate burden on the ratepayers.

    Question 4. Would you recommend any additional changes to this set-
aside to encourage additional innovation?
    Answer. My only recommendation would be that if additional funding 
for these authorities could be made available, it would encourage 
further replication. In addition, perhaps the innovative uses of the 
SRF could be more widely documented by EPA and disseminated through the 
Regions and States, again to encourage replication by other utilities. 
Most of the innovations that our utility implemented were borrowed and 
adapted from good ideas from other utilities. Thankfully, our 
membership in the National Association of Clean Water Agencies (NACWA) 
gains us access to such innovations. However, there are many smaller 
cities and towns that are not networked in the same way so I believe 
that it would be very helpful to these smaller utilities to hear about 
the SRF-funded innovations that are being implemented in the water 
sector.

Question 5. During the hearing, there was discussion on how certain 
small or rural communities lack the resources or personnel to oversee 
certain utility management responsibilities.
    Can you further explain the benefits of peer to peer assistance, 
regionalization, or public private partnerships in addressing these 
challenges?
    Answer.
    A.  Peer to Peer Initiative--Most wastewater and drinking water 
utilities face similar challenges and, in the public sector, at least 
water practitioners are very willing to share information and 
experiences with those challenges. It makes no sense for our smallest/ 
most economically distressed communities to face challenges in silos, 
especially when solutions are readily available in the sector. I 
mentioned the advantage of belonging to trade associations like NACWA 
and the Water Environment Federation (WEF) but there are many ''non-
networked'' utilities and municipalities that do not have access to 
these water networks.

        This is why I strongly believe that a nationwide peer to peer 
initiative, in which utilities with greater resources assist those non-
networked utilities/municipalities with fewer resources. Peer to peer 
assistance can be provided in a variety of ways, such as knowledge 
sharing, resource sharing, etc. I am very glad that the USEPA, NACWA 
and WEF are working together to create a 5O-state peer to peer 
initiative. And, I am very proud that the New Jersey Department of 
Environmental Protection is taking the lead to pilot the initiative. 
Thus far, in New Jersey, we already have 13 clean water and drinking 
water utilities who have volunteered to work with fellow utilities and 
municipalities who may need help with various challenges, such as 
applying for the State Revolving Fund, asset management, procurement, 
technical assistance, etc.
    B.  Regionalization--Camden County has 37 municipalities, including 
Camden City. It used to have 53 wastewater treatment plants, all of 
which were in non-compliance with the Federal Clean Water Act. Camden 
County created our utility, the Camden County Municipal Utilities 
Authority, to regionalize wastewater treatment in Camden County. We 
eliminated all 53 treatment plants, constructed a new wastewater 
treatment plant, designed to treat all of the sewage flow generated in 
Camden County to the levels required by the Clean Water Act, and then 
built a regional sewer system to convey flow from the 37 municipalities 
to the regional sewage treatment plant. As a result, the interior 
streams of Camden County were cleaned up almost immediately. Within one 
year of completion of this project, the fecal coliform (bacteria) 
levels in these streams dropped by 95 to 99%. In addition, the total 
cost to ratepayers dropped significantly when the 53 treatment plants 
were consolidated into one new plant. And, the new regional approach 
allowed us to provide assistance to Camden City, one of the most 
economically distressed communities in the United States, so that every 
citizen in Camden County is getting the benefit of advanced wastewater 
treatment.
    C.  Public Private Partnerships--I believe that the ideal set of 
circumstances, in most cases, is for the public sector utility to adopt 
the private sector model of efficiency, and then harness that 
efficiency to the public good. In this way, the public gets the best of 
both worlds--an efficient utility that has been created for the public 
good, not for profit.

        However, there are several instances where there are 
opportunities for public-private partnerships, especially in instances 
where tax incentives that are available to the private sector, but not 
to the public sector, can be shared by both parties. For example, the 
Camden County Municipal Utilities Authority entered into a power 
purchase agreement with a private entity to construct solar. panels at 
our treatment plant. The solar panels provide 1 Megawatt of electricity 
at a much lower price than the electric company and are also more 
resilient in the case of a power outage. Because of tax incentives 
available to the private sector, the private company was able to 
design, build, own, operate and maintain the panels at NO COST to 
Camden County, while charging a rate that was over 60% less than the 
electric company.

        On a similar note, we are working with a nearby private 
operator of trash to steam incinerator to send them clean effluent from 
our treatment plant, to be used as cooling water in the incinerator, 
while, in turn, the incinerator will provide our utility with 11 
Megawatts of green, resilient, electricity that we will then transmit, 
through a microgrid, to the most important, vulnerable, infrastructure 
in Camden City, such as the drinking water plant, hospitals, fire, 
police, schools, etc.

        In summary, while I do believe that an efficient public utility 
best serves the public, there are definitely opportunities for mutual 
benefit from public-private partnerships, as evidenced by the examples 
provided above.

Question 6. On the topic of affordability, several witnesses expressed 
support for the concept of additional Federal assistance to help local 
household rate challenges, but urged Congress to provide States and 
communities with flexibility on how that assistance would be provided.
    In your opinion, if Congress were to structure an affordability 
assistance program within the Clean Water Act, how should it be 
structured to both provide the flexibility for regional variation, as 
well as ensure rate relief to low income customers?
    Answer. Affordable safe drinking water and clean water services 
should be provided to all United States citizens, regardless of their 
zip code. I believe that drinking water and clean water utilities 
should be allowed, on a permissive, not mandatory, basis, to develop 
affordability programs that would help them to charge a fair rate to 
all of their customers, on the basis of the ability to pay. In this 
way, utilities could charge the rates they need to maintain their 
infrastructure without the need for Federal and State assistance, 
without imposing an unsupportable burden on the poorest customers.
    I believe that the ability to implement an affordability program is 
really essential for clean water and drinking water utilities to 
maintain and upgrade infrastructure as needed to protect the public 
health and the environment without unduly burdening our most 
economically distressed citizens. I also believe that, safe drinking 
water and clean water are essential needs for our citizens, in the same 
way that heat is during the winter time. Therefore, if the Congress 
could implement a Low-Income Assistance program for drinking water and 
clean water customers, that would also help water utilities provide 
needed services to our customers without unduly burdening our most 
vulnerable customers.

Question 7. The current and projected impacts of climate change on 
wastewater and stormwater infrastructure include sea level rise, storm 
surge, extreme precipitation, decreased water quality, flooding, 
increased water treatment requirements and costs, and higher energy 
demand for treatment plants.
    How could an increase in Clean Water SRF funding help your 
community make its infrastructure more resilient to these impacts?
    Answer. After Hurricane Sandy in 2013, utilities in New Jersey are 
very concerned about climate history, and how the climate has already 
changed beyond the capacity of our infrastructure as it currently 
stands. If/ As climate change worsens over time, then this 
infrastructure gap will only worsen correspondingly.
    We see three key challenges, and corresponding opportunities, that 
must be met in the face of climate change:
    <bullet>  green energy projects to reduce the vulnerability of 
treatment facilities to power outages. During Hurricane Sandy, billions 
of gallons of raw sewage were discharged into nearby rivers and streams 
due to power outages and plant failures. It is essential that our 
nation's water and wastewater treatment plants continue to operate to 
protect the public health and the environment, even in the face of 
severe storms and resulting power outages. Also, wastewater treatment 
plants use 4% of the nation's energy so converting as much of that 
usage to green energy also helps to reduce carbon footprint as well.
    <bullet>  green infrastructure to reduce the potential for 
flooding, even in the face of more severe storms. This is especially 
important in combined sewer areas where extreme storms can lead to raw 
sewage overflows and flooding into basements, streets and parks
    <bullet>  protection against river level rise is also needed to 
protect our clean water infrastructure
    The State Revolving Fund currently funds all of these types of 
projects and, as stated above, is a real difference maker, especially 
for economically distressed communities like Camden City, to be enable 
utilities to be able to construct the infrastructure needed to protect 
the public health and the environment, while also maintaining 
affordable rates. As previously mentioned, thanks to the State 
Revolving Fund, the Camden County Municipal Utilities Authority has 
undertaken projects that will (1) get our plant off the electric grid 
by June 2020 and (2) eliminate combined sewage flooding in Camden City, 
for up to the 1-inch storm by the end of 2020, all without raising 
rates to our customers. That would have been a complete impossibility 
without the help of the State Revolving Fund. Because it is a loan 
program, it is not a hand out, but it is definitely a very significant 
hand up.

    Question 8. What barriers have you experienced in using or trying 
to use SRF funds to implement green/natural infrastructure projects?
    Answer. We have been very lucky in New Jersey in that there have 
been no barriers to our using SRF funds for green infrastructure 
projects. My only recommendation is to make sure that there is 
sufficient funding in our State, and across the United States, to fund 
all of the green infrastructure projects that are possible. This is 
especially true in urban areas like Camden City where the green 
infrastructure sites are often contaminated, brownfield, sites as well. 
As long as sufficient funding is available, there is an opportunity for 
a significant ''win-win'' to convert brownfield sites, which have 
environmental and public health impacts, into cleaned green 
infrastructure sites that provide stormwater benefits and public green 
space access benefits.

Question 9. Research shows that green or nature-based solutions offer a 
wide range of social, economic, and environmental advantages that 
conventional infrastructure does not provide.
    Does your community make it a priority to implement green/natural 
infrastructure as part of its wastewater and stormwater management 
efforts?
    Answer. Yes, the Camden County Municipal Utilities Authority has 
greened over 100 acres in Camden City in order to reduce combined 
sewage flooding and overflows. In addition to capturing over 100 
million gallons of stormwater, it also provides green amenities to our 
residents and, as mentioned above, provides opportunities for green 
jobs to at-risk youth in our community who then maintain the green 
infrastructure for us, while also receiving full pay and life skills 
training as well. For all of these reasons, green infrastructure is a 
very important, necessary, component of our program to control 
stormwater and combined sewage flooding and overflows in Camden City.

    Question 10. What are your thoughts on how we can use natural 
infrastructure to protect communities and strengthen our overall 
infrastructure investments?
    Answer. For the reasons described above, any community that faces 
the challenges associated with combined sewer systems should definitely 
implement green infrastructure as a key component of their stormwater 
control program. If they do not, then their customers are really 
missing out on the many social, environmental and economic benefits 
associated with green infrastructure. This is not to say that grey 
infrastructure projects should be ignored. On the contrary, it is 
unlikely that a 100% green infrastructure approach is feasible, due to 
lack of available space. The optimal solution is a judiciously chosen 
mixture of green and grey infrastructure, funded with the help of the 
State Revolving Fund. As previously mentioned, the Camden County 
Municipal Utilities Authority has been able, thanks to the help of the 
NJ State Revolving Fund, to implement a program of grey and green 
infrastructure projects in Camden City which will eliminate combined 
sewage flooding and overflows, for up to the one-inch storm, by the end 
of 2020, all without raising rates for our customers.

    Questions from Hon. Grace F. Napolitano for Jill Witkowski Heaps

Question 1. In your testimony, you touched on the ways in which the 
Federal government can assist communities that may not have the means 
or access to affordable drinking and wastewater services. You suggested 
that ``Congress should create a federal block grant program to directly 
assist households in paying water and sewer bills'' and that it could 
be modeled off of the Low-Income Home Energy Assistance Program 
(LIHEAP).
    In your opinion, do you believe that it should be a priority for 
Congress to assist low income individuals and households who may not be 
able to afford clean water and sewer services--and what do you think is 
the most effective way to accomplish that?
    Answer. Yes, I believe it should be a Congressional priority to 
ensure that everyone living in the United States of America has clean, 
safe running water and sanitation in their homes. I think there are 
several steps to accomplish this effectively.
    First, I believe Congress should recognize water as a human right. 
This can be done in a resolution, in stand-alone legislation, in a 
preamble to new legislation, or as substantive requirements in new 
legislation. Although it would be best if it was included in direct 
legislation, even preamble language can be powerful. The Congressional 
intent stated in the Clean Water Act has been a powerful tool in 
protecting and restoring our Nation's waters.
    Second, Congress should use existing funding and new funding 
mechanisms to direct federal funds to address the issue. Increasing 
both the Clean Water State Revolving Fund (SRF) and Safe Drinking Water 
SRF will make more funding available for localities to address water 
infrastructure issues, but that funding is not designed to reach 
individuals and families in need. New funding sources to help utilities 
design customer assistance programs can support better systems with 
equitable and affordable rate structures. A new funding program 
structured like the Low Income Home Energy Assistance Program (LIHEAP) 
could direct federal funds to organizations that directly support 
families and individuals who need help paying their water and sewer 
bills.
    Most importantly, to truly address our nation's water affordability 
issues, Congress must prioritize poverty-reduction strategies. The 
connection between water affordability and poverty was highlighted to 
me by a participant designing the City of Buffalo's water affordability 
program, who at one point exclaimed with exasperation: ``We can't be 
responsible for fixing Buffalo's poverty problem!'' Utilities alone 
cannot address poverty issues across the country. For this reason, I 
urge Congress to support a suite of legislative measures necessary to 
reduce poverty. These include: (1) raising the minimum wage to a living 
wage of $15 per hour, as included in the Raise the Wage Act of 2019, 
H.R. 582, (2) taking efforts to ensure affordable housing (potentially 
a rent relief bill, like the Rent Relief Act of 2018), and (3) 
undertaking national action to make childcare affordable so that 
parents can afford to work (such as through the Child Care for Working 
Families Act of 2019, S. 568 or the Universal Child Care and Early 
Learning Act of 2019).

Question 2. In your testimony, you mention that you serve as vice-chair 
of the National Environmental Justice Advisory Council, a federal 
advisory committee to the EPA. I understand you chaired the workgroup 
which wrote a report ``EPA's Role in Addressing the Urgent Water 
Infrastructure Needs of Environmental Justice Communities.''
    Has the report been finalized and has EPA released it publicly?
    Answer. The National Environmental Justice Advisory Council (NEJAC) 
report ``EPA's Role in Addressing the Urgent Water Infrastructure Needs 
of Environmental Justice Communities,'' report has been finalized, but 
my understanding is that it still being routed to Administrator Wheeler 
and has not yet been made public.

    Question 3. Could you please provide the Committee with a copy of 
that report?
    Answer. It is attached. However, I request that it be kept 
confidential until Administrator Wheeler has received the report and it 
is publicly available. I would be happy to inform Subcommittee staff as 
soon as that occurs.
    [The report was provided to the committee, and it is retained in 
the committee files.]

    Question 4. Could you briefly describe the findings of your report?
    Answer. The NEJAC recognized that there are significant water 
infrastructure issues that impact environmental justice communities. 
The NEJAC recommends that the EPA take action to further eight goals 
related to drinking water, sewage, and stormwater infrastructure, 
investment and pollution control. The eight goals are:
    1.  Change government culture and policies to reflect water is a 
human right;
    2.  Request Congress to allocate more funding to help communities 
with infrastructure building, oversight and public health protection;
    3.  Promote affordable water and wastewater rates;
    4.  Prioritize issues in EJ communities;
    5.  Involve EJ communities meaningfully in infrastructure decision-
making;
    6.  Build community capacity in water systems;
    7.  Support innovative technologies;
    8.  Be accountable and rebuild public confidence and trust.
    The report continues: ``We recognize that EPA currently lacks the 
resources to carry out fully our recommendations. For this reason, our 
primary recommendation calls for the EPA to build a coalition of 
federal, state, local, and community stakeholders to work collectively 
on these recommendations. The top priority should be to secure more 
funding from Congress for clean water infrastructure investments and 
programs, then allocate them first to environmental justice 
communities. We believe many of the recommendations outlined here can 
be acted upon today and such actions should not be delayed.'' (emphasis 
in original).
    The report also recommends that EPA should prioritize the following 
actions to achieve clean, safe, accessible, and affordable drinking 
water and sanitation services for all Americans:
    <bullet>  Urge Congress to appropriate more federal funding for 
water infrastructure grants and loans, prioritizing environmental 
justice communities;
    <bullet>  Encourage water utilities to diversify funding mechanisms 
for water infrastructure design and improvement;
    <bullet>  Target meaningful outreach in environmental justice 
communities;
    <bullet>  Develop policies and protocols with state water quality 
regulators to ensure that a ``Flint crisis'' never happens again;
    <bullet>  Conduct detailed infrastructure assessments, especially 
in vulnerable environmental justice communities;
    <bullet>  Establish a household action level for lead in drinking 
water;
    <bullet>  Identify inadequate enforcement of the Clean Water Act, 
Safe Drinking Water Act, and the Lead and Copper Rule where states and 
local regulators fail to do so;
    <bullet>  Work with federal and state agencies after a disaster to 
provide immediate potable water in larger quantities to meet emergency 
needs and maintain public health;
    <bullet>  Encourage and support efforts to build local water system 
capacity including training operators and sharing best practices; and
    <bullet>  Work directly with residents in environmental justice 
communities to educate communities about water infrastructure issues.

Question 5. In your testimony, you suggest that Congress ``massively 
increase federal government investment in water infrastructure.'' You 
also note that the current needs assessment is out of date.
    In your opinion, at what level should Congress be funding the Clean 
Water State Revolving Fund?
    Answer. In my opinion, Congress should fund the Clean Water SRF at 
$6 billion per year. This funding level would restore funding levels to 
those during the Reagan Administration.

    Question 6. How should we go about setting funding levels for the 
SRF as we move forward?
    Answer. The Clean Water Act SRF should be set at a funding level 
sufficient to support a significant portion of the rising costs of 
drinking water, sewer, and stormwater infrastructure, particularly at a 
time when communities are becoming more vulnerable to severe weather, 
including droughts and floods, that accompany climate change. Congress 
should rely on biennial need updates from the EPA. EPA should estimate 
needs based not only on direct input from utilities and municipalities, 
but also on feedback from academics and organizations such as the 
American Society of Civil Engineers, the American Water Works 
Association, the National Association of Clean Water Agencies, the 
Natural Resources Defense Council, and Earthjustice. EPA's estimates 
should be conservative, assuming that water, stormwater, and sewer 
service providers will underestimate long-term costs or will fail to 
respond to the survey. Additionally, EPA should offer guidance and 
assistance to those providing cost estimates to help them understand 
modifications necessary to their systems to help them become resilient 
in the face of a changing climate.

    Question 7. What do you suggest Congress do in order to get a 
current assessment of need?
    Answer. Congress should clarify to EPA its expectations for 
receiving cost updates for both clean water and drinking water needs. 
EPA, in partnership with states, territories and the District of 
Columbia, conducts the Clean Watersheds Needs Survey every four 
years.\1\ EPA explains on its website, ``Congress requires EPA to 
conduct the [survey] under sections 205(a) and 516 of the Clean Water 
Act (33 U.S Code Sec. 1375).'' \2\
---------------------------------------------------------------------------
    \1\ See ``About the Clean Watersheds Needs Survey,'' https://
www.epa.gov/cwns/about-clean-watersheds-needs-survey-cwns.
    \2\ Id.
---------------------------------------------------------------------------
    However, Section 516 of the Clean Water Act mandates EPA ``shall 
make. a detailed estimate, biennially revised, of the cost of 
construction of all needed publicly owned treatment works in all of the 
States and of the cost of construction of all needed publicly owned 
treatment works in each of the States.'' 33 U.S.C. Sec.  1375(b)(1)(B). 
The Act directs that the EPA Administrator ``shall submit such detailed 
estimate and such comprehensive study of such cost to the Congress no 
later than February 10 of each odd-numbered year.'' 33 U.S.C. Sec.  
1375(b)(1).
    The plain language of the statute directs EPA to submit cost 
estimates of Clean Water Act compliance for sewage and stormwater 
discharges every other year. Having frequently updated cost estimates 
provides Congress with much-needed data in order to make informed 
decisions about appropriations. I would suggest that Congress ask EPA 
to explain why it conducts a survey every four years and point out that 
the most recent numbers provided to Congress were from a 2012 
survey.\3\ I would also suggest that Congress direct EPA to comply with 
the Clean Water Act's statutory language requiring detailed estimates 
to be provided by February 10 of each odd-numbered year. I understand 
that providing detailed estimates may be a significant undertaking for 
the agency. If EPA does not have the current resources to perform the 
statutory-required biennial estimates, Congress should increase EPA's 
funding so that the Agency can fulfill its statutory duties.
---------------------------------------------------------------------------
    \3\ The Safe Drinking Water Act requires a needs assessment every 
four years. 42 U.S.C. Sec. 300j-12(h). The 2015 Drinking Water Needs 
Assessment was submitted to Congress in March 2018.

    Question 8. Do you think the amount currently appropriated for the 
CWSRF is sufficient to help communities incorporate resiliency 
strategies into their long-term wastewater infrastructure investment 
plans?
    Answer. As recent flooding in Nebraska painfully highlights, much 
of our current water infrastructure is inadequate to deal with our 
current climate, let alone predicted increases in severe weather.\4\ 
While Clean Water SRF funds have been used to build climate-resilient 
infrastructure, those efforts have been primarily after a storm event 
devastated a community. For example, Clean Water SRF funds were used to 
rebuild resilient water infrastructure after Hurricane Sandy. But EPA 
awarded $474 million for rebuilding only when emergency funds were 
appropriated through the Disaster Relief Appropriations Act.\5\
---------------------------------------------------------------------------
    \4\ Grist, ``Climate Change is Overwhelming Our Crappy Water 
Infrastructure,'' https://grist.org/article/climate-change-nebraska-
flooding-is-overwhelming-our-crappy-water-infrastructure/.
    \5\ Clean Water State Revolving Fund, FY 2014 Environmental 
Benefits Report, https://www.epa.gov/sites/production/files/2015-04/
documents/cwsrf_2014_environmental_
benefits_report.pdf.
---------------------------------------------------------------------------
    There needs to be a better way to financially support long-term, 
climate-resilient water infrastructure before disaster strikes. The 
Natural Resources Defense Council recognizes that our SRFs permit 
communities to use the funds for projects that promote resiliency and 
has offered suggestions on how to better use the Clean Water and Safe 
Drinking Water SRFs to build climate-resilient communities.\6\ 
Additional appropriations to these SRFs will allow more communities to 
take advantage of the funds for resiliency purposes.
---------------------------------------------------------------------------
    \6\ NRDC, ``Using State Revolving Funds to Create Climate-Resilient 
Communities,'' https://www.nrdc.org/sites/default/files/state-
revolving-funds-IP.pdf.
---------------------------------------------------------------------------
    The reason more communities may not be taking advantage of the SRFs 
for resiliency is because their engineers may not be incorporating 
climate change risk management into longterm planning. One issue is 
that many engineers designing our nation's wastewater systems rely on 
current engineering practices, which use historic data to design 
infrastructure (known as stationarity). Further, since the nature of 
climate science makes it impossible to predict the exact changes that 
will happen in any given location, engineers have difficulty grappling 
with the uncertainty. To address these issues, the American Society of 
Civil Engineers suggests incorporating future climate trends into 
infrastructure design and adopt low-regret, adaptive approaches.\7\
---------------------------------------------------------------------------
    \7\ American Society of Civil Engineers, ``Adapting Infrastructure 
to a Changing Climate,'' https://www.infrastructurereportcard.org/
adapting-infrastructure-to-a-changing-climate.
---------------------------------------------------------------------------
    How much funding do we need to support climate-resilient water 
systems in all of our communities? A 2010 report from the National 
Association of Clean Water Agencies estimated the adaptation costs for 
drinking water and sewage facilities to be between $448 billion and 
$944 billion through 2050.\8\ I have been unable to find EPA estimates 
of resiliency costs for drinking water, wastewater, and stormwater 
systems. Neither the 2012 Clean Water Needs Survey results nor the 2015 
Drinking Water Needs Survey (results provided to Congress in March 
2018) mention the words ``climate change,'' though the Drinking Water 
Needs Survey provides that some of the projects included in the cost 
estimate may be needed for resiliency. Further, EPA relies on self-
reporting from utilities and communities to compile those estimates. If 
the engineers communities and utilities relied on for cost estimates 
are not planning for climate resiliency, those communities and 
utilities will not have cost estimates for resiliency projects.
---------------------------------------------------------------------------
    \8\ National Association of Clean Water Agencies, ``Confronting 
Climate Change: An Early Analysis of Water and Wastewater Adaptation 
Costs,'' https://www2.nacwa.org/images/stories/public/2009-10-
28ccreport.pdf.
---------------------------------------------------------------------------
    In order to understand the magnitude of investment necessary to 
build climate-change resilient infrastructure, we need to ensure our 
engineers are incorporating risk-management and resiliency into long-
term water planning that addresses not just wastewater infrastructure 
alone, but our entire water system, including drinking water and 
stormwater, while also addressing the increasing possibility of 
flooding and drought. The American Society of Civil Engineers and has 
resources to assist engineers and utilities in planning for resilient 
infrastructure,\9\ and EPA has guidance about financing resilient 
infrastructure.\10\ But it will take a shift in the mindset of our 
engineers to change how they design and plan so we can have a better 
idea of overall costs of a resilient water system, and it will take a 
shift in the mindset of utilities and municipalities to be asking 
engineers for help building resilient systems.
---------------------------------------------------------------------------
    \9\ See Bilal Ayyub ``Climate-Resilient Infrastructure: Adaptive 
Design and Risk Management,'' https://ascelibrary.org/doi/book/10.1061/
9780784415191.
    \10\ EPA's Water Finance Center, ``Financing Resilient and 
Sustainable Water Infrastructure,'' https://www.epa.gov/
waterfinancecenter/financing-resilient-and-sustainable-water-
infrastructure.

Question 9. During your testimony, you mentioned that the Environmental 
Protection Agency's clean water needs survey is outdated and may not 
reflect any needs communities may have to prepare for climate change or 
to make their infrastructure more resilient.
    Do you have any recommendations for Congress to address those 
needs?
    Answer. Based on my comments above, I recommend that Congress 
should work with EPA and the states to put in place more incentives or 
even mandates for communities and the technical experts they rely on to 
put climate change adaptation and resilience as a priority in 
infrastructure planning.
    The Disaster Recovery Reform Act of 2018 was a step in the right 
direction of supporting resilient infrastructure in our 
communities.\11\ That law includes the following sections, which 
support rebuilding facilities in a more resilient way and also sets 
aside some pre-disaster mitigation funding:
---------------------------------------------------------------------------
    \11\ https://www.fema.gov/disaster-recovery-reform-act-2018.
---------------------------------------------------------------------------
    <bullet>  National Public Infrastructure Pre-Disaster Hazard 
Mitigation (Section 1234): Authorizes the National Public 
Infrastructure Pre-Disaster Mitigation fund which will be funded as a 6 
percent set aside from disaster expenses, to allow for a greater 
investment in mitigation before a disaster.
    <bullet>  Hazard Mitigation Grant Program for Resilience (Section 
1235a): Ensures Hazard Mitigation Grant Program funding increases 
resilience to future damage, hardship, loss or suffering.
    <bullet>  Public Assistance 406 Codes and Standards (Section 
1235b): Authorizes FEMA to provide Public Assistance funding to replace 
and restore disaster damaged facilities to the latest published 
editions of relevant consensus-based codes and standards to ensure that 
facilities are restored in a manner that allows them to be resilient.
    Another suggestion is for Congress to revisit the utility of 
separate Clean Water and Safe Drinking Water SRFs. While the funds were 
initially created in each separate statute to assist with statutory 
compliance, more and more of our communities are shifting to integrated 
water planning, addressing drinking water, sewage, and stormwater 
together. In testimony on March 7, 2019, Mayor Condon and Mr. Andrew 
Krichun lauded the virtues of integrated water planning. Yet our 
primary federal mechanism to fund projects developed during integrated 
planning is still separated into Clean Water and Safe Drinking Water. 
In a conversation with the City of Buffalo on March 26, 2019, sewer and 
water officials relayed that because the city has a combined sewer 
system, they have no trouble accessing Clean Water SRF funds to support 
priority sewer projects. But the city cannot access Safe Drinking Water 
SRF funds to prevent problems from existing lead pipes because that 
process prioritizes funding to communities already in drinking water 
crisis, leaving no funding left for communities trying to prevent a 
looming crisis. We need to better support our communities that are 
planning to avoid or prevent a catastrophe, instead of waiting until 
systems are devastated by extreme events and only then providing 
meaningful financial support to rebuild systems.

Question 10. During the hearing, the issue of extending the term of 
Clean Water Act National Pollutant Discharge Elimination System permits 
from five to a maximum of ten years was briefly discussed. You 
mentioned this was a bad idea.
    Could you please expand upon that?
    Answer. There are several reasons why a ten-year NPDES permit term 
is a bad idea. Congress considered these reasons when it passed the 
Clean Water Act. First, the permitting system is the National Pollution 
Discharge Elimination System. The whole purpose of the 5-year permit is 
to effectuate the technology forcing components of the Act while moving 
toward the Act's goal of the elimination of discharges of pollutants 
into out our Nation's waterways by 1985. 33 U.S.C. Sec.  1251 (a)(1). 
We should never retreat from that fundamental principle, nor should we 
wait for ten years to make technical improvements based on new 
developments. For example, if we developed a new way to take mercury 
out of wastewater, extending the time for permits to ten years would 
mean that it would be over a decade in many cases before the new 
technology was actually utilized.
    Similarly, under Clean Water Act Section 303(c), water quality 
standards are to be revised every three years. A ten-year permit would 
mean that discharges would generally go many years before they were 
revised to take into account the new science. In theory permits could 
be reopened to take advantage of the new standards but in fact, new 
standards are practically never considered until permits come up.
  Additional Testimony, Provided in Response to Questions During the 
           Hearing or Clarification of my Original Testimony
California's Human Right to Water Law has had a positive impact in 
        California.
    Governor Jerry Brown signed AB 685 into law on September 25, 2012. 
The law establishes that it is the law of the state that ``every human 
being has the right to safe, clean, affordable, and accessible water 
adequate for human consumption, cooking, and sanitary purposes.'' The 
law requires state agencies to consider the policy when adopting and 
implementing regulations.
    The law's adoption led to the following actions and changes in 
California so far: \12\
---------------------------------------------------------------------------
    \12\ See Circle of Blue, ``Timeline of California's Human Right to 
Water,'' https://www.circleofblue.org/2017/world/timeline-california-
human-right-water/.
---------------------------------------------------------------------------
    1.  Governor Brown declared a drought state of emergency on January 
17, 2014. The Governor sought voluntary conservation and later mandated 
25% water use reductions.\13\
---------------------------------------------------------------------------
    \13\ ``Governor Brown Declares Drought State of Emergency,'' 
https://www.ca.gov/archive/gov39/2014/01/17/news18368/index.html.
---------------------------------------------------------------------------
    2.  In April 2014, the State Department of Water Resources released 
the report, ``Californians Without Access to Safe Water and 
Sanitation'' as part of the California Water Plan Update.\14\
---------------------------------------------------------------------------
    \14\ https://www.waterboards.ca.gov/centralcoast/water_issues/
programs/enviro_justice/ej_
docs/2_20_15ca_wo_safewater_san.pdf.
---------------------------------------------------------------------------
    3.  The state transferred oversight of drinking water from the 
Department of Public Health to the State Water Board on July 1, 2014.
    4.  In September 2014, Governor Brown signed into law the 
Sustainable Groundwater Management Act, exercising tighter control over 
groundwater pumping and quality.\15\
---------------------------------------------------------------------------
    \15\ ``Governor Brown Signs Historic Groundwater Legislation,'' 
https://www.ca.gov/archive/gov39/2014/09/16/news18701/index.html.
---------------------------------------------------------------------------
    5.  In November 2014, California voters approved Proposition 1, a 
$7.1 billion bond measure for water projects, including funding for 
poor communities.
    6.  California law directs the State Water Board to establish the 
Office of Sustainable Water Solutions to provide technical solutions to 
communities struggling to provide clean drinking water.\16\
---------------------------------------------------------------------------
    \16\ AB 92, http://www.leginfo.ca.gov/pub/15-16/bill/asm/ab_0051-
0100/ab_92_bill_
20150327_chaptered.htm
---------------------------------------------------------------------------
    7.  The State Water Board released a Safe Drinking Water Plan in 
June 2015.\17\
---------------------------------------------------------------------------
    \17\ https://www.waterboards.ca.gov/publications_forms/
publications/legislative/docs/2015/sdwp.pdf.
---------------------------------------------------------------------------
    8.  In 2015, two important state laws pass. One grants the State 
Water Board the authority to force failing water utilities to merge 
with a better-functioning neighboring utility.\18\ The other mandates 
that the State Water Board design and implement a state-wide water 
affordability program.\19\
---------------------------------------------------------------------------
    \18\ SB 88, https://leginfo.legislature.ca.gov/faces/
billTextClient.xhtml?bill_id=201520160SB88.
    \19\ AB 401, https://leginfo.legislature.ca.gov/faces/
billTextClient.xhtml?bill_id=201520160
AB401.
---------------------------------------------------------------------------
    9.  In 2016, the State Water Board adopted a resolution affirming 
that the human right to water is a ``top priority'' and a ``core 
value.'' \20\
---------------------------------------------------------------------------
    \20\ https://www.waterboards.ca.gov/board_decisions/adopted_orders/
resolutions/2016/rs2016_0010.pdf
---------------------------------------------------------------------------
    10.  The State Water Board in 2017 unveiled the Human Right to 
Water portal, a website focusing on drinking water system 
compliance.\21\
---------------------------------------------------------------------------
    \21\ https://www.waterboards.ca.gov/water_issues/programs/hr2w/
---------------------------------------------------------------------------
    California's Human Right to Water Law is included in its entirety 
here:
       the people of the state of california do enact as follows:
    SECTION 1. Section 106.3 is added to the Water Code, to read:
      106.3. (a) It is hereby declared to be the established policy of 
the state that every human being has the right to safe, clean, 
affordable, and accessible water adequate for human consumption, 
cooking, and sanitary purposes.
      (b) All relevant state agencies, including the department, the 
state board, and the State Department of Public Health, shall consider 
this state policy when revising, adopting, or establishing policies, 
regulations, and grant criteria when those policies, regulations, and 
criteria are pertinent to the uses of water described in this section.
      (c) This section does not expand any obligation of the state to 
provide water or to require the expenditure of additional resources to 
develop water infrastructure beyond the obligations that may exist 
pursuant to subdivision (b).
      (d) This section shall not apply to water supplies for new 
development.
      (e) The implementation of this section shall not infringe on the 
rights or responsibilities of any public water system.
    Spokane, Washington is facing complex pollution issues from legacy 
PCBs. The fact that compliance with health-based water quality 
standards is difficult does not mean the standard should be changed.
    Mayor Condon of Spokane, Washington shared with the Subcommittee 
his frustrations over the state of Washington's stringent pollution 
requirements for PCBs--7 parts per quadrillion--and how that 
requirement impacts water utilities. However, Mayor Condon's testimony 
did not explain the scope of the pollution problem in the Spokane River 
and across Washington, the impact that pollution has on vulnerable 
communities, and opportunities to use new and emerging technologies to 
demonstrate compliance with health-based pollution standards.
A. PCB pollution is a significant environmental justice issue in 
        Washington.
    Polychlorinated biphenyl (PCBs) are persistent, bioaccumulative 
carcinogen and endocrine disruptor.\22\ PCBs were used from 1929 until 
1976, when the federal government banned their use under the Toxics 
Substances Control Act.\23\ In the Spokane River, there are a plethora 
of ``legacy'' sources of PCBs, including oils, light ballasts, 
caulking, building materials, transformers, along with inks and 
dyes.\24\ PCBs bio-magnify in the aquatic food chain and collect in 
toxic levels inside the fish that people catch and eat.
---------------------------------------------------------------------------
    \22\ U.S. EPA, ``Learn about PCBs,'' https://www.epa.gov/pcbs/
learn-about-polychlorinated-biphenyls-pcbs.
    \23\ Washington State Department of Ecology, ``PCBs,'' https://
ecology.wa.gov/Waste-Toxics/Reducing-toxic-chemicals/Addressing-
priority-toxic-chemicals/PCBs.
    \24\ Id.
---------------------------------------------------------------------------
    The Spokane River is currently listed as ``impaired'' for PCBs and 
the Department of Health has issued Fish Consumption Advisories warning 
people to not eat fish from the Spokane River.\25\ Fish contamination 
is a significant environmental justice issue in the Spokane River.\26\ 
PCBs occur in nearly every species of fish occurring in the Spokane 
River basin and pose a threat to anyone who consumes these fish. 
Alarmingly, these chemical pollutants in the river continue to all but 
preclude fish consumption on the part of tribal nations downstream.\27\ 
Twenty nine treaty tribes of Washington State have been working closely 
with the EPA to address this issue.
---------------------------------------------------------------------------
    \25\ Washington State Department of Health, ``Mobile Fish 
Advisories,'' https://www.doh.wa.gov/DataandStatisticalReports/
HealthDataVisualization/MobileFishAdvisoriesFreshwaterAreasMap.
    \26\ National Environmental Justice Advisory Council, ``Fish 
Consumption and Environmental Justice,'' https://www.epa.gov/sites/
production/files/2015-02/documents/fish-consump-report_
1102.pdf
    \27\ See Wendee Nicole, ``Meeting the Needs of the People: Fish 
Consumption Rates in the Pacific Northwest,'' https://
www.ncbi.nlm.nih.gov/pmc/articles/PMC3855506/
---------------------------------------------------------------------------
B. Indigenous peoples have historically relied on fish as a staple in 
        their diet. PCB pollution has threatened their way of life.
    The Spokane Indian Reservation lies on the Spokane River, 
downstream of the City of Spokane. Indigenous people fished up and down 
the Spokane River, on and off current reservation boundaries, and 
historically consumed nearly 385 grams per day. Because of fish 
consumption advisories, indigenous fish consumption has dwindled to 
historic lows, which has devastating effects on the cultural heritage 
and the health and wellbeing of tribal members. In 2013, the Spokane 
Tribe promulgated their own water quality standard of 1.3 pg/L in the 
waters below the city of Spokane to address the PCB contamination 
issue.\28\ The EPA has acknowledged that ``in Washington, many tribes 
hold reserved rights to take fish for subsistence, ceremonial, 
religious, and commercial purposes, including treaty-reserved rights to 
fish all usual and accustomed fishing grounds and stations in waters 
under state jurisdiction, which cover the majority of waters in the 
state.''
---------------------------------------------------------------------------
    \28\ Spokane Tribe Water Quality Standards, https://www.epa.gov/
sites/production/files/2014-12/documents/spokane-tribe-wqs.pdf
---------------------------------------------------------------------------
    In 2016, Washington State approved a Water quality standard based 
on Human Health Criteria for PCBs that was woefully inadequate. The 
Human Health Criteria was based on a Fish Consumption Rate of only 6.5 
grams of fish per day. Later that same year, the EPA stepped in and 
promulgated scientifically based, legally defensible, health-based 
Water Quality Standard for PCBs that protect the public and tribal fish 
consumption.\29\ This new Water Quality Standard was based on a Fish 
Consumption Rate of 175 grams of fish per day, which is half of 
traditional consumption levels. This adjusts a water column Water 
Quality Standard for PCBs of 7 parts per quadrillion.
---------------------------------------------------------------------------
    \29\ Fact Sheet: Revision of Federal Human Health Criteria 
Applicable to Washington, https://19january2017snapshot.epa.gov/sites/
production/files/2016-11/documents/washington_hhc_
final_rule_fact_sheet_508c.pdf.
---------------------------------------------------------------------------
    Mayor Condon stated in his testimony that there is currently no 
test to detect PCB levels that low. Where current test methods cannot 
detect those low levels of PCBs, there are two approaches to this 
issue. First, the utility can demonstrate compliance with the standard 
by using the most sensitive PCB test available and achieving a ``not 
detect'' result. The state could then assume compliance with the 
standard. Second, the new low standard will then drive innovation, 
encouraging companies to develop a test now that there is a market to 
test for ultra-low levels of PCBs. Finally, just because a standard is 
difficult to achieve does not make it wrong. The whole point of water 
quality standards is to protect human health, aquatic health, and the 
uses of our waters. For this reason, Washington's PCB standards are 
well-justified and should be maintained.
     clarification on the extent of the water affordability problem
    In my March 7, 2019 testimony, I referred to a Michigan State 
University study estimating the number of households likely struggling 
to pay their bills.\30\ It has been brought to my attention that there 
has been some criticism of the methodology used in that study, in 
particular that the ``quantitative and spatial assessments in this 
study are not well grounded, leaving the dimensions of the `burgeoning 
crisis' of water affordability proclaimed by the authors still quite 
hazy.'' \31\ Results from a water affordability study published March 
8, 2019 ``indicate that low-income households must spend an average of 
9.7% of their disposable income and/or work 9.5 hours at minimum wage 
to pay for basic monthly water and sewer service but also that these 
values vary considerably across the country.'' \32\ This variability 
means that while in some communities water and sewer rates may be very 
affordable, in other places water affordability is an urgent problem 
for many households.
---------------------------------------------------------------------------
    \30\ Mack, Elizabeth, Wrase Sarah (2017) ``A Burgeoning Crisis? A 
Nationwide Assessment of the Geography of Water Affordability in the 
United States.'' PLOS ONE https://doi.org/10.1371/journal.pone.0169488.
    \31\ See Critique by NRDC, https://journals.plos.org/plosone/
article/comment?id=10.1371/annotation/d37f215d-0c6a-43d4-ac39-
23bc867c4836
    \32\ Manuel Teodoro, ``Water and sewer affordability in the United 
States,'' AWWA Water Science, March 8, 2019.
---------------------------------------------------------------------------
    Thank you again for the opportunity to provide testimony on this 
important issue.

                                    
</pre></body></html>
